APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
————
No. 19-3196
————
WILLIAM T. SCHMITT; CHAD THOMPSON;
DEBBIE BLEWITT,
Plaintiffs-Appellees,
v.
FRANK LAROSE, Ohio Secretary of State,
Defendant-Appellant.
————
Appeal from the United States District Court
for the Southern District of Ohio at Columbus
No. 2:18-cv-00966—
Edmund A. Sargus, Jr., Chief District Judge.
————
Argued: June 26, 2019
Decided and Filed: August 7, 2019
————
Before: CLAY, WHITE, and BUSH, Circuit Judges.
————
COUNSEL
ARGUED: Benjamin M. Flowers, OFFICE OF THE
OHIO ATTORNEY GENERAL, Columbus, Ohio, for
Appellant. Mark R. Brown, CAPITAL UNIVERSITY
LAW SCHOOL, Columbus, Ohio, for Appellees. ON

2a
BRIEF: Benjamin M. Flowers, Michael J. Hendershot,
Stephen P. Carney, OFFICE OF THE OHIO ATTORNEY GENERAL, Columbus, Ohio, for Appellant. Mark
R. Brown, CAPITAL UNIVERSITY LAW SCHOOL,
Columbus, Ohio, Mark G. Kafantaris, Columbus,
Ohio, for Appellees.
WHITE, J., delivered the opinion of the court in
which CLAY, J., joined, and BUSH, J., joined in part.
BUSH, J. (pp. 15–26), delivered a separate opinion
concurring in part and in the judgment.
OPINION
HELENE N. WHITE, Circuit Judge. Plaintiffs
William T. Schmitt and Chad Thompson submitted
proposed ballot initiatives to the Portage County
Board of Elections that would effectively decriminalize marijuana possession in the Ohio villages of
Garrettsville and Windham. The Board declined to
certify the proposed initiatives after concluding that
the initiatives fell outside the scope of the municipalities’ legislative authority. Plaintiffs then brought this
action asserting that the statutes governing Ohio’s
municipal ballot-initiative process impose a prior
restraint on their political speech, violating their
rights under the First and Fourteenth Amendments.
The district court issued a permanent injunction
against the Portage County Board of Elections and
Defendant Frank LaRose, in his official capacity as the
Secretary of State of Ohio, prohibiting the enforcement of the statutes in any manner that failed to
provide adequate judicial review. Defendant LaRose
now appeals.
Because the Ohio statutes at issue do not violate
Plaintiffs’ First or Fourteenth Amendment rights, we
REVERSE the district court’s order and VACATE
the permanent injunction.

3a
I.
The Ohio Constitution reserves the power of legislation by initiative “to the people of each municipality on
all questions which such municipalities may now or
hereafter be authorized by law to control by legislative
action.” Ohio Const. art. II, § 1f. “Because citizens of a
municipality cannot exercise [initiative] powers greater
than what the [Ohio] Constitution affords,” an initiative may only propose “legislative action,” as opposed
to “administrative action.” State ex rel. Ebersole v. Del.
Cty. Bd. of Elections, 20 N.E.3d 678, 684 (Ohio 2014)
(per curiam). “The test for determining whether an
action is legislative or administrative is whether the
action taken is one enacting a law, ordinance, or regulation, or executing a law, ordinance or regulation
already in existence.” Id. (citation and internal quotation marks omitted).
Under Ohio law, “[e]lection officials serve as gatekeepers, to ensure that only those measures that actually constitute initiatives or referenda are placed on
the ballot.” State ex rel. Walker v. Husted, 43 N.E.3d
419, 423 (Ohio 2015) (per curiam). Specifically, Ohio
Revised Code (O.R.C.) § 3501.11(K) requires county
boards of elections to “[r]eview, examine, and certify
the sufficiency and validity of petitions,” and to
“[e]xamine each initiative petition . . . to determine
whether the petition falls within the scope of authority
to enact via initiative and whether the petition satisfies the statutory prerequisites to place the issue
on the ballot as described [by Ohio law].” O.R.C.
§ 3501.38(M)(1) further provides that, “[u]pon receiving an initiative petition,” the relevant board of elections “shall examine the petition to determine”:
Whether the petition falls within the scope of a
municipal political subdivision’s authority to enact

4a
via initiative, including, if applicable, the limitations placed by Sections 3 and 7 of Article XVIII of
the Ohio Constitution on the authority of municipal corporations to adopt local police, sanitary,
and other similar regulations as are not in conflict
with general laws, and whether the petition satisfies the statutory prerequisites to place the issue
on the ballot. The petition shall be invalid if any
portion of the petition is not within the initiative
power[.]
Id. § 3501.38(M)(1)(a). If a petition “falls outside the
scope of authority to enact via initiative or does not
satisfy the statutory prerequisites to place the issue on
the ballot,” neither the board of elections nor the Ohio
Secretary of State may accept the initiative. Id.
§ 3501.39(A)(3). The ballot-initiative statutes do not
set forth the legislative-administrative distinction.
However, the Ohio Supreme Court has explained that,
“[b]ecause [an initiative] on an administrative matter
is a legal nullity, boards of elections have not only the
discretion but an affirmative duty to keep such items
off the ballot.” Walker, 43 N.E.3d at 423 (citation
omitted). “It necessarily follows that the boards have
discretion to determine which actions are administrative and which are legislative.” Id.
When a board of elections declines to place an initiative on the ballot on the basis that it proposes an
administrative action, the proponent has no statutory
right to immediate judicial review. Instead, the proponent must seek a writ of mandamus in Ohio state court
requiring the board of elections to put the initiative on
the ballot. To show entitlement to mandamus relief,
the petitioner must prove by clear and convincing
evidence: “(1) a clear legal right to the requested relief,
(2) a clear legal duty on the part of the board members

5a
to provide it, and (3) the lack of an adequate remedy
in the ordinary course of the law.” State ex rel. Bolzenius
v. Preisse, 119 N.E.3d 358, 360 (Ohio 2018) (per
curiam) (citation omitted). In reviewing a decision by
a board of elections, an Ohio court may only issue the
writ if the board members “engaged in fraud or corruption, abused their discretion, or acted in clear disregard of applicable legal provisions.” Id. Typically, the
“proximity of the [next] election” satisfies the requirement that there be no adequate remedy in the ordinary course of the law. See, e.g., State ex rel. Harris v.
Rubino, 119 N.E.3d 1238, 1246 (Ohio 2018); Ebersole,
20 N.E. at 491.
In early 2018, Plaintiffs William Schmitt and Chad
Thompson submitted two proposed ballot initiatives to
the Portage County Board of Elections (the Board).
The initiatives eliminated criminal penalties associated with possession of marijuana in Garrettsville and
Windham, two villages within Portage County, by
abolishing criminal fines, court costs, and consequences
related to driver’s licenses. Although the proposed
initiatives met Ohio’s statutory prerequisites—each
addressed only a single subject and contained the
requisite number of signatures—the Board declined to
certify the petitions. In an August 21, 2018 email to
Plaintiffs, a representative of the Board explained that
the initiatives were rejected because the Board
deemed them administrative, rather than legislative:
Reviewing the language in the proposals presented by the Village of Garrettsville and the
Village of Windham, the $0 fine and no license
consequences are administrative in nature. The
$0 court costs is administrative in nature and is
an impingement on the judicial function by a
legislature. Accordingly, as the Garrettsville Vil-

6a
lage and Windham Village petitions deal with
subject matter that is not subject to the initiative
process, the Board of Elections, in its discretion,
has chosen not to certify these issues to the ballot.
(R. 1-4, PID 35.)
Rather than petitioning for mandamus relief, Plaintiffs filed this action, bringing facial and as-applied
challenges to the Ohio ballot-initiative statutes under
42 U.S.C. § 1983 and the First and Fourteenth Amendments to the United States Constitution. Plaintiffs
allege that the statutes impose a prior restraint on
their protected political speech, and that the ballotinitiative process must therefore comply with the procedural safeguards set forth in Freedman v. Maryland,
380 U.S. 51 (1965). Because the process fails to provide
de novo judicial review of a board’s decision, Plaintiffs
argued, it fails to satisfy the Freedman requirements.
Plaintiffs sought a temporary restraining order and
preliminary injunction against the Portage County
Board of Elections members Craig Stephens, Patricia
Nelson, Doria Daniels, and Elayne Cross, as well as
then-Ohio Secretary of State Jon Husted.
After a hearing, the district court issued a temporary restraining order directing the Ohio Secretary of
State and the Portage County Board of Elections to
place both initiatives on the ballot for the November
2018 election. Schmitt v. Husted, 341 F. Supp. 3d 784
(S.D. Ohio 2018). Applying the balancing test set forth
in Anderson v. Celebrezze, 460 U.S. 780 (1983), and
Burdick v. Takushi, 504 U.S. 428 (1992), the district
court determined that the Plaintiffs’ right to ballot
access was impermissibly burdened by the statutory
framework:

7a
Recognizing [the state’s interest in regulating
elections], the Court finds no legitimate state interests in preventing an adequate legal remedy for
petitioners denied ballot access by a board of elections. While the availability of mandamus relief is
essentially a judicially imposed remedy when the
law does not otherwise provide one, the high burden on petitioners to prove entitlement to an
extraordinary remedy is no substitute for de novo
review of the denial of a First Amendment right.1
Schmitt, 341 F. Supp. 3d at 791. The district court
later converted the temporary restraining order to a
preliminary injunction that would expire the day after
the election. On election day, the two proposed ordinances met different fates; the Windham initiative
passed by a vote of 237 to 206, but the Garrettsville
initiative failed 471 to 515.
After the election, the district court ordered additional briefing on Plaintiffs’ facial challenge.2 Plaintiffs maintained that the ballot-initiative statutes
constituted a prior restraint in violation of the First
Amendment “because [they] vest[] discretion in local
1

The district court did not identify the source of the asserted
right to de novo judicial review.
2

We note that Plaintiffs’ as-applied challenge is moot. Under
Article III, we “may adjudicate only actual, ongoing cases or
controversies.” Lewis v. Cont’l Bank Corp., 494 U.S. 472, 477
(1990) (citation omitted). The district court enjoined the Secretary of State to place the Plaintiffs’ initiatives on the Portage
County ballots, and the election was conducted in November
2018. The State made clear at oral argument that it does not seek
to relitigate the district court’s decision on the as-applied challenge. Accordingly, we will not consider it here, and review the
district court’s permanent injunction only as to the facial challenge.

8a
election officials to select initiatives for ballots without
providing timely and meaningful judicial review.”
(R. 32, PID 240.) Plaintiffs alternatively argued that
the statutes authorized content-based review by local
boards of elections and were therefore subject to strict
scrutiny. Ohio, on the other hand, argued that the
ballot-initiative statutes were not susceptible to a
First Amendment challenge because they merely set
forth the process by which legislation is made, and
therefore did not implicate any expressive interests.
Ohio also argued that even if the First Amendment is
implicated, the state’s interests in regulating elections, reducing voter confusion, and simplifying the
ballot all justify the alleged infringement on Plaintiffs’
constitutionally protected interests.
The district court found that Plaintiffs were entitled
to de novo review of the denial of their ballot initiative,
and issued a permanent injunction barring the Ohio
Secretary of State “from enforcing the gatekeeper function in any manner that fails to provide a constitutionally sufficient review process to a party aggrieved by
the rejection of an initiative petition.” Schmitt v.
LaRose, 2019 WL 1599040, at *2 (S.D. Ohio Apr. 15,
2019). Notably, the district court did not analyze
Plaintiffs’ claim under the First Amendment, but
rather under procedural due process. This approach
had no basis in the pleadings or arguments below; the
complaint did not separately state a procedural due
process claim, and the parties’ supplemental briefing
did not invoke due process. On appeal, neither party
defends the district court’s analysis in its order granting the permanent injunction. The State disputes the
merits of the procedural due process claim, and Plaintiffs insist their claim is founded only on First Amendment law. Because Plaintiffs did not raise a procedural
due process argument below, and did not address it in

9a
their appellate briefing, we would ordinarily deem the
issue waived. See Watson v. Cartee, 817 F.3d 299, 302
(6th Cir. 2016). However, we may affirm a district
court’s injunction order for any reason supported by
the record. McGirr v. Rehme, 891 F.3d 603, 610 (6th
Cir. 2018). Accordingly, we will evaluate Plaintiffs’
claim under both the First Amendment and procedural
due process.
II.
“[A] party is entitled to a permanent injunction if it
can establish that it suffered a constitutional violation
and will suffer ‘continuing irreparable injury’ for
which there is no adequate remedy at law.” Am. Civil
Liberties Union of Ky. v. McCreary County, 607 F.3d
439, 445 (6th Cir. 2010) (quoting Women’s Med. Prof’l
Corp. v. Baird, 438 F.3d 595, 602 (6th Cir. 2006)).
When evaluating a district court’s grant of a permanent injunction, we review factual findings for clear
error, legal conclusions de novo, and the scope of
injunctive relief for abuse of discretion. Id. The parties
do not dispute the underlying facts; the only issue is
whether Plaintiffs suffered a violation of their First
Amendment rights.
III.
A.
Plaintiffs urge us to view the ballot-initiative statutes as imposing a prior restraint on political speech.
“A prior restraint is any law ‘forbidding certain communications when issued in advance of the time that
such communications are to occur.’” McGlone v. Bell,
681 F.3d 718, 733 (6th Cir. 2012) (quoting Alexander
v. United States, 509 U.S. 544, 550 (1993)). “Prior
restraints are presumptively invalid because of the
risk of censorship associated with the vesting of unbri-

10a
dled discretion in government officials and the risk of
indefinitely suppressing permissible speech when a
licensing law fails to provide for the prompt issuance
of a license.” Bronco’s Entm’t, Ltd. v. Charter Twp. of
Van Buren, 421 F.3d 440, 444 (6th Cir. 2005) (citation
and internal quotation marks omitted). In Freedman
v. Maryland, the Supreme Court articulated three
procedural safeguards necessary for a system of prior
restraint to survive constitutional challenge. 380 U.S.
at 57–59.
First, the decision whether or not to grant a license
must be made within a specified, brief period, and
the status quo must be preserved pending a final
judicial determination on the merits. Second, the
licensing scheme must also assure a prompt judicial decision, to minimize the deterrent effect of an
interim and possibly erroneous denial of a license.
Third, the licensing scheme must place the burden of instituting judicial proceedings and proving
that expression is unprotected on the licensor
rather than the exhibitor.
Deja Vu of Nashville, Inc. v. Metro. Gov’t of Nashville,
274 F.3d 377, 400 (6th Cir. 2001) (discussing Freedman,
380 U.S. at 57–59) (internal citations and quotation
marks omitted). Plaintiffs assert that because the
ballot-initiative statutes delegate authority to boards
of elections to review proposed initiatives prior to the
election, the statutes amount to a prior restraint, and,
consistent with Freedman, Ohio must provide de novo
judicial review of a board’s decisions.
We conclude, however, that the ballot-initiative process here is not a prior restraint. The fundamental
objection to systems of prior restraint is that they
create a risk of government censorship of expressive
activity. See, e.g., City of Lakewood v. Plain Dealer

11a
Publ’g Co., 486 U.S. 750, 757 (1988) (“At the root of
this long line of precedent is the time-tested knowledge
that in the area of free expression a licensing statute
placing unbridled discretion in the hands of a government official or agency constitutes a prior restraint
and may result in censorship.”) Accordingly, priorrestraint challenges typically emerge from licensing
schemes that directly target core expressive conduct
and “authorize a licensor to pass judgment on the
content of speech.” Thomas v. Chicago Park Dist., 534
U.S. 316, 322 (2002). See City of Lakewood, 486 U.S.
at 750 (permit required for placement of newspaper
racks on public property); McGlone, 681 F.3d at 718
(advance-notice requirement for obtaining permission
to speak on campus); Deja Vu, 274 F.3d at 377
(licensing scheme for nude dance clubs); Freedman,
380 U.S. at 61 (censorship of obscene films). Ohio’s
ballot-initiative laws, in contrast, do not directly
restrict core expressive conduct; rather, the laws regulate the process by which initiative legislation is put
before the electorate, which has, at most, a secondorder effect on protected speech. In other words, the
statutes enable boards of election to make “structural
decisions” that “inevitably affect[]—at least to some
degree—the individual’s right to speak about political
issues and to associate with others for political ends.”
John Doe No. 1 v. Reed, 561 U.S. 186, 212 (2010)
(Sotomayor, J., concurring) (quoting Anderson, 460
U.S. at 788) (internal quotation marks omitted). Regulations like these are “a step removed from the communicative aspect” of core political speech, and therefore
do not involve the same risk of censorship inherent in
prior-restraint cases. Id. at 212–13 (citation omitted).
Moreover, although the Supreme Court has acknowledged that a person or party may express beliefs or
ideas through a ballot, it has also stated that “[b]allots

12a
serve primarily to elect candidates, not as forums for
political expression.” Timmons v. Twin Cities Area
New Party, 520 U.S. 351, 363 (1997) (citing Burdick,
504 U.S. at 438). As a result, the heightened procedural requirements imposed on systems of prior
restraint under Freedman are inappropriate in the
context of ballot-initiative preclearance regulations.
See also Aey v. Mahoning Cty. Bd. of Elections, 2008
WL 554700, at *6 (N.D. Ohio Feb. 26, 2008) (“Plaintiff
fails to cite any authority in support of the proposition
that prior restraint licensing analysis should be applied
to a ballot access statute.”); Comm. to Impose Term
Limits on the Ohio Supreme Court & to Preclude Special Legal Status for Members & Emps. of the Ohio
Gen. Assembly v. Ohio Ballot Bd., 275 F. Supp. 3d 849,
861 (S.D. Ohio 2017) (holding that another aspect of
Ohio’s ballot initiative process, the “single subject
rule,” is not a prior restraint).
B.
Instead, we generally evaluate First Amendment
challenges to state election regulations under the
three-step Anderson-Burdick framework, in which we
“weigh the character and magnitude of the burden the
State’s rule imposes on [Plaintiffs’ First Amendment]
rights against the interests the State contends justify
that burden, and consider the extent to which the
State’s concerns make the burden necessary.” Timmons,
520 U.S. at 358 (citations and internal quotation
marks omitted). The first, most critical step is to
consider the severity of the restriction. Laws imposing
“severe burdens on plaintiffs’ rights” are subject to
strict scrutiny, but “lesser burdens . . . trigger less
exacting review, and a State’s important regulatory
interests will usually be enough to justify reasonable,
nondiscriminatory restrictions.” Id. (citations and

13a
internal quotation marks omitted). Regulations that
fall in the middle “warrant a flexible analysis that
weighs the state’s interests and chosen means of
pursuing them against the burden of the restriction.”
Libertarian Party of Ky. v. Grimes, 835 F.3d 570, 574
(6th Cir. 2016) (citation and internal quotation marks
omitted). At the second step, we identify and evaluate
the state’s interests in and justifications for the regulation. Id. The third step requires that we “assess the
legitimacy and strength of those interests” and determine whether the restrictions are constitutional. Id.
We first examine whether the burden imposed by
the Ohio ballot-initiative statutes is “severe.” Timmons,
520 U.S. at 358. “The hallmark of a severe burden is
exclusion or virtual exclusion from the ballot.” Grimes,
835 F.3d at 574. Plaintiffs claim an injury from the
lack of de novo review of the decisions of boards of
elections; by requiring aggrieved petitioners to seek a
writ of mandamus, argue Plaintiffs, the Ohio ballotinitiative process unduly hampers their right to political expression. We disagree.
We begin by making clear that Plaintiffs have
never challenged the legitimacy of the legislativeadministrative distinction or the state’s right to vest
in county boards of elections the authority to apply
that distinction. Instead, Plaintiffs assert, and the
district court found, a right to de novo review of a
board’s decision. However, outside the context of
Freedman’s requirements for a prior restraint, Plaintiffs have not identified the source of such a right.
But even accepting Plaintiffs’ argument that the
First Amendment requires de novo review of a board’s
decision, the Ohio case law suggests that petitioners
receive essentially that. The Ohio Supreme Court’s
evaluation of the decisions of boards of elections shows

14a
no particular deference to the boards’ decisions. And,
although the standard for showing entitlement to
mandamus is recited as “fraud or corruption, abuse of
discretion, or clear disregard of the law,” Plaintiffs
have identified no case in which the Ohio Supreme
Court questioned the legal determination of a board of
elections but nevertheless deferred to its discretion.
Rather, the cases show that notwithstanding the
stated standard of review, the court considers the proposed initiative and makes an independent reasoned
determination whether it is within the Ohio Constitution’s grant of legislative authority. See State ex rel.
Langhenry v. Britt, 87 N.E.3d 1216 (Ohio 2017) (proposed referendum financing bonds for refurbishment
of arena is legislative because it “represents the adoption of a new policy and a new undertaking”); State ex
rel. Sensible Norwood v. Hamilton Cty. Bd. of Elections,
69 N.E.3d 696, 179–80 (Ohio 2016) (initiative making
marijuana possession a fifth-degree felony is not within legislative authority); Ebersole, 20 N.E.3d at 684
(initiative approving land development is administrative because it “complied with the preexisting requirements for the Downtown Business District . . . and did
not require any zoning changes”).
Indeed, at least one justice of the Ohio Supreme
Court has questioned whether the standard of review
for ballot-initiative challenges is actually closer to
de novo. State ex rel. Khumprakob v. Mahoning Cty.
Bd. of Elections, 109 N.E.3d 1184, 1192 (Ohio 2018)
(Fisher, J., concurring in judgment) (explaining that
although the court purports to follow an abuse-ofdiscretion standard, “we have also stated that we need
accord no deference to a board of elections’ interpretation of state election law” (quotation omitted)). If there
is any actual distance between the de novo standard of
review Plaintiffs demand and the mandamus review

15a
provided by the Ohio Supreme Court, it is hardly
significant enough to result in “virtual exclusion” from
the ballot. We also note that because Ohio Supreme
Court rules provide for expedited briefing and decision
in election cases, aggrieved citizens who challenge an
adverse decision are able to seek timely redress. The
ballot-initiative statutes are thus not subject to strict
scrutiny based on a severe burden.3 Timmons, 520
U.S. at 358.
3

Plaintiffs also attempt to invoke strict scrutiny on the ground
that the ballot-initiative statutes are content-based restrictions.
But Plaintiffs have made clear in the district court and on appeal
that they “do not challenge Ohio’s ability to limit the subject
matter of its initiatives.” (R. 19, PID 136.) Instead, the focus of
Plaintiffs’ challenge is the asserted inadequacy of the review
afforded to the boards’ discretionary judgments. This aspect of
the ballot-initiative statutes is plainly content-neutral. Moreover,
the mere fact that the legislative-administrative distinction is
directed to the content of an initiative does not necessarily make
it content based such that it triggers strict scrutiny. Cf. Committee to Impose Term Limits on the Ohio Supreme Court & to Preclude Special Legal Status for Members & Emps. of the Ohio Gen.
Assembly v. Ohio Ballot Bd., 885 F.3d 443, 447 (6th Cir. 2018).
The rule applies without regard to the subject matter or viewpoint of the initiative.
Further, the main case Plaintiffs rely upon in discussing
whether the ballot-initiative statutes are content-based is largely
inapposite. Plaintiffs rely primarily on the Supreme Court’s
recent decision in Minnesota Voters Alliance v. Mansky, 138 S. Ct.
1876 (2018). In that case, the Court held that Minnesota’s ban on
wearing political apparel at polling places on election day violated
the First Amendment. Id. at 1892. However, the Court was
not concerned with whether the ban was content-based. Rather,
the Court was concerned with “[t]he discretion election judges
exercise[d] in enforcing the ban” given the lack of “objective
workable standards” for what constituted political apparel. Id. at
1891. Mansky thus does not explain whether Plaintiffs’ challenge
targets a content-based restriction. And in any event, Mansky
involved a restriction on core political speech, in which “the whole

16a
Having determined that the restriction imposed by
the ballot-initiative process is not severe and does not
trigger strict scrutiny, we also conclude that the burden is not so minimal as to warrant rational-basis
review. A burden is minimal when it “in no way” limits
access to the ballot. Grimes, 835 F.3d at 577. Here,
however, boards of elections wield the discretionary
authority to decline to certify initiatives, and the burden thus falls on the aggrieved proponent to obtain
mandamus relief in order to vindicate his or her interest. It is reasonable to conclude that the cost of obtaining legal counsel and seeking a writ of mandamus
disincentivizes some ballot proponents from seeking to
overturn the board’s decision, thereby limiting ballot
access. As a result, the burden imposed by the Ohio
ballot-initiative process is somewhere between minimal and severe, and we engage in a flexible analysis
in which we weigh the “burden of the restriction”
against the “state’s interests and chosen means of pursuing them.” Id. at 574 (citations omitted).
At the second step of Anderson-Burdick we consider
the State’s justifications for the restrictions. Id. The
Supreme Court has explained that, in structuring elections, “States may, and inevitably must, enact reasonable regulations of parties, elections, and ballots
to reduce election- and campaign-related disorder.”
Timmons, 520 U.S. at 358; see also John Doe No. 1, 561
U.S. at 186 (“The State’s interest in preserving the
integrity of the electoral process is undoubtedly
important.”); Buckley v. Am. Constitutional Law
point of the exercise [was] to prohibit the expression of political
views.” Id. at 1891. As noted earlier, this case does not involve
core expressive conduct; “the whole point of the exercise” is preventing the overcrowding of ballots. Id. Mansky’s salience is questionable in this context.

17a
Found., 525 U.S. 182, 191 (1999) (“States allowing
ballot initiatives have considerable leeway to protect
the integrity and reliability of the initiative process.”)
We have previously stated that states have a strong
interest in “ensuring that its elections are run fairly
and honestly,” as well as in “maintaining the integrity
of its initiative process.” Taxpayers United for Assessment Cuts v. Austin, 994 F.2d 291, 297 (6th Cir. 1993).
Further, a state may legitimately “avoid[] overcrowded
ballots” and “protect the integrity of its political processes from frivolous or fraudulent candidacies.”
Jolivette v. Husted, 694 F.3d 760, 769 (6th Cir. 2012)
(quoting Bullock v. Carter, 405 U.S. 135, 145 (1972)).
Here, Ohio’s interest is in “ensur[ing] that only balloteligible initiatives go to the voters” because “[k]eeping
unauthorized issues off the ballot reduces the odds
that an initiative is later held invalid on the ground
that the voters exceeded their authority to enact it.”
(Appellant Br. at 49.) Ohio also contends it has an
interest in maintaining voter confidence in the electoral process. Plaintiffs do not dispute these interests,
and we find that they are legitimate and substantial.
At the third step of Anderson-Burdick we assess
whether the State’s restrictions are constitutionally
valid given the strength of its proffered interests.
Again, Plaintiffs do not contest that Ohio’s interests
in avoiding ballot overcrowding and safeguarding
the integrity of the initiative process justify the
administrative-legislative distinction and do not argue
that the board-of-elections certification process is otherwise unconstitutional. Rather, they challenge the
adequacy of the judicial review of such decisions. As
explained above, however, because the Ohio Supreme
Court recognizes a proponent’s right to seek mandamus review of a board of elections’ decision not to place
an initiative on the ballot and the court performs what

18a
is essentially a de novo review of the legal issue
whether an initiative is within the municipality’s initiative power, the absence of a statutory de novo appeal
of right does not impose a significant or unjustified
burden on initiative proponents’ First Amendment
rights. Although the State’s chosen method for screening ballot initiatives may not be the least restrictive
means available, it is not unreasonable given the
significance of the interests it has in regulating
elections.
Plaintiffs’ First Amendment challenge thus fails.
IV.
We next evaluate whether the ballot-initiative statutes violate procedural due process. The Fourteenth
Amendment provides, in part, that no state shall
“deprive any person of life, liberty, or property, without due process of law.” U.S. Const. amend. XIV § 1.
To establish a claim of procedural due process, a plaintiff must show that (1) he or she had a life, liberty, or
property interest protected by the Due Process Clause;
(2) he or she was deprived of this protected interest;
and (3) the state did not afford adequate procedural
rights. Daily Servs., LLC v. Valentino, 756 F.3d 893,
904 (6th Cir. 2014) (citation omitted).
As noted, Plaintiffs did not raise a procedural due
process claim below. Nevertheless, the district court
concluded that Plaintiffs had a protected “right to
participate in Ohio’s initiative process with . . .
adequate review in the courts of Ohio.” (R. 37, PID
291.) According to the district court, this liberty interest derives from state law; the district court reasoned
that because Ohio established a ballot-initiative process, it is constitutionally bound not to “restrict the
process in any manner” that would violate due process.

19a
(Id. at PID 290 (citing Taxpayers United, 994 F.2d at
295).)
We need not decide whether Ohio has created a
constitutionally protected liberty interest, however,
because it is clear that the State affords aggrieved
ballot-initiative proponents adequate procedural rights
through the availability of mandamus relief in the
state courts. This court has previously found that state
mandamus is a satisfactory post-deprivation remedy
for the purposes of procedural due process. See Kahles
v. City of Cincinnati, 704 F. App’x 501, 507 (6th Cir.
2017) (“[P]laintiffs were able to seek a writ of mandamus in the state-court system to challenge any alleged
abuse of discretion on the part of the City’s medical
director. . . . The plaintiffs thus received the process to
which they were due.”); Martinez v. City of Cleveland,
700 F. App’x 521, 522–23 (6th Cir. 2017) (“Because
Martinez had [state mandamus relief] available to
him, no due-process violation occurred.”). And although
the district court held that only de novo review will
suffice, due process does not mandate any particular
standard of review. See Miller v. Francis, 269 F.3d 609,
621 (6th Cir. 2001) (“Miller does not cite, nor are we
aware of, any Supreme Court precedent vesting him
with a procedural due process right to a particular
standard of appellate review in the state courts.”).
Plaintiffs therefore cannot state a procedural due
process claim, and the district court erred in concluding otherwise.
V.
For the reasons stated above, we REVERSE the
district court’s order and VACATE the permanent
injunction.

20a
CONCURRING IN PART AND
IN THE JUDGMENT
JOHN K. BUSH, Circuit Judge, concurring in part
and concurring in the judgment. I agree with the
Majority that the Ohio legislative authority statutes1
do not violate either the First Amendment as incorporated by the Fourteenth Amendment or the Due Process Clause of the Fourteenth Amendment. I join Parts
I, II, and IV of the majority opinion, but, as explained
below, my reasoning differs from the remainder of the
Majority’s analysis. It is arguable that Ohio’s legislative authority statutes do not regulate “speech” within
the meaning of the First Amendment at all because
they concern only election mechanics. But even assuming that state-referendum laws regulate First Amendment speech, regulations of the nature at issue here do
not warrant heightened scrutiny under that constitutional provision. States are free to fashion rules of
election mechanics that are content-neutral and do not
discriminate against any particular point of view,
including rules that affect the types of matters that
may be subject to popular initiatives, without running
afoul of the First Amendment.
A.
To understand why the First Amendment either is
not implicated at all or, if it is, imposes no heightened
scrutiny here, we should bear in mind what the Ohio
legislative authority statutes do and do not regulate.
1

I refer to the Ohio statutes at issue, O.R.C. §§ 3501.11(K)(1)–
(2), 3501.38(M)(1)(a), 3501.39(A), by using the Ohio Secretary of
State’s nomenclature: “Ohio’s legislative authority statutes.”
Also, given the function these statutes serve to ensure that a
proposed initiative “falls within the scope of authority to enact
via initiative,” Ohio Revised Code § 3501.11(K)(2), I sometimes
refer to these statutes as the “gatekeeper” provisions.

21a
Cf. John Doe No. 1 v. Reed, 561 U.S. 186, 212 (2010)
(Sotomayor, J., concurring) (“In assessing the countervailing interests at stake in this case, we must be
mindful of the character of initiatives and referenda.
These mechanisms of direct democracy are not compelled by the Federal Constitution. It is instead up to
the people of each State, acting in their sovereign
capacity, to decide whether and how to permit legislation by popular action.”). First, these statutes do not
regulate a citizen’s ability to advocate for a proposed
initiative or regulate any speech surrounding the issue
on the ballot. Second, these statutes only address
proposed initiatives. They do not regulate an individual’s ability to appear on the ballot as a candidate for
any position (as would a ballot-access provision).
As such, I would characterize these gatekeeper provisions as laws regulating election mechanics. That is,
these statutes ensure that certain eligibility requirements are met before an initiative is formally certified
for the ballot and voted on by the people. The eligibility
regulation at issue in this case is a requirement that
an initiative pertain to only “legislative action,” not
“administrative action.” State ex rel. Ebersole v. Del.
Cty. Bd. of Elections, 20 N.E.3d 678, 684 (Ohio 2014)
(per curiam). This requirement, in turn, implements
separation-of-powers principles under Ohio state
constitutional law by ensuring that laws passed
through popular initiatives are only legislative, as
opposed to administrative, in nature. See Ohio Const.
art. II, § 1f (“The initiative and referendum powers are
hereby reserved to the people of each municipality on
all questions which such municipalities may now or
hereafter be authorized by law to control by legislative
action . . . .”); State ex rel. Walker v. Husted, 43 N.E.3d
419, 423 (Ohio 2015) (per curiam) (“Election officials
serve as gatekeepers, to ensure that only those

22a
measures that actually constitute initiatives or referenda are placed on the ballot. For example, the right
of referendum does not exist with respect to a measure
approved by a city counsel acting in an administrative,
rather than legislative, capacity.” (citation omitted)).
B.
The Supreme Court has not addressed the precise
scope of the First Amendment interests, if any, that
are implicated by laws that regulate only the mechanics of the initiative process. The closest Supreme Court
precedent is Meyer v. Grant, 486 U.S. 414 (1988),
which found a First Amendment violation when a
Colorado statute criminalized the compensation of
petition circulators for gathering citizens’ signatures
for ballot initiatives. Id. at 415–16. The Colorado law
limited “the number of voices who will convey” the
message and also the initiative supporters’ “ability to
make the matter the focus of statewide discussion.” Id.
at 422–23. But Meyer is not completely on all fours
with the facts in our case. The Colorado statute in
Meyer targeted Coloradans’ ability to advocate for
initiative petitions, which amounted to regulation of
political speech. The Ohio legislative authority statutes affect no such regulation.
Furthermore, the Court’s precedents in Anderson v.
Celebrezze, 460 U.S. 780 (1983), and Burdick v. Takushi,
504 U.S. 428 (1992), though concerning election regulation, similarly do not address the key question raised
in this case: is the First Amendment impinged upon by
statutes regulating the election mechanics concerning
initiative petitions? In those cases, the Court reviewed
challenges to State laws that sought to limit a candidate’s ability to appear on the ballot or otherwise
limited a voter’s ability to “write-in” candidates. See
Anderson, 460 U.S. at 793–95, 805–06 (holding that

23a
Ohio statute requiring independent candidates to
file statements of candidacy by March to appear on
November ballot was unconstitutional); Burdick, 504
U.S. at 441–42 (holding that Hawaii’s prohibition on
write-in voting did not violate the challengers’ freedoms of expression and association). Indeed, this circuit has generally limited the application of Anderson
and Burdick to freedom-of-association challenges to
ballot access laws—i.e., laws that burden candidates
from appearing on the ballot. See Libertarian Party of
Ohio v. Blackwell, 462 F.3d 579, 586 (6th Cir. 2006)
(“The first step under the Anderson/Burdick framework is to determine whether this burden on the associational rights of political parties is ‘severe.’” (footnote
omitted)); see also Libertarian Party of Ky. v. Grimes,
835 F.3d 570, 572–73, 574 (6th Cir. 2016); Green Party
of Tenn. v. Hargetti, 767 F.3d 533, 545 (6th Cir. 2014);
cf. Ohio Council 8 Am. Fed’n of State v. Husted, 814
F.3d 329, 334 (6th Cir. 2016).
Here, by contrast, Appellees are not asserting that
the Ohio legislative authority statutes violate their
freedom-of-association rights or their right to vote.
The Ohio laws at issue concern the regulation of the
initiative petition—i.e., the process through which the
people act in their sovereign capacity to legislate
directly. Thus, we should look to authorities that
address the State’s ability to regulate its initiative process and ensure that all requirements are met before
an initiative is certified for the ballot. This brings us
to the most relevant case from our circuit, Taxpayers
United for Assessment Cuts v. Austin, 994 F.2d 291
(6th Cir. 1993).
In Taxpayers United, this court reviewed a Michigan
statute requiring that each initiative petition have a
certain number of valid signatures from registered

24a
voters before the initiative could appear on the ballot.
994 F.2d at 293. The challengers of that statute argued
that “they had been denied their right to vote and their
rights to assemble and to engage in political speech,”
after the Michigan Board reviewed the challengers’
initiative petition and concluded that the challengers
failed to obtain the requisite number of signatures. Id.
at 294. This court held that the challengers’ First
Amendment free speech rights and political association rights were not “impinged” by the statute. Id. at
297. The Taxpayers United court reasoned that
“[b]ecause the right to initiate legislation is a wholly
state-created right, we believe that the state may constitutionally place nondiscriminatory, content-neutral
limitations on the plaintiff’s ability to initiate legislation.” Id. at 297.
Our court noted that, “although the Constitution
does not require a state to create an initiative procedure, if it creates such a procedure, the state cannot
place restrictions on its use that violate the federal
Constitution.” Id. at 295; see also Meyer, 486 U.S. at
424. But, because Michigan’s regulation did not regulate the challengers’ speech on the basis of content, we
determined that “it is constitutionally permissible for
Michigan to condition the use of its initiative procedure on compliance with content-neutral, nondiscriminatory regulations that are . . . reasonably related to
the purpose of administering an honest and fair
initiative procedure.” Taxpayers United, 994 F.2d at
297. In short, the Michigan statute did not trigger
heightened scrutiny under the First Amendment and
survived rational-basis review. See id.
In reaching this conclusion, the Taxpayers United
court made a critical observation about the Michigan
statute—that it did “not restrict the means that the

25a
plaintiffs can use to advocate their proposal.” Id. Had
Michigan’s statute been directed toward the challengers’ ability to advocate for their initiative, the statute
would have failed strict-scrutiny review under the
Supreme Court’s precedent in Meyer. See Taxpayers
United, 994 F.2d at 295. As this court explained, “the
principle stated in Meyer is that a state that adopts an
initiative procedure violates the federal Constitution
if it unduly restricts the First Amendment rights of its
citizens who support the initiative.” Id. But because
the Michigan statute at issue in Taxpayers United
dealt “with methods used to validate and invalidate
signatures of voters to an initiative petition,” that law
was not like the statute in Meyer, which “dealt with a
limitation on communication with voters.” Taxpayers
United, 994 F.2d at 295. For its reasoning, this court
did not address whether the Michigan statute regulated First Amendment speech. See id. at 293–94, 296–
97. Instead, the court assumed that it did but nonetheless upheld the law under rational-basis review. See
id. at 296–97. Thus, under Taxpayers United, statutes
that, in a content-neutral and non-discriminatory
fashion, implement and ensure compliance with the
eligibility requirements for citizen initiative petitions
are subject, at most, to only rational-basis review
under the First Amendment. See Buckley v. Am.
Constitutional Law Found., Inc., 525 U.S. 182, 192
(1999) (citing Taxpayers United favorably for its
holding).
Consistent with Taxpayers United, this court in
Committee to Impose Term Limits on the Ohio Supreme
Court & to Preclude Special Legal Status for Members
& Employees of the Ohio General Assembly v. Ohio
Ballot Board, 885 F.3d 443 (6th Cir. 2018) (hereinafter
Ohio Ballot Board) upheld the constitutionality of
Ohio’s single-subject rule. Ohio Ballot Board, 885 F.3d

26a
at 446. Under that rule, an initiative petition may only
contain “one proposed law or constitutional amendment.” Id. at 445. The challengers asserted that the
provision violated the First Amendment because it
was a content-based speech restriction. Id. at 446–47.
Relying on Reed v. Town of Gilbert, 135 S. Ct. 2218
(2015), the Ohio Ballot Board court concluded that
“Ohio’s single-subject rule is not content based,”
because it “applies to all initiative petitions, no matter
the topic discussed or idea or message expressed.”
Ohio Ballot Board, 885 F.3d at 447. Once again, just
as in Taxpayers United, this court did not address
whether an election-mechanics law regulated First
Amendment speech. See Ohio Ballot Board, 885 F.3d
at 445–46. Instead, the court assumed the First
Amendment was implicated and upheld the singlesubject requirement applying rational-basis review.
C.
Taxpayers United and Ohio Ballot Board align with
decisions of the majority of other circuits that have
addressed statutes relating to the regulation of election mechanics. These circuits have similarly concluded that non-discriminatory referendum regulations are, at most, subject to rational-basis review. See
Molinari v. Bloomberg, 564 F.3d 587 (2d Cir. 2009)
(holding referendum statutes are only subject to
rational-basis review); Initiative & Referendum Inst. v.
Walker, 450 F.3d 1082 (10th Cir. 2006) (en banc)
(same); Marijuana Policy Project v. United States, 304
F.3d 82 (D.C. Cir. 2002) (same); Dobrovolny v. Moore,
126 F.3d 1111 (8th Cir. 1997) (same). But see Angle v.
Miller, 673 F.3d 1122 (9th Cir. 2012) (holding referendum regulations imposing subject-matter restrictions
are subject to heightened scrutiny); Wirzburger v.
Galvin, 412 F.3d 271 (1st Cir. 2005) (same).

27a
In Walker, the Tenth Circuit, sitting en banc,
addressed a fundamental question that Taxpayers
United and Ohio Ballot Board did not answer: whether
election-mechanics laws ever regulate “speech” under
the First Amendment. The Tenth Circuit indicated
that the First Amendment may not be triggered by
citizen-initiative regulations and, if it is, such regulations are subject to only lower scrutiny. In Walker, the
election-mechanics law at issue was a Utah constitutional provision that imposed a requirement that any
“legislation initiated to allow, limit, or prohibit the
taking of wildlife . . . shall be adopted upon approval
of two-thirds of those voting.” 450 F.3d at 1086
(quoting Utah Const. art. VI, § 1(2)(a)(ii)). The Tenth
Circuit held that the constitutional provision did
not infringe upon the challengers’ First Amendment
rights because they were not implicated by laws of this
nature. Id. at 1085. In reviewing whether the Utah
provision was subject to heightened scrutiny, the
Walker court defined a key distinction (just as this
court did in Taxpayers United) between the types of
election laws that were constitutionally permissible
and those that were not: “The distinction is between
laws that regulate or restrict the communicative conduct of persons advocating a position in a referendum,
which warrant strict scrutiny, and laws that determine the process by which legislation is enacted,
which do not.” Walker, 450 F.3d at 1099–1100.
The Walker court reasoned that the First Amendment is not a vehicle for challenging regulations of the
process that must be followed for legislation or popular
initiatives to be enacted or adopted into law:
Under the Plaintiffs’ theory, every structural
feature of government that makes some political
outcomes less likely than others—and thereby dis-

28a
courages some speakers from engaging in protected speech—violates the First Amendment. Constitutions and rules of procedure routinely make
legislation, and thus advocacy, on certain subjects
more difficult by requiring a supermajority vote to
enact bills on certain subjects. Those who propose,
for example, to impeach an official, override a
veto, expel a member of the legislature, or ratify a
treaty might have to convince two-thirds of the
members of one or both houses to vote accordingly.
State constitutions attach supermajority requirements to a bewildering array of specific categories
of legislation, [collecting specific examples]. These
provisions presumably have the “inevitable effect”
of reducing the total “quantum of speech” by
discouraging advocates of nuclear power plants,
general banking laws, or unauthorized state flags
from bothering to seek legislation or initiatives
embodying their views. Yet if it violates the First
Amendment to remove certain issues from the
vicissitudes of ordinary democratic politics, constitutions themselves are unconstitutional. Indeed,
the Plaintiffs’ theory would have the ironic effect
of rendering the relief they seek in this litigation
unconstitutional under the First Amendment: if it
is unconstitutional to amend the Utah constitution to require a supermajority to approve a wildlife initiative, those who favor such an amendment would be less likely to engage in advocacy in
its favor.
No doubt the Plaintiffs are sincere in their many
sworn statements that they find the heightened
threshold for wildlife initiatives dispiriting, and
feel “marginalized” or “silenced” in the wake of
Proposition 5. Their constitutional claim begins,
however, from a basic misunderstanding. The

29a
First Amendment ensures that all points of view
may be heard; it does not ensure that all points of
view are equally likely to prevail.
450 F.3d at 1100–01. Based on this reasoning, the
Tenth Circuit upheld the election-mechanics provision
at issue even though, on its face, the law concerned
subject-matter limitations relating to the referendum
process. See id. at 1103. The Tenth Circuit indicated
that the election-mechanics provision did not fall
within the purview of the First Amendment because it
did not regulate speech within the meaning of that
constitutional guarantee. See id. at 1101, 1103; see
also Molinari, 564 F.3d at 600–01 (“[P]laintiffs here
claim that their First Amendment rights are chilled
because New York State law puts referenda and City
Council legislation on equal footing, permitting the
latter to supersede the former (and vice versa). As
such, like in [Walker,] there is no restriction on plaintiffs’ speech.”). The Tenth Circuit held that rationalbasis review was the highest level of constitutional
scrutiny that was warranted and upheld the Utah
constitutional provision on this basis. See Walker, 450
F.3d at 1104–05.
D.
In reaching its holding, the Tenth Circuit rejected
the reasoning of the First Circuit in Wirzburger, which
recognized that an individual’s First Amendment
rights could be impermissibly burdened by a statute
placing subject-matter limitations on popular initiatives. See 412 F.3d at 278–79. In Wirzburger, the First
Circuit reviewed a challenge to provisions of the
Massachusetts constitution that prohibited initiatives
on two subjects: those calling for “public financial
support for private primary or secondary schools,” and
those “relate[d] to religion, religious practices or reli-

30a
gious institutions.” Id. at 274–75 (quoting Mass.
Const. art. 18; id. art. 48, pt. 2, § 2). The Wirzburger
court declined to apply strict scrutiny because the
constitutional provision governing the initiative
process was not “a direct restriction on the communicative aspect of the political process.” Id. at 277. The
First Circuit observed that even though the subjectmatter exclusions “aim at preventing the act of generating laws and constitutional amendments about
certain subjects by initiative,” the speech restriction
caused by the state constitution “is no more than an
unintended side-effect.” Id. The Wirzburger court,
however, declined to apply the lowest level of scrutiny,
instead applying intermediate scrutiny pursuant to
United States v. O’Brien, 391 U.S. 367 (1968), because
the regulation bore on the initiative process, which
“manifest[ed] elements of protected expression.” See
Wirzburger, 412 F.3d at 278.
Applying the O’Brien test,2 the First Circuit concluded that Massachusetts had “a substantial interest
in maintaining the proper balance between promoting
free exercise and preventing state establishment of
religion” and “in restricting the means by which these
fundamental rights can be changed.” Id. at 279. The
First Circuit concluded that because “the exclusions
aim at preventing certain uses of the initiative process, not at stemming expression,” the law did not
2

Under O’Brien, a regulation must satisfy the following four
elements to be constitutional: (1) the regulation “is within the
constitutional power of Government;” (2) “it furthers an important
or governmental interest;” (3) “the governmental interest is
unrelated to the suppression of free expression;” and (4) “the incidental restriction on alleged First Amendment freedoms is no
greater than is essential to the furtherance of that interest.” 391
U.S. at 377.

31a
concern the suppression of expression or speech. Id.
Because the court could “see no other way in which
Massachusetts could achieve its interest in safeguarding these fundamental freedoms in its Constitution
from popular initiative,” it found that the “restriction
on speech is no more than is essential” and thus did
not violate the First Amendment. Id.
In Walker, however, the Tenth Circuit took issue
with the First Circuit’s application of heightened
scrutiny in Wirzburger. First, the Tenth Circuit suggested that the First Amendment was not even implicated by referendum regulations of the type at issue.
See Walker, 450 F.3d at 1104. Additionally, the Walker
court noted that it would be wholly inappropriate to
strike down an election-mechanics law under intermediate or strict scrutiny because it “would be an
especially egregious interference with the authority of
‘We the People’ to adopt constitutional provisions governing the legislative or initiative process.” See id. at
1103. As the Tenth Circuit reasoned, heightened scrutiny would be problematic, as it could imagine few
tasks “less appropriate for federal courts than deciding
which state constitutional limitations serve ‘important
governmental interests’ and which do not. . . . Under
our form of government, the people and their representatives, and not judges, assume the task of determining which subjects should be insulated from democratic change.” Id.
E.
I find the Walker court’s reasoning to be persuasive
and another way to explain this court’s holdings in
Taxpayers United and Ohio Ballot Board. To be sure,
our prior precedent did not involve an electionmechanics regulation that concerned subject-matter
limitations for popular initiatives as in Walker. But, as

32a
Walker indicates, the First Amendment simply is not
implicated by structural requirements for the adoption
of such laws, and this conclusion aligns with our
circuit’s prior holdings.
I share the Tenth Circuit’s concern that we, as
judges, are ill-suited to determine whether or not a
state advances an important governmental interest by
limiting the subject-matter of its initiative petitions.
Here, the people of Ohio and their elected representatives, through their state constitution and statutes,
have determined that only “legislative actions” are
within the municipal power and thus, that the subject
of any initiative must be a legislative, rather than an
administrative, matter. We are in no position to secondguess this rule. Just as the Tenth Circuit feared to
tread into whether Utah’s subject-matter limitations
relating to the wildlife initiatives served an important
governmental interest, so too are we ill-suited to
address the importance of the state separation-ofpowers principles implemented by Ohio through its
legislative authority requirement for popular referenda.
Furthermore, this case is similar to Walker,
Taxpayers United, and Ohio Ballot Board in that there
is no contention here that the election-mechanics
regulation at issue discriminates against any particular point of view. In Walker, the law imposed a twothirds approval of voters as to any law that pertained
to the taking of wildlife, regardless of whether it was
for or against such practice. See 450 F.3d at 1087.
Similarly, in Taxpayers United, there was no discrimination against any viewpoint by the requirement of a
requisite number of registered voter signatures for an
initiative to be placed on the ballot. See 994 F.2d at
297. And in Ohio Ballot Board, the single-subject rule
applied to all initiatives, regardless of their subject

33a
matter. 885 F.3d at 447–48. Likewise, here, the legislative authority statutes apply equally to all referenda, without regard to their subject matter.3
Thus, based on the logic of Walker, I question
whether that the election-mechanics statutes at issue
are even within the purview of the First Amendment.
However, even assuming that they are, these statutes
are constitutional under the rational-basis review
applied in Taxpayers United and Ohio Ballot Board.
Accordingly, there is no merit to Appellees’ assertion
that the legislative authority statutes are an unconstitutional prior restraint, given that Ohio either is not
restraining any constitutionally protected speech or
that, if it is, the restraint is nonetheless valid under
3

In Angle, the Ninth Circuit also applied heightened scrutiny
to a Nevada election-mechanics law, but one that, unlike the
Utah statute in Walker, did not pertain to a subject-matter
restriction. See Angle, 673 F.3d at 1126–27, 1133–34. The Ninth
Circuit reviewed whether Nevada’s constitutional requirement
that initiative proponents “must obtain signatures from a number of registered votes equal to 10 percent of the votes cast in the
previous general election” in each congressional district to have
the initiative placed on the ballot violated the First Amendment.
673 F.3d at 1126. The Ninth Circuit rejected the plaintiffs’ assertion that the rule imposed a “severe burden on communication
between circulators and voters,” id. at 1133, but nonetheless
applied intermediate scrutiny to the Nevada law because it had
the potential, though minimal, to “reduc[e] the total quantum of
speech on a public issue,” id. (alteration in original) (quoting
Meyer, 486 U.S. at 423). The Ninth Circuit’s application of
heightened scrutiny to election-mechanics laws is inconsistent
with the Sixth Circuit precedent discussed above. The Ninth
Circuit’s logic also is troubling because, as the Ohio Secretary of
State notes, it would call into question “all subject matter
restrictions on what Congress or state legislatures may legislate
about” because “such restrictions make it harder for those subjects to become ‘the focus of’ national or ‘statewide discussion.’”
Appellant Br. at 38–39 (quoting Angle, 673 F.3d at 1126).

34a
rational-basis scrutiny. As I explain below, these
provisions survive rational-basis review because they
are content-neutral and non-discriminatory.
F.
Consistent with this court’s holding in Taxpayers
United, the Ohio statutes satisfy rational-basis review
because they are “nondiscriminatory, content-neutral
limitations on the [Appellees’] ability to initiate legislation.” 994 F.2d at 297. Indeed, consonant with
Supreme Court precedent, the Ohio statutes at issue
can be justified without reference to the content of the
regulation. In Reed v. Town of Gilbert, 135 S. Ct. 2218,
2227 (2015), the Court explained that “Government
regulation of speech is content based if a law applies
to particular speech because of the topic discussed or
the idea or message expressed.” “Statutes that are not
content based on their face may still be considered content based if they ‘cannot be justified without reference to the content of the regulated speech’ or ‘were
adopted by the government because of disagreement
with the message the speech conveys.’” Ohio Ballot
Board, 885 F.3d at 447 (quoting Reed, 135 S. Ct. at
2227).
The Ohio legislative authority statutes easily clear
this threshold because, by their very terms, they apply
to each petition submitted for review. See, e.g., O.R.C.
§ 3501.38(M)(1)(a) (“Upon receiving an initiative petition . . . concerning a ballot issue that is to be
submitted to the electors of a county or municipal
political subdivision, the board of elections shall examine the petition to determine: Whether the petition
falls within the scope of a municipal political subdivision’s authority to enact via initiative . . . .”). Moreover,
the laws can be justified without reference to the
content of the initiative petition, because, as explained

35a
by the Secretary, “[t]he challenged portion of the
[laws] channel ballot-access decisions to county boards
and then mandamus proceedings that ensure that the
State can quickly and efficiently promote its legitimate interests in screening out ineligible administrative actions and simplifying the ballot.” Reply Br. at
24.
It is true that the contents of the proposed initiative
dictate its fate in one limited sense. See O.R.C.
§§ 3501.38(M)(1)(a), 3501.39. Under the statutes, if
the reviewer, either the Board of Elections or the Ohio
Secretary of State, finds that the proposed initiative is
outside the municipal power or is an administrative
matter, then the proposed initiative will not be certified. By contrast, proposed initiatives that are within
the municipal power and are legislative, assuming all
other conditions are met, are certified to appear on the
ballot. But despite the different treatment that proposed initiatives receive depending upon their legislative or administrative nature, Ohio’s legislative authority statutes are nonetheless content-neutral for purposes of the First Amendment because (1) their
application does not depend on “the topic discussed or
the idea or message expressed,” (2) they can “be justified without reference to the content of the regulated
speech,” and (3) they were not “adopted . . . because of
disagreement with the message . . . convey[ed].” Reed,
135 S. Ct. at 2227; Ohio Ballot Board, 885 F.3d at 447.
To put the point more concretely, based on the initiative that gave rise to this case, the Ohio legislative
authority statutes do not regulate on the topic of marijuana possession in particular or operate to restrict
any viewpoint, idea, or message on that topic. Rather,
they simply regulate the manner in which any topic
concerning any viewpoint, idea, or message may be
presented to the voters for approval via the initiative

36a
process. Such regulation, though it involves analysis
of the text of the initiative, is nonetheless contentneutral under the First Amendment. See Taxpayers
United, 994 F.2d at 295 (holding Michigan Board’s
review of the contents of the petition signatures to
determine whether they were valid and from registered voters was content-neutral and did not violate
the First Amendment).
In light of this conclusion, whether the Ohio legislative authority statutes survive review turns on the
neutral application of the statutes by the Board and
the Secretary—that is, are they applied in a discriminatory or non-discriminatory manner? Had Appellees
presented evidence that the Board of Elections treated
their initiatives differently because of their position
regarding marijuana advocacy, then their claims
might have had some merit. But, in the absence of
evidence that the legislative authority statutes were
applied in a discriminatory manner, it follows that the
Board applied the gatekeeper provisions in a contentneutral and non-discriminatory way and therefore in
compliance with the First Amendment. Although the
Board may make mistakes in reviewing petitions and
determine that otherwise certifiable initiatives are
administrative (as the Secretary acknowledged happened here, Oral Arg. at 38:02–07), that does not mean
that Ohio’s legislative statutes are discriminatory as
to any point of view. Instead, it is a steadfast reminder
that humans make errors and likely is the reason why
Ohio provides petitioners the right to seek a writ of
mandamus in the Ohio Supreme Court. And thus,
Ohio’s legislative authority statutes are nondiscriminatory.
Because “it is constitutionally permissible for [Ohio]
to condition the use of its initiative procedure on

37a
compliance with content-neutral, nondiscriminatory
regulations that are, as here, reasonably related to the
purpose of administering an honest and fair procedure,” the Appellees’ “First Amendment claim is without merit.” Taxpayers United, 994 F.2d at 297. For
these reasons, therefore, I concur in the judgment of
the Majority that the Ohio legislative authority statutes do not violate the First Amendment.

38a
APPENDIX B
363 F.Supp.3d 842
UNITED STATES DISTRICT COURT,
S.D. OHIO, EASTERN DIVISION
————
Case No. 2:18-cv-966
————
WILLIAM T. SCHMITT, et al.,
Plaintiffs,

v.

OHIO SECRETARY OF STATE JON HUSTED, et al.,
Defendants.
————
Signed 02/11/2019
————
Attorneys and Law Firms
Mark George Kafantaris, Kafantaris Law Offices,
Mark R. Brown, Columbus, OH, for Plaintiffs.
Christopher J. Meduri, Portage County Prosecutor’s
Office, Ravenna, OH, Sarah Elaine Pierce, Renata Y.
Staff, Ohio Attorney General’s Office Constitional
Offices Section, Columbus, OH, for Defendants.
————
OPINION AND ORDER
EDMUND A. SARGUS, JR.,
STATES DISTRICT JUDGE

CHIEF

UNITED

This matter is before the Court for consideration of
Plaintiffs William T. Schmitt and Chad Thompson’s

39a
(“Plaintiffs”) Motion for Temporary Restraining
Order and/or Injunctive Relief (ECF No. 3), which the
Court previously granted (ECF No. 22), extended (ECF
No. 26), and converted into a preliminary injunction,
which expired on November 7, 2018 (ECF No. 28). By
order of the Court (ECF No. 28), Defendants Ohio
Secretary of State John Husted and the Portage County
Board of Elections (the “Board”)—individually, Craig
M. Stephens, Patricia Nelson, Doria Daniels, and
Elayne J. Cross—(“Defendants”) briefed the issue of
constitutionality of the relevant Ohio statutes. (See
ECF Nos. 30, 32, 34, and 35). On December 19, 2018,
the Court held oral argument to discuss reinstating
the preliminary injunctive relief granted to Plaintiffs.
Based on the parties’ briefs and their positions at oral
argument, the Court orders permanent injunctive
relief. Thus, the Court REINSTATES as a permanent
injunction the preliminary injunctive relief granted in
its Opinion and Order issued on September 19, 2018.
(ECF No. 22).
I. BACKGROUND
A. Ohio’s Ballot Initiative Scheme
The Ohio Constitution creates an initiative process
for Ohio citizens. Ohio Const. Art. II, Sec. 1. Ohio law
requires petitioners of a municipality’s ordinances to
submit ballot initiatives to a county’s board of elections. O.R.C. § 3501.11(K)(1). The boards of elections
“determine whether the petition falls within the scope
of authority to enact via initiative and whether the
petition satisfies the statutory prerequisites to place
the issue on the ballot.” O.R.C. § 3501.11(K)(2). This
process is known as the “gatekeeper mechanism.”
State ex rel. Walker v. Husted, 144 Ohio St. 3d 361, 43
N.E.3d 419, 423 (2015).

40a
The Supreme Court of Ohio has held that boards
of elections have discretion when determining “which
actions are administrative, and which are legal.” Id.
“The test for determining whether the action of a legislative body is legislative or administrative is whether
the action taken is one enacting a law, ordinance, or
regulation, or executing or administering a law, ordinance or regulation already in existence.” State ex rel.
N. Main St. Coalition v. Webb, 2005-Ohio-5009, 106
Ohio St.3d 437, 835 N.E.2d 1222 (quoting Donnelly v.
Fairview Park (1968), 13 Ohio St.2d 1, 42 O.O.2d 1, 233
N.E.2d 500, paragraph two of the syllabus). Legislative
actions are appropriate for the initiative process; administrative actions are not. See O.R.C. §§ 3501.38(M)(1)
and 3501.39(A)(3).1
When a board of elections approves an initiative
petition, citizens opposing the petition’s validity (and
therefore, the board of elections’ decision) have an
original cause of action for review in the Supreme
Court of Ohio. Ohio Const. Art. II, Sec. 1g. In contrast,
when a board of elections or the Ohio Secretary of
State rejects a petitioner’s ballot initiative for a substantive reason, e.g., whether the proposed legislation
is administrative versus legislative, neither the Ohio
Constitution nor state laws provide a remedy.2

1

The Court does not address whether Plaintiffs’ ballot
initiatives implicated administrative or legal actions.
2

See State ex rel. Jones v. Husted, 149 Ohio St.3d 110, 73
N.E.3d 463 (2016) ¶ 24 (“By its plain language, Section 1g creates
a cause of action to challenge, that is, to oppose signatures and
part-petitions. It does not create a broader cause of action only to
challenge decisions by the secretary or the county boards to reject
petitions. That cause of action still falls under this court’s original
mandamus jurisdiction.”) Here, Plaintiffs’ fall under the latter
scenario. That is, the Portage County Board rejected Plaintiffs’

41a
Thus, a party aggrieved by a rejected initiative
petition has no right, by statute or otherwise, to a
review of the executive board’s legal conclusion. An
aggrieved petitioner may seek a writ of mandamus,
which is wholly separate from an appeal of right, since
a writ is an extraordinary remedy that is discretionary
and “will not issue to prevent an erroneous judgment,
or to serve the purpose of appeal, or to correct mistakes
of the lower court in deciding questions within its
jurisdiction.” State ex rel. Sparto v. Juvenile Court of
Darke County (1950), 153 Ohio St. 64, 65, 90 N.E.2d
598.
Under Ohio law, to be entitled to a writ of mandamus, a petitioner must prove, by clear and convincing
evidence: (1) a clear legal right to the requested relief,
(2) a clear legal duty on the part of the board of electors
to provide the requested relief, and (3) the lack of an
adequate remedy at law. State ex rel. Khumprakob v.
Mahoning Cty. Bd. of Elections, 153 Ohio St.3d 581,
2018-Ohio-1602, 109 N.E.3d 1184 (citing State ex rel.
Waters v. Spaeth, 2012-Ohio-69, 131 Ohio St. 3d 55,
960 N.E.2d 452, ¶ 6, 13). Only the Ohio Supreme Court
of Ohio or the courts of appeals have original jurisdiction in mandamus. Ohio Const. Art. IV, §§ 2(B)(1)(b),
3(B)(1)(b); see State ex rel. Jones v. Husted, 2016-Ohio5752, 149 Ohio St.3d 110, 73 N.E.3d 463. When the
Supreme Court of Ohio or a court of appeals reviews a
decision by a county board of elections, the court may
only issue the writ if the board “engaged in fraud or
corruption, abused its discretion, or acted in clear
disregard of applicable legal provisions.” Jones, 149
Ohio St.3d at ¶ 4 (citing State ex rel. Jacquemin v.
decision. Therefore, Plaintiffs’ only state-court remedy exists in
mandamus before either the Supreme Court of Ohio or the courts
of appeals.

42a
Union Cty. Bd. of Elections, 147 Ohio St.3d 467, 2016Ohio-5880, 67 N.E.3d 759, ¶ 9).
B. Relevant Facts
In 2018, Plaintiffs circulated ballot initiatives in two
Ohio villages: Garrettsville and Windham. Both ballot
initiatives proposed identical ordinances, which essentially decriminalized marijuana possession by reducing
criminal fines to $0, removing all consequences related
to drivers’ licenses, and reducing court costs to $0.
Plaintiffs acquired the necessary number of signatures
and submitted the ballot initiatives to the Board. The
Board’s minutes state:
Staff presented a list of ballot issues for the
November 6, 2018 ballot. Denise Smith, Chief
Assistant Prosecutor addressed questions about
two initiative petitions regarding marijuana penalties filed for Garrettsville Village and Windham
Village. Staff reported that both initiative petitions
had a sufficient number of valid elector signatures. Both initiative petitions have identical
language and seek to decriminalize marijuana by
proving for no monetary fines, no license suspension and no court costs for misdemeanor marijuana
offenses. Denise indicated that the Prosecutor’s
Office will not sign off on the ballot language and
does not believe the initiative petitions are appropriate for the ballot because the initiatives are
administrative in nature, rather than legislative.
Administrative actions are not appropriate for
initiative petitions.
Denise indicated that the decision is ultimately
up to the Board. Ms. Daniels moved that the
initiative petitions regarding marijuana penalties
for Garrettsville Village and Windham Village not

43a
be certified to the November 6, 2018 General
Election ballot. Second by Ms. Cross.
ROLL CALL:
Ms. Nelson — Yes
Ms. Daniels — Yes
Ms. Cross — Yes
Pl.’s Compl., Ex. 3 (ECF No. 1). Therefore, the Board
rejected Plaintiffs’ proposed initiatives. The Board
then advised Plaintiffs that their initiatives had been
rejected, stating:
In State ex rel. Sensible Norwood v. Hamilton
County Board of Elections [148 Ohio St.3d 176],
2016-Ohio-5919 [69 N.E.3d 696], the Ohio Supreme
Court said administrative actions are not subject
to initiative. Reviewing the language in the proposals presented by the Village of Garrettsville
and the Village of Windham, the $0 and no license
consequences are administrative in nature. The
$0 court costs is administrative in nature and is
an impingement on the judicial function by a
legislature. Accordingly, as the Garrettsville Village
and Windham Village petitions deal with subject
matter that is not subject to the initiative process,
the Board of Elections, in its discretion, has
chosen not to certify these issues to the ballot.
Pl.’s Compl., Ex. 4 (ECF No. 1).
C. Procedural History
On August 28, 2018, Plaintiffs filed their Complaint
(ECF No. 1) and Motion for Temporary Restraining
Order and/ or Preliminary Injunction (ECF No. 3). On
September 19, 2018, the Court granted Plaintiffs a
temporary restraining order (ECF No. 22), which

44a
directed Defendants to place both initiative petitions
on the November 6, 2018 ballot. The Court then held
a telephone status conference during which the parties
consented to converting the temporary restraining
order to a preliminary injunction, which would expire
on November 7, 2018—the day after the election. (ECF
No. 28). Subsequently, the parties briefed the constitutionality of the Ohio laws at issue, and the Court
held oral argument on December 19, 2018. (ECF Nos.
30, 32, 33, 34, 35). At the December 19, 2018 hearing,
the parties stipulated that Plaintiffs’ motion for injunctive relief is ripe for review because Plaintiffs intend
to submit identical initiative petitions in upcoming
voting cycles.
II.
Federal Rule 65 of Civil Procedure allows a party to
seek injunctive relief if the party believes that it will
suffer irreparable harm or injury. Fed. R. Civ. P. 65.
To determine whether injunctive relief should be issued,
the Court considers these four factors: (1) whether the
movant has a strong likelihood of success on the merits;
(2) whether the movant would otherwise suffer irreparable injury; (3) whether granting the injunction would
cause substantial harm to others; and (4) whether the
public interest would be served by issuing the injunction. McPherson v. Michigan High School Athletic
Ass’n, 119 F.3d 453, 459 (6th Cir. 1997) (en banc).
These factors are not prerequisites; each must be
weighed against the others. Id. at 459. “Although no
one factor is controlling, a finding that there is simply
no likelihood of success on the merits is usually fatal.”
Gonzales v. Nat’l Bd. of Med. Exam’rs, 225 F.3d 620,
625 (6th Cir. 2000). A district court is required to make
specific findings concerning each of the factors unless
fewer are diapositive of the issue. Performance Unlim-

45a
ited v. Questar Publishers, Inc., 52 F.3d 1373, 1381
(6th Cir. 1995).
“The standard for a preliminary injunction is
essentially the same as for a permanent injunction
except that the plaintiff must show actual success on
the merits rather than a likelihood of success.” Gas
Natural Inc. v. Osborne, 624 Fed. Appx. 944, 948 (6th
Cir. 2015) (citing Am. Civil Liberties Union of Ky. v.
McCreary Cty., 607 F.3d 439, 445 (6th Cir. 2010)).
When a plaintiff seeks a permanent injunction, “[a]n
evidentiary hearing is typically required before an
injunction may be granted, but a hearing is not necessary where no triable issues of fact are involved.”
United States v. Miami University, 294 F.3d 797, 815
(6th Cir. 2002) (citing United States v. McGee, 714 F.2d
607, 613 (6th Cir. 1983)).
III.
Plaintiffs argue that Ohio’s ballot initiative process
violates their procedural due process rights guaranteed by the United States Constitution. To establish a
procedural due process claim, a plaintiff must show
that “(1) it had a life, liberty, or property interest
protected by the Due Process Clause; (2) it was deprived
of this protected interest; and (3) the state did not
afford it adequate procedural rights.” Daily Services,
LLC v. Valentino, 756 F.3d 893, 904 (6th Cir. 2014).
1. Liberty Interest Protected by the Due
Process Clause
The right to initiate legislation through the initiative process is not derived from the United States
Constitution. Taxpayers United for Assessment Cuts v.
Austin, 994 F.2d 291, 295 (6th Cir. 1993). Once a state
creates an initiative process, however, the state may
not restrict the process in any manner that violates

46a
the Constitution. Meyer v. Grant, 486 U.S. 414, 108
S.Ct. 1886, 100 L.Ed.2d 425 (1988); Austin, 994 F.2d
at 295 (“although the Constitution does not require a
state to create an initiative petition procedure, if it
creates such a procedure, the state cannot place
restrictions on its use that violate the federal
Constitution”). Ohio’s has created a ballot initiative
process for its citizens. See O.R.C. § 3501.11(K)(1).
Therefore, Ohio cannot restrict that process in any
manner that violates the Constitution.
Defendants argue Plaintiffs have no right for placement of the proposed legislation on the ballot and
therefore Plaintiffs lack any threatened liberty interest. This argument is not well taken. Plaintiffs do not
claim they have a substantive right to appear on the
ballot. Plaintiffs contend that Ohio’s ballot initiative
framework fails to provide procedural due process.
2. Deprivation of the Liberty Interest Without
Adequate Procedural Rights
“An essential principle of due process is that a
deprivation of life, liberty, or property ‘be preceded
by notice and opportunity for hearing appropriate to
the nature of the case.’” Cleveland Board of Education
v. Loudermill, 470 U.S. 532, 542, 105 S.Ct. 1487, 84
L.Ed.2d 494 (1985) (quoting Mullane v. Central Hanover
Bank & Trust Co., 339 U.S. 306, 313, 70 S.Ct. 652,
94 L.Ed. 865 (1950)). When a liberty interest is at
stake, “procedural due process generally requires
that the state provide a person with notice and an
opportunity to be heard before the deprivation occurs.”
Center for Powell Crossing, LLC v. City of Powell,
Ohio, 173 F.Supp.3d 639, 657 (S.D. Ohio 2016) (citing
Warren v. City of Athens, 411 F.3d 697, 708 (6th Cir.
2005)).

47a
Plaintiffs argue they were deprived of their right
to participate in Ohio’s initiative process without
the right to adequate review in the courts of Ohio.
In contrast, Defendants contend that mandamus is
a constitutionally sufficient remedy for review of an
allegedly unconstitutional deprivation of ballot access.
The Court disagrees.
In procedural due process cases, the Sixth Circuit
directs courts to determine whether the deprivation of
a liberty interest is a result of “an established procedure” or is “pursuant to a random and unauthorized
act” of a state employee. Daily Services, LLC v. Valentino,
756 F.3d 893, 907 (6th Cir. 2014); Wedgewood Ltd.
Partnership v. Township of Liberty, Ohio, 610 F.3d
340, 349–50 (6th Cir. 2010). “If the former, then it is
both practicable and feasible for the state to provide
pre-deprivation process, and the state must do so
regardless of the adequacy of any post-deprivation
remedy . . . .” Walsh v. Cuyahoga County, 424 F.3d 510,
513 (6th Cir. 2005) (internal quotations and citations
omitted).
The gatekeeping function is based on Ohio’s constitution and statutory framework, rendering it “an
established procedure.” Accordingly, it is both practicable and feasible for Ohio to provide a meaningful
right to review of the decision rendered by the Board
of Elections. Indeed, Ohio already applies a de novo
standard when reviewing executive agencies’ legal
determinations in other contexts. See Akron City
School Dist. Bd. of Education v. Summit Cty. Bd. of
Revision, 2014-Ohio-1588, 139 Ohio St.3d 92, 9 N.E.3d
1004, ¶¶ 10–11; see also Gahanna-Jefferson Local School
Dist. v. Zaino, 93 Ohio St.3d 231, 232, 754 N.E.2d 789
(2001). In the ballot initiative process, however, the
State of Ohio has not provided Plaintiffs an adequate

48a
review process. Instead, the gatekeeping function enables
a board of elections—an executive body—to make legal
determinations without providing denied petitioners a
right to review. The only possibility of review requires
an aggrieved petitioner to convince a court of appeals
or the Supreme Court of Ohio to exercise its discretion
under heightened standards.3 Plaintiffs contend that
the refusal of the Board to certify a vote on the legislation without a right to review by a judicial body violates
Plaintiffs’ constitutionally protected liberty interest.
No doubt, Ohio has strong interests in ensuring its
elections are run fairly and efficiently. Buckley v. Am.
Constitutional Law Found., 525 U.S. 182, 191, 119
S.Ct. 636, 142 L.Ed.2d 599 (1999); Taxpayers United
for Assessment Cuts v. Austin, 994 F.2d 291, 297 (6th
Cir. 1993). Ohio also has a strong interest in placing
on the ballot only such proposed legislation as would
be lawful as municipal legislation under Ohio Const.
Art. XVIII, Sec. 3. Allowing votes on matters unlawful
or unenforceable on their face could erode public confidence in Ohio’s entire initiative process.
Recognizing those interests, the Court finds no
legitimate state interests in withholding an adequate
3

In State ex rel. Maxey v. Saferin, three dissenting Ohio
Supreme Court Justices highlighted “the uncertainty regarding
the constitutionality of the amendments to R.C. 3501.11 made by
H.B. 463.” — Ohio St. 3d —, 2018-Ohio-4035, — N. E. 3d —, at
¶ 52. In Maxcy, the Supreme Court of Ohio found that county
boards of elections lack authority to review the substance of
a proposed municipal charter amendment. In so holding, the
majority observed that Article XVII, Sections 8 and 9 of the Ohio
Constitution apply to municipal charter amendments rather than
Article II, Section 1f, which applies to citizen-initiated legislation,
i.e., referendum and initiative petitions. For that reason, the majority declined to address the constitutionality of R.C. 3501.11(K).
Id. at ¶ 13.

49a
legal remedy for petitioners denied ballot access by a
board of elections. “Although a state has a wide scope
in regulating the franchise, it is not permitted to adopt
any standard it desires, but it is limited by the
strictures of the federal and state constitutions . . . .”
25 Am. Jur. 2d Elections § 98. Given the availability of
mandamus relief is extraordinary and only exercised
when the law does not otherwise provide an adequate
remedy, the high burden on petitioners to prove entitlement to an extraordinary remedy is no substitute
for de novo review of the denial of a constitutionally
protected liberty interest. Therefore, the Court finds
Plaintiffs prevail on their constitutional challenge to
Ohio’s ballot initiative process.4
IV.
In conclusion, the Court REINSTATES and
CONVERTS to permanent injunction the preliminary
injunctive relief granted in its Opinion and Order
issued on September 19, 2018. (ECF No. 22). The Court
DIRECTS the Clerk to enter judgment accordingly.
IT IS SO ORDERED.

4

As the Court mentioned during oral argument, the Boards of
Elections in Ohio make many decisions that permit or deny ballot
access to candidates and petitioners. The issues in this case do
not involve whether the Boards of Elections may exercise such
powers. The Court assumes that the Boards of Elections may
exercise such powers as given by the Ohio General Assembly. The
sole issue in this case is whether a constitutionally adequate
review is available to a party deprived of ballot access by a Board
of Elections.

50a
APPENDIX C
341 F.Supp.3d 784
UNITED STATES DISTRICT COURT,
S.D. OHIO, EASTERN DIVISION
————
Case No. 2:18-cv-966
————
WILLIAM SCHMITT, JR., et al.,
Plaintiffs,

v.

OHIO SECRETARY OF STATE JON HUSTED, et al.,
Defendants.
————
Signed 09/19/2018
————
Attorneys and Law Firms
Mark George Kafantaris, Kafantaris Law Offices,
Mark R. Brown, Columbus, OH, for Plaintiffs.
Sarah Elaine Pierce, Renata Y. Staff, Ohio Attorney
General’s Office Constitutional Offices Section,
Columbus, OH, Christopher J. Meduri, Portage
County Prosecutor’s Office, Ravenna, OH, for
Defendants.
————
OPINION & ORDER
EDMUND A. SARGUS, JR.,
STATES DISTRICT JUDGE

CHIEF

UNITED

51a
This matter is presently before the Court for consideration of Plaintiffs Application for a Temporary
Restraining Order. (ECF No. 3.) For the reasons set
forth herein, the motion is GRANTED.
I.
A. Undisputed Relevant Facts
The following facts are set forth for the limited
purpose of addressing the immediate motion before
the Court. Any findings of fact and conclusions of law
made by a district court in addressing a request for
injunctive relief, particularly in consideration of a
temporary restraining order, are not binding at a trial
on the merits. University of Texas v. Camenisch, 451
U.S. 390, 395, 101 S.Ct. 1830, 68 L.Ed.2d 175 (1981).
Plaintiffs William Schmitt and Chad Thompson
drafted and circulated two ballot initiatives in two
Ohio villages, Garretsville and Windham. (ECF No. 3.)
Both initiatives proposed ordinances with identical
language that essentially decriminalized marijuana
possession. The initiative reduced criminal fines to
$0, removed any consequences related to licenses, and
reduced court costs to $0. (Id.) After acquiring the
necessary signatures, Schmitt and Thompson submitted the proposed ordinances to the Portage County
Board of Elections, one of the defendants in this case.
The Portage County Board of Elections rejected the
proposed initiative for two reasons. First, the Board
determined that “the $0 fine and no license consequences are administrative in nature.” (Id.) Second,
the Board found that “[t]he $0 court costs is administrative in nature and is an impingement on the
judicial function by a legislature.” (Id.) On August 21,
2018, the Portage County Board of Elections notified

52a
Schmitt and Thompson that it would not certify the
proposed initiatives for the ballot. (Id.)
On August 28, 2018, Plaintiffs filed their Complaint
(ECF No. 1) and a Motion for Temporary Restraining
Order and/or Preliminary Injunction. (ECF No. 3.)
Defendants filed Responses in Opposition to Plaintiffs’
Motion (ECF Nos. 17, 18) to which Plaintiffs answered
with their Reply. (ECF No. 19.) On September 17,
2018, this Court held a hearing on Plaintiffs’ requested
injunctive relief.
B. Ohio’s Ballot Initiative Scheme
Ohio has created an initiative process for its citizens. Ohio Const. Art. II, Sec. 1. Relevant to this case,
Ohio law requires petitioners for the initiation of legislation in a municipality to submit an initiative petition
to a board of elections. O.R.C. § 3501.11(K)(1). The
board of elections then reviews, examines, and certifies
the sufficiency and validity of the petition. Id. The
boards of elections are also required to “determine
whether the petition falls within the scope of authority
to enact via initiative and whether the petition satisfies
the statutory prerequisites to place the issue on the
ballot.” O.R.C. § 3501.11(K)(2). This is known as the
“gatekeeper mechanism.” State ex rel. Walker v. Husted,
144 Ohio St.3d 361, 43 N.E.3d 419, 423 (2015). The
Supreme Court of Ohio has held that boards of elections
have discretion when determining “which actions are
administrative and which are legal.” Id. Administrative
actions are not appropriate for the initiative process;
legislative actions are. See O.R.C. §§ 3501.38(M)(1)
and 3501.39(A)(3). While recognizing that this Court
is without jurisdiction to decide whether the initiative
petition contains legislative or administrative action,
the parties dispute this issue, which would otherwise

53a
determine whether the matter should be placed on the
ballot.
When a local elections board determines that an action
is administrative (and therefore improper) or legislative (and therefore proper), Ohio law creates a fork in
its procedural road. If the initiative petition is deemed
valid, then citizens opposing the petition’s validity—
and in a practical sense, the board’s decision—have
an original cause of action for review of the board’s
decision in the Supreme Court of Ohio. Ohio Const.
Art. II, Sec. 1g. On the other hand, if the board or secretary rejects a petitioner’s submission for a substantive
reason, as in the administrative versus legislative
divide, supra,1 neither the Ohio Constitution nor state
laws provide a remedy. As a result, a party aggrieved
by the rejection of an initiative petition has no right,
by statute or otherwise, to review of an executive
board’s legal conclusion. An aggrieved petitioner may
seek a writ of mandamus, which is wholly separate
from an appeal of right.
Under Ohio law, to be entitled to a writ of mandamus, a petitioner must prove, by clear and convincing
evidence: (1) a clear legal right to the requested relief,
(2) a clear legal duty on the part of the board to provide
1

See State ex rel. Jones v. Husted, 149 Ohio St.3d 110, 73
N.E.3d 463 (2016) ¶ 24 (“By its plain language, Section 1g creates
a cause of action to challenge, that is, to oppose signatures and
part-petitions. It does not create a broader cause of action only to
challenge decisions by the secretary or the county boards to reject
petitions. That cause of action still falls under this court’s original
mandamus jurisdiction.”) In the instant case, Plaintiffs’ fall under
the latter scenario. That is, the Portage County Board rejected
Plaintiffs’ decision. Therefore, Plaintiffs’ only state-court remedy
exists in mandamus issued by either the Supreme Court of Ohio
or the courts of appeals.

54a
it, and (3) the lack of an adequate remedy in the
ordinary course of the law. State ex rel. Khumprakob
v. Mahoning Cry. Bd. of Elections, 2018-Ohio-1602,
109 N.E.3d 1184 (citing State ex rel. Waters v. Spaeth,
131 Ohio St.3d 55, 2012-Ohio-69, 960 N.E.2d 452, ¶ 6,
13). Only the Supreme Court of Ohio or the courts of
appeals have original jurisdiction in mandamus. Ohio
Const. Art. IV, Sec. 3; State ex rel. Jones v. Husted
(Ohio, 2016) 149 Ohio St.3d 110, 73 N.E.3d 463, 2016Ohio-5752. When the Ohio Supreme Court or courts of
appeals reviews a decision by a county board of
elections, such court may only issue the writ if the
board “engaged in fraud or corruption, abused its
discretion, or acted in clear disregard of applicable
legal provisions.” Id. ¶ 4 (citing State ex rel. Jacquemin
v. Union County Bd. of Elections, 147 Ohio St.3d 467,
2016-Ohio-5880, 67 N.E.3d 759, ¶ 9).
Applied to these narrow facts, Ohio’s initiative scheme
denies a rejected petitioner “an adequate remedy . . .
of law” for review of a local board of election’s legal
determination. Instead, the only recourse available
is a petition for a writ of mandamus. A writ is an
extraordinary remedy that is discretionary and “will
not issue to prevent an erroneous judgment, or to serve
the purpose of appeal, or to correct mistakes of the
lower court in deciding questions within its jurisdiction.” State ex rel. Sparto v. Juvenile Court of Darke
County (1950), 153 Ohio St. 64, 65, 90 N.E.2d 598. In
other words, rejected petitioners are stuck between a
rock and a hard place. But is there any constitutional
violation?
On that question, the parties disagree. Plaintiffs
allege that by following Ohio law, Defendants violated
their rights protected by the First and Fourteenth
Amendments. Defendants argue that the gatekeeper

55a
mechanism and the possibility of a writ of mandamus
are constitutionally sound. To remedy their alleged
violations, Plaintiffs move this Court to order injunctive relief, pursuant to Federal Rule 65 of Civil Procedure.
II.
Federal Rule 65 of Civil Procedure allows a party to
seek injunctive relief if the party believes that it
will suffer irreparable harm or injury. Fed. R. Civ. P.
65. To determine whether injunctive relief should
be issued, the Court considers these four factors:
(1) whether the movant has a strong likelihood of
success on the merits; (2) whether the movant would
otherwise suffer irreparable injury; (3) whether granting the injunction would cause substantial harm
to others; and (4) whether the public interest would
be served by issuing the injunction. McPherson v.
Michigan High School Athletic Ass’n, 119 F.3d 453,
459 (6th Cir. 1997) (en banc).
These factors are not prerequisites; each must be
weighed against the others. Id. at 459. “Although no
one factor is controlling, a finding that there is simply
no likelihood of success on the merits is usually fatal.”
Gonzales v. Nat’l Bd. of Med. Exam’rs, 225 F.3d 620,
625 (6th Cir. 2000). A district court is required to make
specific findings concerning each of the factors unless
fewer are diapositive of the issue. Performance Unlimited
v. Questar Publishers, Inc., 52 F.3d 1373, 1381 (6th
Cir. 1995). The Court will now analyze each of the four
factors below.
III.
A. Likelihood of Success
Plaintiffs argue that Ohio’s ballot initiative procedure violates their rights guaranteed by the United
States Constitution. In their Reply Brief (ECF No. 19),

56a
Plaintiffs make clear that they “do not challenge Ohio’s
ability to limit the subject matter of its initiatives.
What Plaintiffs challenge is how Ohio has chosen to
implement this otherwise lawful task.” (Id.) At oral
argument, however, Plaintiffs argued that the Ohio procedure for proposing initiatives violates constitutional
due process protections.
At the same oral argument, Defendants responded
that the mandamus relief is constitutionally sufficient.
Defendants conceded that mandamus relief is only
appropriate when there is no adequate remedy at law,
and that the Supreme Court or courts of appeals must
review local board of election’s decision by a “clear
disregard of law” standard.
The right to initiate legislation through the initiative
process is not a federal constitutional right. Taxpayers
United for Assessment Cuts v. Austin, 994 F.2d 291,
295 (6th Cir. 1993). Concomitantly, once the initiative
or, if its counterpart, the referendum process, is made
a part of state law, the process becomes a “democratic
tool” to be regulated in a manner consistent with the
First and Fourteenth Amendments. City of Eastlake v.
Forest City Enterprises, Inc., 426 U.S. 668, 96 S.Ct.
2358, 49 L.Ed.2d 132 (1976).
In Meyer v. Grant, the United States Supreme Court
held that once a right of initiative is created, that
state may nor place restrictions on the exercise of the
initiative that unduly burden First Amendment rights.
Meyer v. Grant, 486 U.S. 414, 108 S.Ct. 1886, 100 L.Ed.2d
425 (1988); see Taxpayers United for Assessment Cuts
v. Austin, 994 F.2d 291, 295 (6th Cir. 1993) (“although
the Constitution does not require a state to create an
initiative procedure, if it creates such a procedure, the
state cannot place restrictions on its use . . . .”) In
Meyer, the United States Supreme Court struck down

57a
a Colorado provision criminalizing the payment of
money to anyone circulating an initiation petition.
Id. Since Ohio has created an initiative procedure,
Ohio cannot restrict its use in violation of the federal
Constitution.
The United States Supreme Court has articulated a
standard for evaluating constitutional challenges to a
state’s election laws in Anderson v. Celebrezze, 460
U.S. 780, 788–89, 103 S.Ct. 1564, 75 L.Ed.2d 547
(1983), and in Burdick v. Takushi, 504 U.S. 428, 434,
112 S.Ct. 2059, 119 L.Ed.2d 245 (1992). The court
must: (1) “consider the character and magnitude of the
plaintiffs’ alleged injuries, (2) “identify and evaluate
the precise interests put forward by the State as
justifications for the burden imposed by its rule,” and
(3) assess the “legitimacy and strength of each of
those interests,” as well as the “extent to which those
interests make it necessary to burden the plaintiff[s’]
rights.” Anderson, 460 U.S. at 789, 103 S.Ct. 1564.
This is known as the Anderson-Burdick standard.
“States allowing ballot initiatives have considerable
leeway to protect the integrity and reliability of the
initiative process.” Buckley v. Am. Constitutional Law
Found., 525 U.S. 182, 191, 119 S.Ct. 636, 142 L.Ed.2d
599 (1999). The Court addresses these factors below.
The touchstone of Anderson-Burdick is flexibility
when weighing competing interests. Ohio Democratic
Party v. Husted, 834 F.3d 620, 627 (6th Cir. 2016).
Opposite this flexibility, the “rigorousness of our inquiry
into the propriety of a state election law depends upon
the extent to which a challenged regulation burdens
First and Fourteenth Amendment rights.” Burdick v.
Takushi, 504 U.S. 428, 112 S.Ct. 2059, 119 L.Ed.2d
245 (1992).

58a
Plaintiffs argue that without the right to review an
executive board’s legal decision, Ohio’s initiative procedure deprives Plaintiffs of their First Amendment
rights related to voting upon valid initiative-generated
legislation. Voting is “of the most fundamental significance under our constitutional structure.” Illinois Bd.
of Elections v. Socialist Workers Party, 440 U.S. 173,
184, 99 S.Ct. 983, 59 L.Ed.2d 230 (1979).
In addition to voting, Plaintiffs’ allege that their
rights to due process are violated. The Due Process
Clause of the Fourteenth Amendment extends to First
Amendment rights. Briscoe v. Kusper, 435 F.2d 1046,
1055 (7th Cir. 1970) (citing NAACP v. Alabama ex rel.
Patterson, 357 U.S. 449, 460, 78 S.Ct. 1163, 2 L.Ed.2d
1488 (1958) (“It is by now well established that the
concept of ‘liberty’ protected against state impairment
by the Due Process Clause of the Fourteenth Amendment includes the freedoms of speech and association
and the right to petition for redress of grievances.”))
These protected rights may take the form of “simple
association for mutual political or social benefits, including support of independent candidates or specific
policies.” Id. (citing NAACP v. Alabama ex rel. Flowers,
377 U.S. 288, 84 S.Ct. 1302, 12 L.Ed.2d 325 (1964)).
No doubt, Ohio has strong interests in ensuring its
elections are run fairly and honestly. Taxpayers United
for Assessment Cuts v. Austin, 994 F.2d 291, 297 (6th
Cir. 1993). Ohio also has an interest in placing on the
ballot only such proposed legislation as would be
lawful as municipal legislation under Ohio Const. Art.
XVIII, Sec. 3. Repeated votes on matters unlawful or
unenforceable on their face could erode public confidence in the entire initiative or referendum process.
Recognizing such interests, the Court finds no
legitimate state interests in preventing an adequate

59a
legal remedy for petitioners denied ballot access by a
board of elections. While the availability of mandamus
relief is essentially a judicially imposed remedy when
the law does not otherwise provide one, the high
burden on petitioners to prove entitlement to an
extraordinary remedy is no substitute for de novo
review of the denial of a First Amendment right. For
those reasons, the Court finds that Plaintiffs’ have a
high likelihood of success on the merits.
B. Irreparable Harm
Plaintiffs argue that without a right of review of
the board’s legal decision, Ohio laws deprive Plaintiffs
of their First Amendment rights. “Even a temporary
deprivation of First Amendment rights constitutes
irreparable harm in the context of a suit for an injunction.” Citizens for a Better Environment v. City of
Park Ridge, 567 F.2d 689, 691 (7th Cir. 1975) (citing
Schnell v. Chicago, 407 F.2d 1084, 1086 (7th Cir.
1969)). Without a right to appeal or review, Plaintiffs
will suffer irreversible injuries which could not be
remedied by law, absent injunctive relief.
C. Substantial Harm to Others; Public Interest
As the Supreme Court noted in Storer v. Brown, 415
U.S. 724, 730, 94 S.Ct. 1274, 39 L.Ed.2d 714 (1974),
election structures are critical “if some sort of order,
rather than chaos, is to accompany the democratic
processes.” While election laws will “invariably impose
some burden on individual voters,” this Court must
balance the equities to ensure the state’s regulatory
interests justify any harm to others. Burdick, 504 U.S.
at 433, 112 S.Ct. 2059. Given this is an election case,
“harm to others” concerns only the public.
In the instant action, Plaintiffs argue Defendants
will suffer no injury should this Court enjoin the

60a
enforcement of O.R.C. § 3503.06(C)(1)(a). (ECF No. 3.)
Defendants contend preliminary relief would harm
Ohio by undermining its interest in regulating the
ballot process. (ECF No. 17) (citing Munro v. Socialist
Workers Party, 479 U.S. 189, 194-95, 107 S.Ct. 533,
93 L.Ed.2d 499 (1986)). Defendants cite Jones v.
Markiewicz-Qualkinbush, in which the Seventh Circuit
stated that “states have a strong interest in simplifying the ballot.” 892 F.3d 935, 938 (7th Cir. 2018).
Plaintiffs’ argument is well taken. Ohio’s regulatory
scheme unreasonably infringes on Plaintiffs’ First
Amendment rights by allowing an executive board to
determine disputed legal and even constitutional issues,
thereby potentially blocking initiatives from the ballot,
and then denying rejected petitioners a right to review.
Burdick, 504 U.S. at 438, 112 S.Ct. 2059. No legitimate state interest is protected by a lack of appellate
review. Similarly, Ohio voters are unlikely to suffer
cognizable harm from Plaintiffs’ access to the ballot.
Finally, in First Amendment cases, potential harm
to others stemming from preliminary relief is “‘dependent on a determination of the likelihood of success on
the merits of the First Amendment challenge.’” Committee to Impose Term Limits on the Ohio Supreme
Court and to Preclude Special Legal Status for Members
and Employees of the Ohio General Assembly v. Ohio
Ballot Board, 218 F.Supp.3d 589, 596 (S.D. Ohio 2016)
(quoting Jones v. Caruso, 569 F.3d 258, 278 (6th Cir.
2009)). For instance, if the “regulation in question is
likely to be deemed constitutional, the public interest
will not be harmed by its enforcement.” Id. Here,
Plaintiffs have a high likelihood of success on the merits.
Accordingly, the public is unlikely to suffer significant
harm from the injunctive relief that Plaintiffs seek.

61a
IV.
For the foregoing reasons, the Court GRANTS
Plaintiffs’ Application for a TRO (ECF No. 10.) Given
the fact that there is no possibility of financial harm to
Defendant, the Court dispenses with the requirement
of a bond. The Court hereby DIRECTS the Ohio
Secretary of State and the Portage County Board of
Elections to place both initiative petitions which are
the subject of this case on the upcoming ballot for the
election to be held on November 6, 2018. This Order
shall remain in effect for fourteen (14) days.
IT IS SO ORDERED.

62a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: Sep 04, 2019
DEBORAH S. HUNT, CLERK]
————
No. 19-3196
————
WILLIAM T. SCHMITT; CHAD THOMPSON;
DEBBIE BLEWITT,
Plaintiffs-Appellees,
v.
FRANK LAROSE, OHIO SECRETARY OF STATE,
Defendant-Appellant.
————
ORDER
BEFORE: CLAY, WHITE, and BUSH, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing and concludes that the issues raised in the petition
were fully considered upon the original submission
and decision of the case. The petition then was circulated to the full court.* No judge has requested a vote
on the suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk
*

Judge Murphy recused himself from participation in this
ruling.

63a
APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: 08/13/2019]
————
No. 19-3196
————
WILLIAM T. SCHMITT, CHAD THOMPSON,
DEBBIE BLEWITT,
Plaintiffs-Appellees,
v.
FRANK LAROSE,
OHIO SECRETARY OF STATE,
Defendant-Appellant.
————
On Appeal from the United States District Court
For the Southern District of Ohio
————
APPELLEES’ PETITION FOR
REHEARING EN BANC
————
Mark R. Brown
303 E. Broad Street
Columbus, OH 43215
(614) 236-6590
(614) 236-6956 (fax)
mbrown@law.capital.edu
Attorneys for Appellees

Mark G. Kafantaris
625 City Park Avenue
Columbus, OH 43206
(614) 223-1444
(614) 300-5123 (fax)
mark@kafantaris.com

64a
TABLE OF CONTENTS
Page
Table of Authorities .............................................

ii

Rule 35 Statement ...............................................

1

Statement of the Case .........................................

2

Reasons for Granting En Banc Review ..............

5

I.

Concluding that Initiatives Are Not Subject
to Full First Amendment Protection Contradicts This Court’s and The Supreme
Court’s Precedents........................................

5

II. The Panel’s Conclusion That Ohio’s Gatekeeper Law Cannot Be A Prior Restraint
Contradicts This Court’s Precedents. ..........

10

III. Refusing to Apply Strict Scrutiny to ContentBased Decisions Contradicts Supreme Court
and Sixth Circuit Precedent. .......................

12

IV. The Panel’s Rejection of the Ohio Supreme
Court’s Interpretation of its Own Jurisdiction Constitutes Clear Error. .......................

15

V.

This Court and the Supreme Court Have
Ruled that Common Law Writs Are Not
Adequate Procedural Safeguards. ...............

17

Conclusion............................................................

17

Certificate of Word-Count and Type-size ...........

18

Certificate of Service ...........................................

18

Addendum (No. 19-3196, Slip op.) (attached)

65a
TABLE OF AUTHORITIES
Cases

Page(s)

Buckley v. American Constitutional Law
Foundation, 525 U.S. 182 (1999) .....................

7

Citizens for Legislative Choice v. Miller, 144
F.3d 916 (6th Cir. 1998) ...................................

14

City of Cuyahoga Falls v. Buckeye Community
Hope Foundation, 538 U.S. 188 (2003) ...........

7

City of Lakewood v. Plain Dealer, 486 U.S. 750
(1988) ........................................................ 1, 6, 11, 17
Committee to Impose Term Limits on the Ohio
Supreme Court and to Preclude Special Legal
Status for Members of and Employees of the
Ohio General Assembly v. Ohio Ballot Board,
885 F. 3d 443 (6th Cir. 2018) ...........................

1, 8

Déjà vu of Nashville v. Metropolitan Government
of Nashville and Davidson County, 274 F.3d
372 (6th Cir. 2001) ..........................................passim
Freedman v. Maryland, 380 U.S. 51 (1965) ......passim
Garcia v. Texas, 564 U.S. 940 (2011) ..................

15

Hyman v. City of Salem, __ F. Supp.3d __, 2019
WL 2366015 (N.D. W.Va. 2019) ...................... 10, 11
Initiative & Referendum Institute v. Walker, 450
F.3d 1082 (10th Cir. 2006) ...............................

1

John Doe No. 1 v. Reed, 561 U.S. 186 (2010) .....

6

Marijuana Policy Project v. United States, 304
F.3d 82 (D.C. Cir. 2002) ...................................

1

Meyer v. Grant, 486 U.S. 414 (1988) ...................

7

66a
Miller v. City of Cincinnati, 622 F.3d 524 (6th
Cir. 2010) ..........................................................

9

Molinari v. Bloomberg, 564 F.3d 587 (2d Cir.
2009) .................................................................

1

Near v. Minnesota, 283 U.S. 697 (1931) .............

9

Novak v. City of Parma, __ F.3d __, 2019 WL
3403893 (6th Cir., July 29, 2019) ....................

9

Port of Tacoma v. Save Tacoma Water, 422 P.3d
917 (Wash. App. 2018) review denied, 192
Wash. 2d 1036 (Wash. 2019), cert. pending,
No. 18-1518 (U.S. 2019) ...................................

7

Reed v. Town of Gilbert, 135 S. Ct. 2218 (2015) .

13

Shuttlesworth v. City of Birmingham, 394 U.S.
147 (1969) .........................................................

11

State ex rel. Bolzenius v. Preisse, 155 Ohio St. 3d
45, 119 N.E.3d 358 (2018)................................

2, 3

State ex rel. Flak v. Betras, 152 Ohio St.3d 244,
95 N.E.3d 329 (2016) .......................................

3

State ex rel. Khumprakob v. Mahoning Board of
Elections, 153 Ohio St.3d 581, 109 N.E.3d
1184 (2018) .......................................................

3

State ex rel. Walker v. Husted, 144 Ohio St.3d
361, 43 N.E.3d 419 (2015)................................

2, 3

Taxpayers United for Assessment Cuts v.
Austin, 994 F.2d 291 (6th Cir. 1993) ...............

1, 8

Universal Film Exchange, Inc. v. City of
Chicago, 288 F. Supp. 286 (N.D. Ill. 1968) .....

12

Wirzburger v. Galvin, 412 F.3d 271 (1st Cir.
2005) .................................................................

2

67a
Wyman v. Secretary of State, 625 A.2d 307 (Me.
1993) ............................................................. 2, 11, 14
Federal Rules
Fed. R. App. P. 35 ................................................

1, 2

6th Cir. I.O.P. 35(a) .............................................

15

State Statutes
O.R.C. § 3501.11(K) .............................................

2

Miscellaneous
James D. Gordon, III, et al., Pre-Election
Judicial Review of Initiatives and Referendums,
64 NOTRE DAME L. REV. 298 (1989).....................

11

68a
RULE 35 STATEMENT
Appellees respectfully request Rehearing En Banc.
The Panel’s decision conflicts with decisions of the
Supreme Court, including Meyer v. Grant, 486 U.S.
414 (1988); Buckley v. American Constitutional Law
Foundation, 525 U.S. 182 (1999); City of Lakewood
v. Plain Dealer, 486 U.S. 750 (1988); Freedman v.
Maryland, 380 U.S. 51 (1965), and decisions of this
Court, including Taxpayers United for Assessment
Cuts v. Austin, 994 F.2d 291 (6th Cir. 1993); Committee to Impose Term Limits on the Ohio Supreme Court
and to Preclude Special Legal Status for Members of
and Employees of the Ohio General Assembly v. Ohio
Ballot Board, 885 F.3d 443 (6th Cir. 2018); Déjà vu of
Nashville v. Metropolitan Government of Nashville
and Davidson County, 274 F.3d 372 (6th Cir. 2001).
Consideration by the full Court is therefore necessary
to secure and maintain uniformity of this Court’s
decisions. See F. R. App. P. 35(b)(1)(A).
Further, the case involves questions of exceptional
importance, including whether and how the First
Amendment’s protections apply to popular democracy.
As Judge Bush recognized, these questions have generated splits in Sister Circuits and States’ high Courts.
See, e.g., Molinari v. Bloomberg, 564 F.3d 587 (2d Cir.
2009); Initiative & Referendum Inst. v. Walker, 450
F.3d 1082 (10th Cir. 2006) (en banc); Marijuana Policy
Project v. United States, 304 F.3d 82 (D.C. Cir. 2002);
Wirzburger v. Galvin, 412 F.3d 271 (1st Cir. 2005);
Wyman v. Secretary of State, 625 A.2d 307 (Me. 1993).
See F. R. App. P. 35(b)(1)(B).
STATEMENT OF THE CASE
Initiatives may be directly put to voters in Ohio. In
order to gain ballot access, an initiative must first

69a
meet several ministerial requirements, including being
supported by a requisite number of voters’ signatures.
Assuming an initiative meets these content-neutral
procedural requirements, Ohio law then mandates one
last step: executive officials must be convinced that the
initiative’s content is acceptable.
This last step is codified as Ohio’s “gatekeeper” law,
O.R.C. § 3501.11(K). Local elections officials “serve as
gatekeepers, to ensure that only those measures that
actually constitute initiatives or referenda are placed
on the ballot.” State ex rel. Walker v. Husted, 144 Ohio
St.3d 361, 363, 43 N.E.3d 419, 423 (2015). Some
proposed laws, those ostensibly addressing “administrative” as opposed to “legal” matters, may in the discretion of elections officials be deemed improper subjects for initiatives. Id. at 364, 43 N.E.3d at 423. Other
pieces of “municipal legislation that would be beyond
a municipality’s legislative power,” or not “fall[] within
the scope of the constitutional power of referendum or
initiative,” may likewise be excluded. State ex rel.
Bolzenius v. Preisse, 155 Ohio St. 3d 45, 47-48, 119
N.E.3d 358, 361-62 (2018). Applying these “puzzling”
distinctions, State ex rel. Khumprakob v. Mahoning
Board of Elections, 153 Ohio St.3d 581, 591-92, 109
N.E.3d 1184, 1192-93 (2018) (Fischer, J., concurring),
local elections officials exercise discretion to pick and
choose between proposed initiatives. Walker, 144 Ohio
St.3d at 364, 43 N.E.3d at 423.
Because these content-based decisions are discretionary with elections officials, the Ohio Supreme
Court has repeatedly emphasized that its review, exercised through mandamus, is limited to “determin[ing]
whether the board members abused their discretion in
determining that the proposed ordinance exceeds
[local] legislative power.” Preisse, 155 Ohio St. 3d at

70a
48, 119 N.E.3d at 362. “As is well-established,” the
Ohio Supreme Court explained in Walker, 144 Ohio
St.3d at 424, 43 N.E.3d at 365, “abuse of discretion
means more than an error of law or of judgment.” “In
close cases” the Ohio Supreme Court has stated, it
“might very well be compelled to find that [an election
official] reasonably disqualified a ballot measure, in
the exercise of his discretion, even if we, in the exercise
of our constitutional duties, would deem the measure
constitutional.” Id.
The Ohio Supreme Court has confessed that it “is
sometimes difficult to distinguish” appropriate subjects
from improper content. State ex rel. Flak v. Betras, 152
Ohio St.3d 244, 247, 95 N.E.3d 329, 332 (2016). Justice
Fischer in State ex rel. Khumprakob v. Mahoning
Board of Elections, 153 Ohio St.3d 581, 591-92, 109
N.E.3d 1184, 1192-93 (2018) (Fischer, J., concurring),
was even more frank, complaining that Ohio’s “puzzling” and “unworkable” gatekeeper law “does not lead
to consistent results among various county boards of
elections.”
This proved true in the present case, where local
elections boards in Ohio disagreed over the propriety
of Appellees’ identically-worded initiatives. Notwithstanding that several elections boards had already
approved Appellees’ initiative, the Portage County
Board of Elections, expressing its discretion, would
not: “the . . . petitions deal with subject matter that is
not subject to the initiative process, [and] the Board of
Elections, in its discretion, has chosen not to certify
these issues to the ballot.” Verified Complaint, Exhibit
4, R.1-4 (emphasis added).
Appellees challenged the Board’s exercise of contentbased discretion as an impermissible prior restraint.
Under Supreme Court and Sixth Circuit precedent,

71a
they claimed, executive officials cannot exercise contentbased discretion when deciding whether to permit
speech. Strict scrutiny is required, and Ohio’s gatekeeper law cannot pass that test. Even if it did, Appellees argued, local officials must employ procedural
safeguards to insure their decisions are correct. Here,
not only was the Board wrong (as Appellant conceded
at oral argument), Ohio’s safeguards are grossly inadequate.
The District Court agreed. A Panel (Clay, White,
and Bush, JJ.) of this Court, however, reversed. It
concluded that while the First Amendment applies to
initiatives, the First Amendment’s most important
and basic restriction – its prohibition on prior
restraints – does not. “We conclude . . . that the ballotinitiative process here is not a prior restraint.” Slip
op., Doc. No. 40-2, at 7. “Ohio’s ballot-initiative laws,”
it explained, “do not directly restrict core expressive
conduct; rather, the laws regulate the process by
which initiative legislation is put before the electorate,
which has, at most, a second-order effect on protected
speech.” Id. at 8. Further, the Panel ruled that because
mandamus review in Ohio – contrary to the Ohio
Supreme Court’s claim – is really de novo, and because
that review mechanism is itself content-neutral, strict
scrutiny does not apply. Id. at 10-11 & n.3.
Judge Bush, in his concurrence, went even further,
concluding that “the First Amendment simply is not
implicated by structural requirements for the adoption
of [initiatives] . . . .” Slip op., Doc. No. 40-2, at Page 23.
For the reasons stated below, Appellees respectfully
request rehearing en banc.

72a
REASONS FOR REHEARING EN BANC
I. Concluding that Initiatives Are Not Subject to Full First Amendment Protection
Contradicts This Court’s and The Supreme
Court’s Precedents.
Prior restraints by definition are structural; they
are designed to “regulate the process” by which information is presented to the public. Because a prior
restraint placed on an initiative is no different in this
regard, there is no principled reason for treating it
differently under the First Amendment.
For example, discretionary restraints on the placements of news racks, see City of Lakewood v. Plain
Dealer, 486 U.S. 750 (1988), and locations of adult businesses, see Déjà vu of Nashville v. Metropolitan Government of Nashville and Davidson County, 274 F.3d
372 (6th Cir. 2001), regulate how information reaches
the marketplace. Neither prohibits that information
from reaching its audience. Their restrictions are just
as “structural” and “second order” as Ohio’s restraint
on initiatives. In the Panel’s words, they “regulate the
process by which [the information] is put before the
[audience].” Yet both are clearly unconstitutional.
The lone authority cited by the Panel to support
treating popular democracy differently is Justice
Sotomayor’s opinion in John Doe No. 1 v. Reed, 561
U.S. 186, 212 (2010) (Sotomayor, J., concurring), see
Slip op., Doc. 40-2, at Page 8, a case that had nothing
to do with executive discretion and prior restraints.
The majority in Reed, 561 U.S. at 195, moreover,
applied full First Amendment scrutiny to Washington’s
disclosure requirement: “The State, having “cho[sen]
to tap the energy and the legitimizing power of the
democratic process, . . . must accord the participants

73a
in that process the First Amendment rights that attach
to their roles.” (Emphasis added and citation omitted).
It made no exception.
Contrary to the Panel’s conclusion, the Supreme
Court has never deviated from its holding that popular
democracy involves “core political speech.” It has never
shied from affording initiatives the utmost First
Amendment protection. In Meyer v. Grant, 486 U.S.
414, 421-22 (1988), for example, the Court not only
described popular democracy as involving “core political speech,” it added that “the importance of First
Amendment protections is ‘at its zenith’” when citizens
attempt to directly pass legislation. Id. at 424. The
Court emphasized in Meyer, 486 U.S. at 424, that
“[t]he First Amendment protects [the people’s] right
not only to advocate their cause but also to select what
they believe to be the most effective means for doing
so.” That choice includes initiatives.
These sentiments were repeated in Buckley v. American Constitutional Law Foundation, 525 U.S. 182,
186 (1999), where the Court stated that “[p]etition
circulation . . . is ‘core political speech.’” (Citation omitted). In City of Cuyahoga Falls v. Buckeye Community
Hope Foundation, 538 U.S. 188, 196 (2003), the Court
stated that popular initiatives and referenda are “basic
instrument[s] of democratic government.” (Citation
omitted). In sum, the Supreme Court has never treated
popular democracy as “second-order” speech deserving
less First Amendment protection.1
1

As explained by Judge Bush, Sister Circuits have disagreed
over how much First Amendment protection is due initiatives.
Slip op., Doc. No. 40-2, at Page 19 (Bush, J., concurring). This
split of authority is now before the Supreme Court in Port of
Tacoma v. Save Tacoma Water, 422 P.3d 917 (Wash. App. 2018),
review denied, 192 Wash. 2d 1036 (Wash. 2019), cert. pending,

74a
The Panel’s conclusion not only strays from this
controlling precedent, it contradicts rulings handed
down by this Court. In Taxpayers United for Assessment Cuts v. Austin, 994 F.2d 291, 296-97 (6th Cir.
1993), this Court cited Meyer in stating that although
“the right to initiate legislation is a wholly statecreated right,” the First Amendment still demands
that a State only place “nondiscriminatory, contentneutral limitations on the plaintiffs’ ability to initiate
legislation.” (Emphasis added). The Court emphasized
that “the principle stated in Meyer is that a state that
adopts an initiative procedure violates the federal
Constitution if it unduly restricts the First Amendment rights of its citizens who support the initiative.”
Id. at 295. The Court created no “initiative exception”
to the First Amendment’s ordinary rules.
In Committee to Impose Term Limits on the Ohio
Supreme Court and to Preclude Special Legal Status
for Members of and Employees of the Ohio General
Assembly v. Ohio Ballot Board, 885 F. 3d 443, 446 (6th
Cir. 2018), the Court again employed established First
Amendment principles to sustain Ohio’s content-neutral
single-subject restriction on initiatives. The Court
made no mention of modifying First Amendment
jurisprudence or eliminating basic protections because
initiatives were involved.2

No. 18-1518 (U.S. 2019), which is scheduled for consideration at
the Supreme Court’s October 1, 2019 Conference.
2

The Panel’s conclusion is also in tension with established
non-public forum jurisprudence. Even when a state is within its
rights in identifying which topics and subjects are proper for discussion (which is arguably true with initiatives), this Court (and
many others) have recognized that the First Amendment’s prohibition on prior restraints still applies. See, e.g., Miller v. City of
Cincinnati, 622 F.3d 524, 528 (6th Cir. 2010). For this reason, as

75a
Because Ohio’s gatekeeper law cannot pass traditional First Amendment scrutiny – a fact the Panel
apparently conceded – the Panel chose to make an
exception. It relegated initiatives and referenda to
“second-order” status. On the First Amendment’s scale
of importance, oddly enough, direct democracy now
ranks below adult entertainment, see Déjà vu of
Nashville, 274 F.3d 372, pornography, see Freedman,
380 U.S. 51, and defamation. See Near v. Minnesota,
283 U.S. 697 (1931). With all due respect, such a profound result should be supported by more than a
passing reference to a concurring opinion in a dissimilar case. Appellees accordingly request that the Court
rehear this important matter en banc.
II. The Panel’s Conclusion That Ohio’s Gatekeeper Law Cannot Be A Prior Restraint
Contradicts This Court’s Precedents.
This Court has repeatedly recognized that the right
to be free from prior restraints is the most basic First
Amendment protection available. See, e.g., Novak v.
City of Parma, __ F.3d __, 2019 WL 3403893, *7 (6th
Cir., July 29, 2019) (“The First Amendment guarantees ‘greater protection from prior restraints.’”) (citations omitted). Saying that initiatives are protected by
the First Amendment but not protected by its most
basic component is like saying that people, while
protected by Equal Protection, can still be subjected to

the Panel noted, Appellees here did not challenge Ohio’s authority to restrict initiatives to particular subjects. See Slip op., Doc.
No. 40-2, at Page 11 n.3. Appellees did not do so because whether
Ohio could or could not, its delegation of content-based discretion
to executive agents must still satisfy the doctrine against prior
restraints (including both its procedural safeguards and strict
scrutiny).

76a
intentional racial discrimination. Carving away a
right’s most basic protection guts the right.
“A prior restraint” has been broadly defined by this
Court to be “an ‘administrative’ or ‘judicial order[ ]’
that forbids protected speech in advance.” Id. Whether
a prior restraint exists is not overly formalistic, as this
Court made clear in Novak, 2019 WL 3403893, at *8:
“in light of our long history of guarding against prior
restraints on speech, we should not be overly formalistic in defining what counts as an administrative
order.” (Citations omitted).
Licensing the subject and content of initiatives is the
quintessential example of an impermissible prior
restraint. See, e.g., Hyman v. City of Salem, __ F.
Supp.3d __, 2019 WL 2366015 (N.D. W.Va. 2019) (concluding that West Virginia’s delegation of discretion to
local elections officials to exclude initiatives constitutes an impermissible prior restraint). For this reason, few States3 follow Ohio’s prior-executive-discretion
model. In most States, the subject matter of an initiative cannot be challenged – even judicially – prior to
elections. See James D. Gordon, III, et al., Pre-Election
Judicial Review of Initiatives and Referendums, 64
NOTRE DAME L. REV. 298, 304 (1989).
Had the Panel not relegated popular democracy to
second-order status, it could have only reached one
conclusion: Ohio’s gatekeeper law codifies an unconstitutional prior restraint. It conditions the exercise of
core political activity on the prior discretionary
approval of an executive official, a practice that has
3

Only West Virginia, Maine and New York can be identified
as modeling Ohio, and in the first two Courts have invalidated
the prior approval mechanisms under the First Amendment. See
Hyman; Wyman v. Secretary of State, 625 A.2d 307 (Me. 1993).

77a
been condemned again and again by the Supreme
Court. In Shuttlesworth v. City of Birmingham, 394
U.S. 147 (1969), for example, the Supreme Court
struck down a Birmingham ordinance because it “conferred upon the City Commission virtually unbridled
and absolute power to prohibit any ‘parade,’ ‘procession,’ or ‘demonstration’ on the city’s streets or public
ways.” Id. at 150 (footnote omitted).
In Plain Dealer, 486 U.S. at 757, the Court invalidated as an impermissible prior restraint a city’s permitting scheme for news racks placed on public property: “in the area of free expression a licensing statute
placing unbridled discretion in the hands of a government official or agency constitutes a prior restraint
and may result in censorship.” (Citations omitted).
In order for a restraint of this kind to overcome the
First Amendment’s presumption of unconstitutionality, it must at bare minimum build in a system of procedural safeguards. See Freedman, 380 U.S. 51 at 58.
This Court in Déjà vu of Nashville, 274 F.3d at 400,
summarized these procedural safeguards as including
not only prompt executive action, but also prompt judicial review initiated by the censor. Further, as recognized by the Panel, see Slip op., Doc. No. 40-2, at Page
7, the judicial review mandated by Freedman must be
de novo. See Universal Film Exchange, Inc. v. City of
Chicago, 288 F. Supp. 286, 293 (N.D. Ill. 1968) (“Since
Freedman . . ., it has been clear that only a de novo judicial determination . . . can justify a valid final restraint
of a motion picture in advance of exhibition.”).
Ohio’s gatekeeper law fails to include these safeguards. It does not provide de novo judicial review. It
does not maintain the status quo. It does not place the
burden of seeking review on the censor. Simply put,
Ohio’s gatekeeper law cannot pass established consti-

78a
tutional muster. The Panel’s holding contradicts
established law and should be reviewed en banc.
III. Refusing to Apply Strict Scrutiny to ContentBased Decisions Contradicts Supreme
Court and Sixth Circuit Precedent.
The Panel concluded that Ohio’s delegation of
content-based discretion to local elections boards is not
subject to strict scrutiny. It reached this conclusion in
part by mischaracterizing Appellees’ argument. It stated
in a footnote that because Appellees did not challenge
Ohio’s legislative authority to restrict its initiatives to
certain subjects, see Slip op., Doc. No. 40-2, at Page 11
n.3, Appellees somehow did not advance a contentbased challenge. Further, it stated, “the focus of
Plaintiffs’ challenge is the asserted inadequacy of the
review afforded to the boards’ discretionary judgments. This aspect of the ballot-initiative statutes is
plainly content-neutral.” Id.
The Panel’s characterization of Appellees’ argument
is not correct. Appellees did not concede that Ohio’s
gatekeeper mechanism is content-neutral nor “focus”
on the inadequacy of mandamus. Far from either,
Appellees focused on the constitutionality of delegating content-based discretion to executive officials.
Regardless of whether Ohio’s legislature may otherwise restrict the subject matter of proper initiatives
(as with non-public fora it may be able to do so), and
irrespective of whether judicial mandamus applies
equally regardless of content (one assumes so), the
doctrine against prior restraints protects speech from
executive discretion. The executive discretion delegated by Ohio’s gatekeeper law is plainly contentbased. See Reed v. Town of Gilbert, 135 S. Ct. 2218
(2015).

79a
Where executive discretion is content-based, this
Court has made clear that strict scrutiny applies. In
addition to “provid[ing] for prompt judicial review of
all decisions denying the right to speak,” Déjà vu of
Nashville, 274 F.3d at 391, prior restraints must “also
pass[] the appropriate level of scrutiny.” Id. And when
a restraint on speech is based on subject matter or
content, “the law must survive strict scrutiny.” Déjà vu
of Nashville, 274 F.3d at 391.
Appellees’ challenge mirrors that in Wyman v.
Secretary of State, 625 A.2d 307 (Me. 1993), where
Maine had delegated similar discretion to elections
officials to exclude initiatives from ballots. The Court
there ruled that “[b]ecause the petition process is protected by the first amendment and the Secretary has
advanced no compelling interest in executive oversight
of the content of the petition prior to its circulation for
signature, his refusal to furnish the petition form
based on the content of the proposed legislation impermissibly violated Wyman’s rights protected by the first
amendment.” Id. at 312.
Contrary to the Panel’s conclusion, application of
strict scrutiny must also be employed under the
Anderson/Burdick framework. This Court in Citizens
for Legislative Choice v. Miller, 144 F.3d 916, 921 (6th
Cir. 1998), observed that under the Anderson/Burdick
framework, “[f]irst, and most importantly, a law
severely burdens voting rights if it discriminates based
on content instead of neutral factors.” (Citation omitted). This severe burden must be subjected to “the
compelling interest standard.” Id. (citation omitted).
Because Ohio’s executive censors use content to
decide which initiatives to allow, their decisions necessarily impose severe burdens on speech. This kind of
severe burden must be measured by strict scrutiny, a

80a
standard Ohio’s gatekeeper approach plainly cannot
satisfy. The Panel apparently recognized as much,
conceding that “the State’s chosen method for screening ballot initiatives may not be the least restrictive
means available.” Slip op., Doc. No. 40-2, at Page 12.
IV. The Panel’s Rejection of the Ohio Supreme
Court’s Interpretation of its Own Jurisdiction Constitutes Clear Error.
The Panel concluded that the Ohio Supreme Court’s
description of its own mandamus authority is incorrect.4 Mandamus is not really discretionary, as repeatedly explained by the Ohio Supreme Court, it is mandatory and de novo. See Slip op., Doc. No. 40-2, at 1011. And because its review is mandatory and de novo,
the Ohio Supreme Court exercises sufficient review for
purposes of the First Amendment.
The Panel stepped far outside its assigned role in recreating Ohio law. Ohio’s Supreme Court might someday say that its mandamus review is de novo, but it
has never once done so. It has repeatedly emphasized
the deferential nature of its mandamus review. A
federal court’s “task is to rule on what the law is, not
what it might eventually be.” Garcia v. Texas, 564 U.S.
940, 941 (2011).
In addition to guiding appellate courts, moreover,
announced review standards are important signals to
potential litigants, like censors and their censored.
Thus, even if mandamus review were to prove effectively de novo in practice, its de jure announcement
4

Appellees understand that ordinarily mistakes about local
law should be reheard by the original panel. See 6th Cir. I.O.P.
35(a). The Panel’s misreading of Ohio’s mandamus law, however,
is so entwined with its improper construction of the First Amendment that it should be considered en banc.

81a
would still have a significant impact on speech. Being
told they have discretion, boards are incentivized (as
the Portage County Board was here) to censor. Being
told the decision is discretionary, the subject of censorship is deterred from challenging the decision.
The Panel recognized this fact, though it underestimated its magnitude by half: “It is reasonable to conclude that the cost of obtaining legal counsel and
seeking a writ of mandamus disincentivizes some ballot proponents from seeking to overturn the board’s
decision, thereby limiting ballot access.” Slip op., Doc.
No. 40-2, at Page 11. The Panel omitted that the discretion granted to elections officials also encouraged
them to act. Regardless of whether Ohio’s mandamus
system is practically de novo, then, it chills speech. This
is precisely what the prohibition on prior restraints is
designed to prevent. See Freedman, 380 U.S. at 60
(“the chilling effect of a censorship order, even one
which requires judicial action for its enforcement,
suggests all the more reason for expeditious determination of the question whether a particular film is
constitutionally protected”).
V. This Court and the Supreme Court Have
Ruled that Common Law Writs Are Not
Adequate Procedural Safeguards.
This Court has concluded that review through
discretionary common law writs is insufficient to
satisfy First Amendment scrutiny. In Déjà vu of
Nashville, 274 F.3d at 400-01, the Court concluded that
Tennessee’s common-law review process did not satisfy
Freedman’s requirements: “Whether the common law
writ of certiorari will issue is a matter of discretion. It
is not issued as a matter of right.” (Citation omitted).

82a
Similarly, the Supreme Court in Plain Dealer, 486
U.S. at 771, ruled that Ohio’s writ of mandamus was
not sufficient to save a delegation of discretionary
power to local officials to pick and choose between
news racks: “that review . . . cannot substitute for
concrete standards to guide the decision-maker’s discretion.” For this same reason, Ohio’s mandamus
mechanism cannot save its delegation of discretionary
authority to local elections officials. Because the Panel’s
conclusion not only re-writes Ohio’s view of mandamus, but also contradicts this precedent, Appellees
respectfully request that the Court rehear the case
en banc.
CONCLUSION
Appellees’ respectfully request that this petition be
GRANTED.
Respectfully submitted,
s/ Mark R. Brown _______
Mark G. Kafantaris
625 City Park Street
Columbus, OH 43206
(614) 223-1444
(614) 300-5123
mark@kafantaris.com
Attorneys for Appellees

Mark R. Brown
303 East Broad Street
Columbus, OH 43215
(614) 236-6590
(614) 236-6956 (fax)
mbrown@law.capital.edu

83a
CERTIFICATE OF WORD-COUNT
AND TYPE-SIZE
Appellees certify that they have prepared this
document in 14-point Times New Roman proportional
font and that excluding the Cover, Signature Block,
and Certificates the document contains 3894 words.
s/ Mark R. Brown __
Mark R. Brown
CERTIFICATE OF SERVICE
I certify that this Petition was filed on August 13,
2019 using the Court’s electronic filing system and will
thereby be served on all parties to this proceeding.
s/ Mark R. Brown __
Mark R. Brown

84a
APPENDIX F
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: 05/22/2019]
————
No. 19-3196
————
WILLIAM T. SCHMITT, CHAD THOMPSON, DEBBIE BLEWITT,
Plaintiffs-Appellees,
v.
FRANK LAROSE, OHIO SECRETARY OF STATE,
Defendant-Appellant.
————
On Appeal from the United States District Court
for the Southern District of Ohio
————
BRIEF FOR APPELLEES, WILLIAM T. SCHMITT,
CHAD THOMPSON, DEBBIE BLEWITT
————
Mark R. Brown
303 E. Broad Street
Columbus, OH 43215
(614) 236-6590
(614) 236-6956 (fax)
mbrown@law.capital.edu
Attorneys for Appellees

Mark G. Kafantaris
625 City Park Avenue
Columbus, OH 43206
(614) 223-1444
(614) 300-5123 (fax)
mark@kafantaris.com

85a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Disclosure of Corporate Affiliations
and Financial Interest
Sixth Circuit
Case Number: 19-3196
Case Name: Schmitt v. LaRose
Name of counsel: Mark R. Brown
Pursuant to 6th Cir. R. 26.1, William Schmitt, Chad
Thompson, Debbie Blewitt
Name of Party
makes the following disclosure:
1.

Is said party a subsidiary or affiliate of a publicly
owned corporation? If Yes, list below the identity
of the parent corporation or affiliate and the
relationship between it and the named party:
No.

2.

Is there a publicly owned corporation, not a party
to the appeal, that has a financial interest in the
outcome? If yes, list the identity of such
corporation and the nature of the financial
interest:
No.

86a
CERTIFICATE OF SERVICE
I certify that on April 19, 2019 the foregoing document was served on all parties or their counsel of
record through the CM/ECF system if they are registered users or, if they are not, by placing a true and
correct copy in the United States mail, postage
prepaid, to their address of record.
s/ Mark R. Brown
303 E. Broad Street
Columbus, OH 43215
This statement is filed twice: when the appeal
is initially opened and later, in the principal briefs,
immediately preceding the table of contents.
See 6th Cir. R. 26.1 on page 2 of this form.

87a
TABLE OF CONTENTS
Table of Authorities .................................................... iii
Statement in Support of Oral Argument ................. viii
Statement of the Issue ................................................ 1
Statement of the Case ................................................. 1
A. Ohio’s Gatekeeper Law – O.R.C.
§ 3501.11(K)............................................................ 3
B. Additions to Discretion – House Bill 463. ............. 8
C. The Proceedings Below. ....................................... 15
Summary of Argument .............................................. 20
Argument ................................................................... 22
I. The First Amendment Protects Initiatives
and Applies to the Initiative Process. ................. 25
II. Ohio’s Delegation of Discretion to Elections
Boards Fails First Amendment Scrutiny
Because it Constitutes An Impermissible
Prior Restraint. ................................................... 27
A. Ohio’s Gatekeeper Law Vests Discretion
Over Subject Matter and Content in Local
Elections Officials. ............................................... 30
B. Ohio Courts Do Not Review Executive
Gatekeeping Decisions De Novo. ......................... 35
C. Ohio’s Gatekeeper Law Does Not Maintain
the Status Quo While Judicial Review is
Being Sought. ....................................................... 40
D. Ohio’s Gatekeeper Mechanism Does Not
Place the Burden on Local Elections Officials
to Seek Judicial Review. ...................................... 41

88a
E. Content-Neutral Time, Place and Manner
Restrictions Can Also Constitute Improper
Prior Restraints. ................................................... 41
F. Ohio’s Gatekeeper Law Is An Impermissible
Prior Restraint Even if Initiatives Are
Treated as a Non-Public Forum. ......................... 43
III. Ohio’s Gatekeeper Mechanism Cannot
Pass Strict First Amendment Scrutiny. ........... 44
IV. Invalidation of Ohio’s Gatekeeper Law Is
Not Confusing. ................................................... 52
V.

Section 1983 Plaintiffs Can Not Be
Compelled to Use the Procedures They
Challenge Under the First Amendment. .......... 54

Conclusion ................................................................. 54
Certificate of Word-Count and Type-size ................. 55
Certificate of Service ................................................. 55
Addendum: Designation of Relevant District
Court Documents ....................................................... 56

89a
TABLE OF AUTHORITIES
Cases

Page

A Quantity of Books v. Kansas, 378 U.S. 205
(1964) ...................................................................... 28
Amandola v. Town of Babylon, 251 F.3d 339 (2d
Cir. 2001) ................................................................ 44
Aye v. Mahoning County Board of Elections, 2008
WL 554700 (N.D. Ohio 2008)................................. 49
Bantum Books v. Sullivan, 372 U.S. 58 (1961) ........ 28
Barrett v. Walker County School District, 872
F.3d 1209 (11th Cir. 2017) ..................................... 44
Board of Regents v. Roth, 408 U.S. 564 (1972) ......... 29
Bose v. Consumers Union, Inc., 466 U.S. 485
(1984) ...................................................................... 36
Buckley v. American Constitutional Law
Foundation, 525 U.S. 182 (1999) ..................... 20, 25
Carroll v. President and Commissioners of
Princess Anne, 393 U.S. 175 (1969) ....................... 28
Citizens for Legislative Choice v. Miller, 144
F.3d 916 (6th Cir. 1998) ................................... 21, 24
City of Cincinnati v. Hillenbrand, 133 N.E. 556
(Ohio 1921) ............................................................. 38
City of Cuyahoga Falls v. Buckeye Community
Hope Foundation, 538 U.S. 188 (2003) 20, 23, 25, 27
City of Lakewood v. Plain Dealer, 486 U.S. 750
(1988) .............................................. 31, 38, 41, 42, 43

90a
Committee to Impose Term Limits on the Ohio
Supreme Court and to Preclude Special Legal
Status for Members of and Employees of the
Ohio General Assembly v. Ohio Ballot Board,
885 F. 3d 443 (6th Cir. 2018) ........................... 25, 32
Déjà vu of Nashville v. Metropolitan Government
of Nashville and Davidson County, 274 F.3d
372 (6th Cir. 2001) ..........................................passim
Federal Communications Commission v. Fox
Television Stations, 567 U.S. 239 (2012)............... 29
Forsyth County v. Nationalist Movement, 505
U.S. 123 (1990) ....................................................... 31
Freedman v. Maryland, 380 U.S. 51 (1965) ......passim
Garcetti v. Ceballos, 547 U.S. 410 (2006) ................. 26
Garcia v. Texas, 564 U.S. 940 (2011) ........................ 39
Herrington v. Cuevas, 1997 WL 703392
(S.D.N.Y. 1997) ...................................................... 48
Hyman v. City of Salem, No. 19-75 (N.D. W.Va.,
April 19, 2019) ........................................................ 48
Initiative & Referendum Institute v. Walker, 450
F.3d 1082 (10th Cir. 2006) ..................................... 49
Jones v. Markiewicz-Qualkinbush, 892 F.3d 935
(7th Cir. 2018) ........................................................ 49
Kunz v. New York, 340 U.S. 290 (1951) .................... 33
Las Vegas Taxpayer Accountability Committee
v. City Council of City of Las Vegas, 125 Nev.
165, 208 P.3d 429(2009) ......................................... 46
Libertarian Party of Ohio v. Husted, 831 F.3d
382 (6th Cir. 2016) ................................................. 27

91a
Marijuana Policy Project v. United States, 304
F.3d 82 (D.C. Cir. 2002) ................................... 49, 50
Mazzone v. Attorney General, 432 Mass. 515,
736 N.E.2d 358 (2000) ........................................... 52
Meyer v. Grant, 486 U.S. 414 (1988) ................... 20, 25
Miller v. City of Cincinnati, 622 F.3d 524 (6th
Cir. 2010) .......................................................... 34, 43
Minnesota Voters Alliance v. Mansky, 138 S. Ct.
1876 (2018) ..................................... 27, 33, 34, 52, 53
Myers v. Schiering, 271 N.E.2d 864 (Ohio 1971) ...... 38
New
York
Magazine
v.
Metropolitan
Transportation Authority, 136 F.3d 123 (2d
Cir. 1998) ................................................................ 43
Nwanguma v. Trump, 903 F.3d 604 (6th Cir.
2018) ....................................................................... 26
Nevada Commission on Ethics v. Carrigan, 564
U.S. 117 (2011) ................................................. 26, 27
Ohio Citizen Action v. City of Englewood, 671
F.3d 564 (6th Cir. 2012) ......................................... 42
Ohio Council 8 American Federation of State,
County and Municipal Employees v. Husted,
814 F.3d 329 (6th Cir. 2016) .................................. 27
Palko v. Connecticut, 302 U.S. 319 (1937) ................ 24
Patsy v. Board of Regents, 457 U.S. 496 (1982) ........ 54
Port of Tacoma v. Save Tacoma Water, 422 P.3d
917 (Wash. App. 2018) ..................................... 50, 51
Rebel Motor Freight v. Interstate Commerce
Commission, 971 F.2d 1288 (6th Cir. 1992).......... 24
Reed v. Town of Gilbert, 135 S. Ct. 2218
(2015) .......................................................... 34, 35, 52

92a
Rosen v. Brown, 970 F.2d 169 (6th Cir. 1992) .......... 16
Scottsdale Ins. Co. v. Flowers, 514 F.3d 546 (6th
Cir. 2008) ................................................................ 38
Shuttlesworth v. City of Birmingham, 394 U.S.
147 (1969) ............................................. 30, 31, 53, 54
Six Star Holdings v. City of Milwaukee, 821
F.3d 795 (7th Cir. 2016) ......................................... 42
Speiser v. Randall, 357 U.S. 513 (1958) ................... 28
State ex rel. Bolzenius v. Preisse, 155 Ohio St. 3d
45, 119 N.E.3d 358 (2018)............................ 8, 11, 12
State ex rel. Espen v. Wood County Board of
Elections, 154 Ohio St.3d 1, 110 N.E.3d 1222
(2017) .................................................................. 9, 10
State ex rel. Flak v. Betras, 152 Ohio St.3d 244,
95 N.E.3d 329 (2016) ............................... 5, 6, 11, 35
State ex rel. Home v. Adams, 154 W.Va. 269, 175
S.E.2d 193 (1970) ................................................... 48
State ex rel. Khumprakob v. Mahoning Board of
Elections, 153 Ohio St.3d 581, 109 N.E.3d
1184 (2018) ..................................... 10, 11, 12, 13, 14
State ex rel. Maxcy v. Saferin, ___ N.E.3d ___,
2018 WL 4846266 (Ohio 2018) ............ 14, 22, 23, 52
State ex rel. Ray v. Skaff, 190 W.Va. 504, 438
S.E.2d 847 (1993) ................................................... 48
State ex rel. Sensible Norwood v. Hamilton
County Board of Elections, 148 Ohio St.3d
176, 69 N.E.3d 696 (2016).................... 3, 6, 7, 37, 40
State ex rel. Sensible Norwood v. Hamilton
County Board of Elections, 2016-Ohio-5919 ........... 2

93a
State ex rel. Walker v. Husted, 144 Ohio St.3d
361, 43 N.E.3d 419 (2015).......................... 3, 4, 5, 32
State ex rel. Youngstown v. Mahoning County
Board of Elections, 144 Ohio St.3d 239, 41
N.E.3d 1229 (2015) .................................................. 6
Thomas v. Chicago Park District, 534 U.S. 316
(2002) ................................................................ 32, 42
Taxpayers United for Assessment Cuts v.
Austin, 994 F.2d 291 (6th Cir. 1993) ............... 20, 24
Universal Film Exchange, Inc. v. City of
Chicago, 288 F. Supp. 286 (N.D. Ill.
1968) ....................................................................... 36
Waste Management of Ohio v. City of Dayton,
169 Fed. Appx. 976 (6th Cir. 2006) ....................... 24
Wirzburger v. Galvin, 412 F.3d 271 (1st Cir.
2005) ....................................................................... 51
Wyman v. Secretary of State, 625 A.2d 307 (Me.
1993) ........................................................... 44, 45, 47
Federal Statutes
42 U.S.C. § 1983 .................................................. 16, 54
State Statutes
H.B. 463 ................................................ 8, 9, 10, 13, 14
O.R.C. § 3501.05 ........................................................ 16
O.R.C. § 3501.11(K) ............................................passim
O.R.C. § 3501.11(K)(1) ..................................... 8, 11, 13
O.R.C. § 3501.11(K)(2) ........................................... 8, 11
O.R.C. § 3501.38(M) .................................................... 8

94a
O.R.C. § 3501.38(M)(1)(a) ............................................ 9
O.R.C. § 3501.39(A) ..................................................... 9
Miscellaneous
James D. Gordon, III, et al., Pre-Election
Judicial Review of Initiatives and Referendums,
64 NOTRE DAME L. REV. 298 (1989)........................... 47
Matt Harvey, Fed. judge: Salem, WV, officials
must put marijuana measure on June 4 ballot,
WVNEWS, April 19, 2019 ........................................... 48
56 OHIO JUR.3d, Initiative and Referendum § 12
(2019) ......................................................................... 52
Scott L. Kafker & David A. Rusccol, The Eye of
the Storm: Pre-election Review By The State
Judiciary of Initiative Amendments to State
Constitutions, 2012 MICH. ST. L. REV. 1279........ 46, 47
Henry P. Monaghan, First Amendment “Due
Process,” 83 HARV. L. REV. 518 (1970) ...................... 36
Note, Allan Tanambaum, “New and Improved”:
Procedural Safeguards for Distinguishing
Commercial From Non-Commercial Speech, 88
COLUM. L. REV. 1821 (1988)....................................... 36
Portage County General Election, Nov. 6, 2018,
Summary Report ....................................................... 17

95a
STATEMENT IN SUPPORT OF
ORAL ARGUMENT
This case was orally argued twice to the District
Court, and the oral arguments appeared to be helpful
to the District Court’s understanding of Ohio’s gatekeeper law. For that same reason, Appellees believe
that oral argument may be useful in this Court. Appellees accordingly respectfully request oral argument.
STATEMENT OF THE ISSUE
Whether Ohio’s gatekeeper law in O.R.C. § 3501.11(K),
which delegates executive discretion to elections officials to determine whether the content and subject
matter of initiatives is lawful, and which affords judicial review only by extraordinary writ of mandamus
for fraud, abuse of discretion or clear error, violates
the First and Fourteenth Amendments.
STATEMENT OF THE CASE
Plaintiffs/Appellees Schmitt and Thompson (hereinafter collectively “Schmitt”)1 are the drafters and
circulators of two initiatives proposed for ballots in the
Villages of Garrettsville and Windham, Ohio. See Verified
Complaint, R.1, at PAGEID # 6-7; Exhibit 1, R.1-1;
Exhibit 2, R.1-2. Both initiatives included identical
proposed ordinances calling for the “decriminalization”
of marijuana possession.2 Both initiatives were found
to have satisfied all the procedures required by Ohio
law. Id. at PAGEID # 7. They were supported by a sufficient number of signatures, were timely, addressed
1

Plaintiff/Appellee Blewitt is a registered voter living in
Windham who signed Schmitt’s and Thompson’s initiative. She is
included without further mention in the collective reference to
“Appellees” and “Schmitt.”
2
This was accomplished in the initiatives by removing any
penalties for marijuana possession.

96a
single subjects, used the correct forms, and were
certified by the two Villages. Id.
Schmitt previously circulated several of these initiatives, in identical form, throughout Ohio. Identical copies
of the proposed Garrettsville and Windham ordinances
had been successfully approved for inclusion on ballots
in Oregon, Fremont and Norwood, Ohio. See Verified
Complaint, R.1, at PAGEID # 8; Exhibit 5, R.1-5;
Exhibit 6, R.1-6; Exhibit 7, R.1-7.
Notwithstanding that Schmitt’s Garrettsville and
Windham initiatives were certified by the Villages to
contain the requisite number of voters’ signatures
and otherwise to have met the technical requirements
for inclusion on the Villages’ respective ballots, the
Portage County Board of Elections on August 20, 2018
ruled that the subject-matter of the two initiatives was
unlawful. It accordingly removed them from the two
Villages’ ballots. The Portage County Board of Elections
on August 21, 2018 explained to Schmitt that:
In State ex rel. Sensible Norwood v. Hamilton
County Board of Elections, 2016-Ohio-5919, the
Oho [sic] Supreme Court said administrative actions
are not subject to initiative. Reviewing the language in the proposals presented by the Village of
Garrettsville and the Village of Windham, the $0
fine and no license consequences are administrative
in nature. The $0 court costs is administrative
in nature and is an impingement on the judicial
function by a legislature. Accordingly, as the
Garrettsville Village and Windham Village petitions deal with subject matter that is not subject
to the initiative process, the Board of Elections, in
its discretion, has chosen not to certify these
issues to the ballot.
Verified Complaint, Exhibit 4, R.1-4 (emphasis added).

97a
In rejecting Schmitt’s initiatives, the Board relied on
the “discretion” delegated to it by Ohio’s so-called
“gatekeeper” law. See State ex rel. Sensible Norwood v.
Hamilton County Board of Elections, 148 Ohio St.3d
176, 69 N.E.3d 696 (2016). This law, codified in O.R.C.
§ 3501.11(K), authorizes local elections officials to
exercise discretion in choosing which initiative “subject
matters” to include on ballots and which to exclude. As
explained below, Ohio’s gatekeeper mechanism has
been construed by the Ohio Supreme Court to vest
subject-matter discretion in local elections officials,
see, e.g., State ex rel. Walker v. Husted, 144 Ohio St.3d
361, 43 N.E.3d 419, 423 (2015), with only limited,
deferential mandamus review in Ohio’s courts. Id.
A. Ohio’s Gatekeeper Law – O.R.C. § 3501.11(K).
Section 3501.11(K) of the Ohio Revised Code, both
before and after legislative additions in 2017, see
page 8, infra, provides that local elections boards possess authority to “[r]eview, examine, and certify the
sufficiency and validity of petitions and nomination
papers . . . .” It has been interpreted by the Ohio
Supreme Court to afford local elections boards discretion to decide which topics for initiatives are lawful
and those which are not. In sum, “administrative”
matters may be excluded at the discretion of elections
officials, as might subjects that elections officials decide
otherwise fall outside local authority. What is administrative and what falls outside local authority, as
explained by Ohio’s Supreme Court, present “difficult”
legal questions.
Elections officials’ authority to consider constitutional questions, meanwhile, is murkier still. According
to the Ohio Supreme Court, election boards have
authority to decide whether initiatives fall under a
municipality’s constitutional authority, but they cannot

98a
decide whether initiatives are constitutional. Because
review is limited, moreover, executive decisions have
generated a large measure of indeterminacy. Not only
are the required distinctions “difficult” to make, according to the Ohio Supreme Court, they can according to
one Justice (Fischer) be “unnecessarily confusing” and
“without meaning.” Justice Fischer has offered that all
in all, § 3501.11(K) “defie[s] workability.”
* * *
Section 3501.11(K) was explained in State ex rel.
Walker v. Husted, 144 Ohio St.3d 361, 43 N.E.3d
419, 423 (2015), to empower local elections officials to
“serve as gatekeepers, to ensure that only those measures
that actually constitute initiatives or referenda are
placed on the ballot.” (Emphasis added). “It necessarily follows,” the Ohio Supreme Court added, “that
the boards have discretion to determine which actions
are administrative and which are legal.” Id. (emphasis
added). “Administrative” subjects are not proper
subjects of initiatives. Id. “Legal” topics are. Id.
The Ohio Supreme Court in Walker further observed
that O.R.C. § 3501.11(K) “vests the board of elections
with authority to go beyond the face of the petition in
determining validity, and that ‘[t]he substantive limitation is only that the board of elections has no power
to determine that an issue should not be placed on the
ballot because if passed it would be unconstitutional
or otherwise illegal.’” 144 Ohio St.3d at 364, 43 N.E.3d
at 424. Thus, local election boards are entitled “to
determine whether a ballot measure falls within the
scope of the constitutional power of referendum (or
initiative),” id., but are still not permitted “to sit as
arbiters of the legality or constitutionality of a ballot
measure’s substantive terms.” Id.

99a
Walker made much of the fact that the Ohio Supreme
Court’s authority to review the decisions of elections
officials is based in mandamus: “[c]hallenges to his
decisions would then come before this court in mandamus, and the question would be whether the secretary
abused his discretion.” Id. at 365, 43 N.E.2d at 424.
“As is well-established, abuse of discretion means
more than an error of law or of judgment.” Id. “In close
cases, therefore, we might very well be compelled to
find that the secretary reasonably disqualified a ballot
measure, in the exercise of his discretion, even if we,
in the exercise of our constitutional duties, would
deem the measure unconstitutional.” Id.
Subsequent cases have reinforced the Ohio Supreme
Court’s limited review of elections boards’ decisions, as
well as the confusion surrounding exactly what kinds
of decisions local elections officials can make. Indeed,
by its own admission the Ohio Supreme Court has not
achieved much success. In State ex rel. Flak v. Betras,
152 Ohio St.3d 244, 247, 95 N.E.3d 329, 332 (2016),
which ruled that a local board possessed discretion to
reject an initiative creating a private cause of action
(which according to the board exceeded local power),
the Court conceded the “difficult” nature of the task:
Our jurisprudence has distinguished between an
elections board’s determining that a proposed initiative may be unconstitutional and an elections
board’s determining that a proposed initiative
falls outside the scope of the permissible subject
matter of a municipal initiative. . . . It is fair to say
that it is sometimes difficult to distinguish between
a provision that a municipality is not authorized
to adopt by legislative action (something an elections
board may determine per Sensible Norwood) and
one that is simply unconstitutional (something an

100a
elections board may not determine, per Youngstown).
But that is the line our case law has drawn.
Id. at 247, 95 N.E.3d at 332.3
State ex rel. Sensible Norwood v. Hamilton County
Board of Elections, 148 Ohio St.3d 176, 69 N.E.3d 696
(2016), which was relied upon by the Portage County
Board of Elections in the present matter, involved an
initiative that sought to include a marijuana decriminalization ordinance on a local ballot. Its language,
like the initiatives at issue here, included a provision
reducing local penalties for not only misdemeanor
marijuana possession laws, but also felonies. The local
elections board refused to place the initiative on the
ballot because it believed the initiative exceeded local
authority by defining felonies. Id. at 177, 69 N.E.3d
at 697. The board also concluded that the initiative
impermissibly “imposed administrative restrictions on
the enforcement of existing laws” by limiting the
powers of police officers, prohibiting forfeiture, and
restricting drivers’ license revocation. Id. at 179-80, 69
N.E.3d at 700.
Per Ohio’s accepted process, the sponsors of the
initiative sought a writ of mandamus in the Ohio
Supreme Court directing the elections officials to place
the initiative on the ballot. The Ohio Supreme Court
refused; it sustained the local elections board’s discre3

The Ohio Supreme Court in State ex rel. Youngstown v.
Mahoning County Board of Elections, 144 Ohio St.3d 239, 241, 41
N.E.3d 1229, 1232 (2015), ruled that a local elections boards
cannot “determine whether a ballot measure falls within the
scope of the constitutional power of referendum or initiative.” An
elections board may conclude that an initiative is “administrative”
and reject it, or may determine that it exceeds local power and
reject it, but it may not reject an initiative because it exceeds local
authority by violating Ohio’s constitutional home-rule amendment.

101a
tion on both points, emphasizing its limited power of
review under mandamus:
To be eligible for a writ of mandamus, relators
must “establish a clear legal right to the requested
relief, a clear legal duty on the part of the board
and its members to provide it, and the lack of an
adequate remedy in the ordinary course of the
law.” Relators have failed to establish a clear legal
right to their requested relief and a clear legal
duty on the part of the board to provide it. As we
have previously acknowledged, “[e]lection officials
serve as gatekeepers, to ensure that only those
measures that actually constitute initiatives or
referenda are placed on the ballot.
Id. at 180, 69 N.E.3d at 700-01.
In sum, by 2017 O.R.C. § 3501.11(K) had been
authoritatively interpreted by the Ohio Supreme Court
to christen local elections officials as executive gatekeepers of Ohio’s initiative process. These executive
officials possess discretion to block initiatives from
ballots based on the elections officials’ beliefs that
initiatives address “administrative” matters or exceed
local power. They are not to exclude initiatives that
address only “legal” matters or exceed local power
only because of Ohio’s constitution. See State ex rel.
Bolzenius v. Preisse, 155 Ohio St. 3d 45, 47-48, 119
N.E.3d 358, 361-62 (2018). Elections officials’ decisions, meanwhile, are reviewed only at the insistence
of the aggrieved speaker in a mandamus action, which
requires proof that the decision was clearly wrong or
an abuse of discretion.
B. Additions to Discretion – House Bill 463.
On April 6, 2017, H.B. 463 took effect in Ohio. While
keeping the language in O.R.C. § 3501.11(K) (quoted

102a
above), it added new language, codified as O.R.C.
§ 3501.11(K)(2). This language states that local elections boards shall:
4

[e]xamine each initiative petition, . . . received by
the board to determine whether the petition falls
within the scope of authority to enact via initiative
and whether the petition satisfies the statutory
prerequisites to place the issue on the ballot, as
described in division (M) of section 3501.38 of the
Revised Code. The petition shall be invalid if any
portion of the petition is not within the initiative
power.
Id. House Bill 463 also added O.R.C. § 3501.38(M)(1)(a),
which requires that a board of elections examine an
initiative petition to determine
[w]hether the petition falls within the scope of a
municipal political subdivision’s authority to
enact via initiative, including, if applicable, the
limitations placed by . . . the Ohio Constitution on
the authority of municipal corporations to adopt
local police, sanitary, and other similar regulations as are not in conflict with general laws, . . . .
The petition shall be invalid if any portion of the
petition is not within the initiative power.
Finally, H.B. 463 amended O.R.C. § 3501.39(A)(3) to
provide that local elections boards should reject an
initiative petition that “falls outside the scope of
authority to enact via initiative . . . .”
House Bill 463 not only reaffirmed local elections
boards’ roles as gatekeepers in deciding whether
the subjects of initiatives are proper under O.R.C.
4

That exact same language is now located in O.R.C.
§ 3501.11(K)(1).

103a
§ 3501.11(K), it added to their executive discretion.
They are now afforded discretion to decide whether a
subject (1) generally falls “within the initiative power,”
(2) exceeds a local political body’s constitutional homerule powers, or (3) otherwise conflicts with general
laws. Although O.R.C. § 3501.11(K) had achieved
much the same thing before H.B. 463 was passed,
these changes arguably augmented executive control
of the initiative process.
Whether H.B. 463’s enlargement of executive discretion at the expense of Ohio’s courts is valid under
Ohio’s Constitution’s separation-of-powers provision
has not been decided. This state-law matter was
avoided in State ex rel. Espen v. Wood County Board of
Elections, 154 Ohio St.3d 1, 110 N.E.3d 1222 (2017),
where a local election board certified to Bowling Green’s
election ballot an initiative titled “Community Rights
to a Healthy Environment and Livable Climate.” The
board’s decision was protested under H.B. 463 on the
ground that “it exceeded the municipal powers of selfgovernment set forth in the Ohio Constitution.” 154
Ohio St.3d 1, 110 N.E.3d at 1224.
A plurality of three Justices in a per curiam opinion
in Espen concluded that the local board did not abuse
its discretion in rejecting the protest. 154 Ohio St.3d
1, 110 N.E.3d at 1225. That same plurality added that
“the statutory amendments made by [H.B. 463] do
not change this result.” 154 Ohio St.3d 1, 110 N.E.3d
at 1226. They explained that “[t]his attempt by the
General Assembly to grant review power to the election
boards violates the [Ohio] Constitution because ‘the
administration of justice by the judicial branch of the
government cannot be impeded by the other branches
of the government in the exercise of their respective
powers.” Id. Authorizing elections boards to entertain

104a
constitutional issues, according to this plurality, is
problematic.
Because the fourth vote (that of Justice O’Donnell)
supporting the Court’s result in Espen did not join the
per curiam opinion, whether H.B. 463 enlarged local
elections officials’ gatekeeper duties, and whether it
could under Ohio’s Constitution, were not answered.
See State ex rel. Khumprakob v. Mahoning Board of
Elections, 153 Ohio St.3d 581, 585, 109 N.E.3d 1184,
1187 (2018) (Fischer, J., concurring) (“Espen does not
resolve this case because the lead opinion in that case,
joined by only three justices, did not articulate a
holding of this court.”).
With or without H.B. 463’s grant of added power and
discretion, it remains clear under Ohio law that local
election boards at bare minimum possess the gatekeeper authority that existed before 2017. The Ohio
Supreme Court made this clear in State ex rel. Bolzenius
v. Preisse, 155 Ohio St. 3d 45, 119 N.E.3d 358 (2018),
where local elections officials had rejected an initiative
based on its subject. The Ohio Supreme Court ruled
the board acted properly, at least it had not abused its
discretion. In the course of doing so, it explained that
its previous interpretation of O.R.C. § 3501.11(K)
remained the law in Ohio:
In Sensible Norwood, we concluded that under
former R.C. 3501.11(K), an elections board was
authorized to exclude an initiative petition from
the ballot if the initiative petition sought to enact
municipal legislation that would be beyond a municipality’s legislative power. H.B. 463, effective
April 6, 2017, introduced new provisions related
to the authority and duty of elections boards to
review the substantive terms of proposed ballot
measures. For example, the act added R.C.

105a
3501.11(K)(2), which requires elections boards to
examine an initiative petition “to determine whether
the petition falls within the scope of authority to
enact via initiative.” . . . Importantly, H.B. 463
retained the language of former R.C. 3501.11(K),
recodifying it as R.C. 3501.11(K)(1).
In State ex rel. Flak v. Betras, we held that R.C.
3501.11(K)(1) authorizes elections boards ‘to determine whether a ballot measure falls within the
scope of the constitutional power of referendum or
initiative.’ Thus, without relying on the changes
introduced by H.B. 463, we again held that an
elections board has the authority to determine
whether a municipal initiative falls within the
municipality’s legislative power. Guided by Flak,
we apply our pre-H.B. 463 case law in this case.
Accordingly, we must determine whether the board
members abused their discretion in determining
that the proposed ordinance exceeds Columbus’s
legislative power.
Id. at 47-48, 119 N.E.3d at 361-62 (citations omitted).
While it is clear under Ohio law that local elections
officials retain discretion to choose which initiative
subjects are “administrative” and which are “legal,”
and to decide which topics constitutionally fall beyond
local power and which do not, it remains unclear in
Ohio how local elections officials are to draw these fine
distinctions. This is illustrated by the current case,
where several local elections boards concluded that
Schmitt’s initiative’s subject was “legal,” see Verified
Complaint, R.1, at PAGEID # 8, while Portage County
concluded the exact same initiative was “administrative.” Id.

106a
This indeterminacy led Justice Fischer in Khumprakob,
153 Ohio St.3d at 584, 109 N.E.3d at 1187, to write a
lengthy concurring plea for changes in the system.5 He
complained that local elections boards are called upon
to make decisions that even courts cannot make. They
are delegated discretionary authority to “make a
substantive, pre-enactment legal determination that a
proposed measure exceeds a municipality’s legislative
power.” Id. The Court’s deferential standard of review,
Justice Fischer pointed out, complicated this result by
“relinquishing some authority in favor of boards of
elections and facilitating inconsistent results among
various boards of elections.” Id.
In the end, Justice Fischer concluded that Ohio’s
approach was “unnecessarily confusing,” “without meaning,” and “defied workability.” He pleaded for a “more
constrained scope of review”:
Questions on both sides of the distinction can
present home-rule issues, but there is no clear
reason why elections boards have been allowed to
decide questions on one side but not questions on
the other. . . . Indeed, it is puzzling why an
elections board might have authority to make
legal determinations about state-law preemption
(even though we have rejected the concept) but
lacks authority to determine a home-rule-conflict

5

In Khumprakob, a local election board had refused to certify
an initiative because it exceeded the city’s legislative power. The
Court disagreed, stating that “although the proposed amendment
would not necessarily be constitutional or legally enforceable
if enacted, the board abused its discretion in finding that the
measure exceeds Youngstown’s legislative power.” Justice Fischer
concurred with this result, but explained he did not join the
opinion because he felt the approach was unworkable.

107a
question (even if we have decided a case directly
on point).
Our existing case law on R.C. 3501.11(K)(1) has
shown itself to be unworkable in one other
way: . . . it does not lead to consistent results
among various county boards of elections. By leaving behind the interpretation of R.C. 3501.11(K)(1)
articulated in Youngstown, Sensible Norwood, and
Flak, this court not only would maintain the separation of powers but also would ensure greater
uniformity in elections board decision-making
throughout the state. . . . [T]here is no reason
why elections boards cannot decide future cases
under a more constrained scope of review without
disruption or difficulty.
Id. at 591-92, 119 N.E.3d at 1192-93 (citations omitted
and emphasis added).
Justice Fischer observed that House Bill 463, moreover, only made matters worse by expanding the
local elections board’s discretion: “the H.B. 463
amendments . . . purport to authorize election boards
to make legal determinations about subject-area
preemption that even courts cannot make.” Id. at 590,
119 N.E.3d at 1191.
Justice Fischer, together with Justices O’Connor
and DeGenaro, returned to the problems presented by
Ohio’s gatekeeper law in State ex rel. Maxcy v. Saferin,
__ N.E.3d __, 2018 WL 4846266 (Ohio 2018) (Fischer,
J., dissenting), where the Ohio Supreme Court refused
to issue mandamus directing elections officials to place
a popular charter provision on a local ballot. In addition to the indeterminacy he identified in Khumprakob,
he pointed to Judge Sargus’ conclusion in this very

108a
case that Ohio’s gatekeeper law violates the First
Amendment:
That court found that R.C. 3501.11(K) allows a
board of elections—part of the executive branch—
to determine disputed legal and constitutional
issues, thus potentially blocking initiatives from
the ballot without providing those parties a right
to judicial review. The court then held that this
procedure unreasonably infringes on the First
Amendment rights of parties aggrieved by the
rejection of an initiative petition.
Id. at *11 (citation omitted).6
Ohio’s law both before and after the 2017 statutory
additions has been addressed at length here (as it was
in the District Court) to insure that this Court, like the
District Court, has a full understanding of Ohio’s gatekeeper law and the Ohio Supreme Court’s interpretations
of it. This Court need not wade into the state-law
questions surrounding whether Ohio’s Constitution
allows H.B. 463 to add even more executive power.
Whether it can or does is not relevant to resolution of
this action. The Ohio Supreme Court has authoritatively ruled that O.R.C. § 3501.11(K) by itself, both
before and after 2017, vests discretion in local elections
officials to pick and choose between initiatives based
on subject matter, topic and content. The Portage
County Board of Elections exercised this authority.
Ohio’s gatekeeper mechanism (as authoritatively construed by the Ohio Supreme Court) continues to
operate as a prior restraint. It continues to employ

6

Justices Fischer, O’Connor and DeGenaro had no difficulty
understanding that Judge Sargus’ judgment was based on the
First Amendment.

109a
“difficult,” “puzzling” and “unworkable” content-based
standards.
C. The Proceedings Below.
On August 20, 2018, Schmitt’s de-criminalization
initiatives for Windham and Garrettsville were rejected
by the Portage County Board of Elections. See Verified
Complaint, R.1, at PAGEID # 7. On August 28, 2018,
Schmitt filed this official-capacity action in the District
Court against the Board and Appellant7 seeking relief
under 42 U.S.C. § 1983 and the First and Fourteenth
Amendments. See id. at PAGEID # 1. Schmitt argued
that the executive license afforded local elections
boards by Ohio’ gatekeeper mechanism constitutes an
impermissible prior restraint. Schmitt sought to have
the two initiatives restored to the two Villages’ ballots
and a permanent injunction issued barring enforcement of the gatekeeper law.
Schmitt relied on the First Amendment and the procedural safeguards required by Freedman v. Maryland,
380 U.S. 51, 58-59 (1965). The District Court agreed.
In his September 19, 2018 Order directing that
Schmitt’s initiatives be restored to the Windham and
Garrettsville ballots, Judge Sargus explained that
Ohio’s fault lied in its failure to provide an immediate,
de novo legal remedy to one whose initiative is rejected
by a local election board. Ohio, he explained, only
allows a mandamus action, which requires that the
aggrieved party prove “(1) a clear right to the
7

Ohio’s Secretary of State is Ohio’s chief election officer
charged with enforcing Ohio’s election laws and insuring that
local elections officials comply with it. See O.R.C. § 3501.05;
Rosen v. Brown, 970 F.2d 169, 171 (6th Cir. 1992) (stating that
Ohio’s Secretary of State “compel[s] compliance with election law
requirements by election officials”).

110a
requested relief, (2) a clear legal duty on the part of
the board to provide it, and (3) the lack of an adequate
remedy in the ordinary course of the law.” Opinion and
Order, R. 22, at PAGEID # 164 (citations omitted).
“When the Ohio Supreme Court . . . reviews a decision
by a county board of elections, such court may only
issue the writ if the board ‘engaged in fraud or
corruption, abused its discretion, or acted in clear
disregard of applicable legal provisions.’” Id. (citations
omitted and emphasis added).
This limited mandamus review, the District Court
concluded, by itself violated the procedural safeguards
mandated by the First and Fourteenth Amendments.
Judge Sargus stated that he could find
no legitimate state interests in preventing an
adequate legal remedy for petitioners denied
ballot access by a board of elections. While the
availability of mandamus relief is essentially a
judicially imposed remedy when the law does not
otherwise provide one, the high burden on petitioners to prove entitlement to an extraordinary
remedy is no substitute for de novo review of the
denial of a First Amendment right.
Id. at PAGEID # 168 (emphasis added). He added:
Ohio’s regulatory scheme unreasonably infringes
on Plaintiffs’ First Amendment rights by allowing
an executive board to determine disputed legal
and even constitutional issues, thereby potentially blocking initiatives from the ballot, and then
denying rejected petitioners a right to review. No
legitimate state interest is protected by a lack of
appellate review.
Id. at PAGEID # 169 (emphasis added). Following
their restoration to the ballot, Schmitt’s initiative in

111a
Windham passed by a vote of 237 to 206 and the
Garrettsville’s initiative narrowly failed by a vote of
515 to 471.8
On February 11, 2019, following additional argument, the District Court granted permanent relief.
The Court stated that it “REINSTATES and
CONVERTS to permanent injunction the preliminary
injunctive relief granted in its Opinion and Order
issued on September 19, 2018.” Opinion and Order, R.
37, at PAGEID # 293. The Court accordingly granted
to Plaintiffs the only permanent injunctive relief they
requested, that is, “a permanent injunction . . . prohibiting Defendants from enforcing or acting under
O.R.C. § 3501.11(K), . . . to authorize local elections
boards to act as ‘gatekeepers’ of initiatives.” Verified
Complaint, Doc. No. 1, at PAGEID # 16 ¶ D.
Judge Sargus succinctly explained in that Order:
Given the availability of mandamus relief is extraordinary and only exercised when the law does not
otherwise provide an adequate remedy, the high
burden on petitioners to prove entitlement to an
extraordinary remedy is no substitute for de novo
review of the denial of a constitutionally protected
liberty interest. Therefore, the Court finds Plaintiffs
prevail on their constitutional challenge to Ohio’s
ballot initiative process.
Opinion and Order, R. 37, at PAGEID # 292 (emphasis
added).
Two weeks later, on February 25, 2019, the Secretary
moved for a “clarification” of the Court’s February 11,
8

See Portage County General Election, Nov. 6, 2018, Summary
Report, (https://www.co.portage.oh.us/sites/portagecountyoh/files/
uploads/final_unofficial_results.pdf) (last visited Nov. 7, 2018).

112a
2019 Opinion. See Defendants’ Motion for Reconsideration, R. 39. On March 12, 2019, the Secretary
lodged its Notice of Appeal,9 see R. 41, and sought a
stay of the District Court’s permanent injunction. See
Defendants’ Motion for Stay, R. 42.
On March 18, 2019, the District Court granted
Defendants’ motion to stay for ten days “out of an
abundance of caution” to facilitate the Secretary’s
filing an emergency motion for Stay with this Court.
See Order, R. 46 at PAGEID # 359. The District Court
explained that not only was the Secretary “not likely
to prevail on the merits of his appeal,” id. at PAGEID
# 358, “there is no evidence that the Secretary will be
irreparably harmed absent a stay.” Id. Appellant chose
not to seek an emergency stay at that time.
On April 15, 2019, the District Court granted the
Secretary’s motion for “clarification.” See Order, R. 50,
at PAGEID # 369 n.1. The District Court did not
change or limit the extent of its previously entered
orders, but instead reiterated that it had previously
“granted Plaintiffs the relief they requested in paragraph D of the Complaint.” Id. at PAGEID # 371. It
explained:
the Court granted Plaintiffs a permanent injunction that prohibited Defendants – i.e., the Portage
County Board of Elections and the Ohio Secretary
of State – from enforcing the gatekeeper function
in any manner that fails to provide a constitutionally sufficient review process to a party aggrieved
by the rejection of an initiative petition.
Id. (citation omitted).
9

The Portage County Board of Elections did not join this
appeal.

113a
On April 17, 2019, Appellant sought a stay in this
Court. This Court denied that motion and ordered
expedited briefing.
SUMMARY OF THE ARGUMENT
1. As is true with all ballot access laws, the First
Amendment applies to a State’s initiative process.
See City of Cuyahoga Falls v. Buckeye Community
Hope Foundation, 538 U.S. 188, 196 (2003); Meyer v.
Grant, 486 U.S. 414, 421-22 (1988); Buckley v. American
Constitutional Law Foundation, 525 U.S. 182, 186
(1999); Taxpayers United for Assessment Cuts v.
Austin, 994 F.2d 291, 296-97 (6th Cir. 1993).
2. The First Amendment loathes prior restraints,
whether they are employed to regulate adult businesses,
restrict parades, zone news racks, or restrict elections.
Déjà vu of Nashville v. Metropolitan Government of
Nashville and Davidson County, 274 F.3d 372, 400
(6th Cir. 2001). Ohio’s gatkekeeper law found in
O.R.C. § 3501.11(K) is a prior restraint. It vests executive discretion in local elections officials to determine
which initiatives proposed by private citizens address
proper subject matters. Ohio law provides little guidance beyond providing local elections officials with
difficult legal distinctions that the Justices of the Ohio
Supreme Court find confusing.
3. The Supreme Court has long warned of the dangers
presented by prior restraints. In order to guard
against these dangers, in Freedman v. Maryland, 380
U.S. 51, 58 (1965), it ruled that in those rare instances
where government may insert executive license between
speech and the public marketplace of ideas, government must include and abide by “procedural safeguards.”
These procedural safeguards, as explained by this
Court in Déjà vu of Nashville, 274 F.3d at 400, require

114a
that the executive’s decision must be made within a
specified, brief period of time, and the status quo must
be maintained pending prompt, de novo judicial
review that is initiated by the executive seeking to
restrain speech.
Ohio’s gatekeeper law fails all of these procedural
safeguards. In particular, judicial review is restricted
to mandamus, which by definition presumes the executive’s decision is correct and places the burden on the
speaker to show that it is either clearly erroneous or
an abuse of discretion.
4. Because it is content-based, Ohio’s gatekeeper
law is subject to strict First Amendment scrutiny.
Citizens for Legislative Choice v. Miller, 144 F.3d 916,
921 (6th Cir. 1998). It cannot pass. Most States eschew
Ohio’s executive-license approach in favor of one that
delays substantive challenges to initiatives until after
elections. Ohio can easily do the same. Hence, there is
absolutely no reason that Ohio must vest executive
discretion in its elections officials. Ohio’s gatekeeper
law is not necessary to achieve any governmental
interest, let alone a compelling one.
ARGUMENT
Appellant devotes a significant portion of its Brief to
debunking a legal argument that Schmitt did not
present below, that was not relied upon by the District
Court, and frankly has little to do with the merits of
this case. Ignoring the fact that the First Amendment
is at the center of this case, Appellant claims that
Schmitt and the District Court improperly relied upon
Procedural Due Process. See, e.g., Brief for Appellant,
Doc. 25, at PAGEID # 34.
In making its argument, Appellant asserts that
Judge Sargus somehow and for some reason became

115a
dissatisfied with his First Amendment ruling, “dropped
that rationale,” id. at PAGEID # 15, and then replaced
it with one premised solely (and unjustifiably) on
Procedural Due Process. Schmitt (who never made
such an argument in the District Court) somewhere
along the way came to agree with Judge Sargus’s
change of heart, then later came to regret that decision, “abandoned” it, and “retreated” back to the First
Amendment. Id. at PAGEID # 15. Schmitt is even
likely, Appellant claims, to do it all again. “So a fourth
rationale may well be coming in the plaintiffs’ meritsstage briefing.” Id.
Appellant’s surmise is, to put it gently, incorrect. It
finds no support in the Record. Contrary to Appellant’s
claim, Schmitt has never altered his legal theory, a
fact that is corroborated by the Record below. The
District Court never “dropped” its First Amendment
conclusion in favor or Procedural Due Process, another
fact that is corroborated by the Record. The District
Court’s opinions and orders make clear that it found
Ohio’s gatekeeper mechanism unconstitutional under
the First Amendment. It explained that in order for
Ohio to satisfy the First Amendment, it needed to
implement the required procedural safeguards. It
went out of its way to make clear to Appellant, the only
confused party to these proceeding, that it had permanently enjoined Ohio’s gatekeeper law under the First
Amendment. Justices on Ohio’s Supreme Court understand Judge Sargus’s rationale, see State ex rel.
Maxcy v. Saferin, __ N.E.3d __, 2018 WL 4846266
(Ohio 2018) (Fischer, J., dissenting); discussed at page
14 & footnote 6, supra, as apparently does the Portage
County Board of Elections (which chose not to appeal).
As Appellant well knows, this case is, and always
has been, about the First Amendment. It is about a

116a
citizen’s right to freely participate in the political
process through state-authorized popular initiatives
and referenda. The Supreme Court has noted that
popular measures form a “basic instrument of democratic government.” City of Cuyahoga Falls v. Buckeye
Community Hope Foundation, 538 U.S. 188, 196
(2003) (citation omitted). First Amendment principles,
it has found, “dovetail[] with the notion that all citizens, regardless of the content of their ideas, have the
right to petition their government.” Id.10
For the present matter, as further explained
below, the First Amendment requires that executive
license – that is, a prior restraint – be checked by
procedural safeguards. See Freedman v. Maryland,
380 U.S. 51, 58 (1965). Here, Ohio has failed to satisfy
this fundamental requirement. Because it has not
employed the proper procedural safeguards to limit
the discretion it has vested in its elections officials,
Ohio has – as found by the District Court – violated
the First and Fourteenth Amendments.11
Because this appeal raises only pure questions of
law, the standard of review is de novo. See Rebel Motor
Freight v. Interstate Commerce Commission, 971 F.2d
1288, 1290 (6th Cir. 1992).

10

Even if Appellant’s description of events below were
correct – and it plainly is not – this Court has made clear that
“[t]he prevailing party below . . . may defend a judgment on any
ground, including grounds rejected by the district court or not
even relied upon.” Waste Management of Ohio v. City of Dayton,
169 Fed. Appx. 976, *12 (6th Cir. 2006). Schmitt argued this case
under the First and Fourteenth Amendments.
11

The Fourteenth Amendment Due Process Clause, of course,
incorporates the First Amendment’s speech protections. See
Palko v. Connecticut, 302 U.S. 319, 323 (1937).

117a
I. The First Amendment Protects Initiatives
and Applies to the Initiative Process.
Appellant makes the remarkable claim that “[t]he
First Amendment does not govern ballot-access procedures.” Brief for Appellant, Doc. 25, at PAGEID # 43.
Appellant is wrong. It is clear that the First Amendment
applies to ballot access procedures in general, and the
initiative process in particular. See City of Cuyahoga
Falls v. Buckeye Community Hope Foundation, 538
U.S. 188, 196 (2003); Meyer v. Grant, 486 U.S. 414,
421-22 (1988); Buckley v. American Constitutional
Law Foundation, 525 U.S. 182, 186 (1999).
In Taxpayers United for Assessment Cuts v. Austin,
994 F.2d 291, 296-97 (6th Cir. 1993), this Court made
that clear; although “the right to initiate legislation is
a wholly state-created right,” the First Amendment
still restricts states to placing “nondiscriminatory,
content-neutral limitations on the plaintiffs’ ability
to initiate legislation.” See also Committee to Impose
Term Limits on the Ohio Supreme Court and to
Preclude Special Legal Status for Members of and
Employees of the Ohio General Assembly v. Ohio Ballot
Board, 885 F. 3d 443, 446 (6th Cir. 2018).
Appellant makes much of the fact that there is no
First Amendment right to utilize an initiative. See
Brief for Defendant, Doc. 25, at PAGEID # 44. States
may allow them, but need not. And because there is
no right to initiative, the argument goes, the First
Amendment is not implicated at all. The argument
fails for a number of reasons, most importantly because
it flies in the face of a wealth of precedent to the contrary. In addition, it fails for the even more basic
reason that if accepted it would unravel First Amendment
protections across the board. Government, after all, is
not required by the First Amendment to elect most of

118a
its government officials. It is not required to have
sidewalks or parks. It is not required to allow phone
service or cable television. But when it does, the First
Amendment applies to each and every one of them.
Appellant relies upon Nevada Commission on Ethics
v. Carrigan, 564 U.S. 117, 127 (2011). The Court in
Carrigan held (as it has on many occasions, see, e.g.,
Garcetti v. Ceballos, 547 U.S. 410 (2006)) that when a
government official acts as a governmental official he
acts as government. His speech is not his own. It is not
protected by the First Amendment. “[A] legislator’s
vote is the commitment of his apportioned share of the
legislature’s power to the passage or defeat of a
particular proposal.” 564 U.S. at 125-26.
Appellant would have this Court believe that
Carrigan means much more; according to Appellant, it
insulates anything and everything related to the legislative process from the First Amendment. Appellant’s
argument is breathtaking in its scope. If true, then
political parties have no First Amendment rights. Nor
do candidates. Nor do people running independent
advertisements supporting candidates. All, after all,
seek to enact or influence legislation.
Carrigan, of course, says no such thing. According to
Carrigan, government officials have no First Amendment
protection when they are legislating. This leaves candidates, see, e.g., Nwanguma v. Trump, 903 F.3d 604
(6th Cir. 2018) (holding that presidential candidate is
protected by the First Amendment), political parties,
see, e.g., Libertarian Party of Ohio v. Husted, 831 F.3d
382, 396 (6th Cir. 2016) (holding that Republican
Party was not engaged in state action), voters at polling
places, see, e.g., Minnesota Voters Alliance v. Mansky,
138 S. Ct. 1876 (2018) (holding that voters have First
Amendment right to wear political apparel at polling

119a
place), candidates, see, e.g., Ohio Council 8 American
Federation of State, County and Municipal Employees
v. Husted, 814 F.3d 329 (6th Cir. 2016) (applying
First Amendment to judicial candidates’ identifiers
on ballots), and common, everyday citizens who are
petitioning government, see Buckeye Community Hope
Foundation, 538 U.S. 188, with their full panoply of
First Amendment protections.
II. Ohio’s Delegation of Discretion to Elections
Boards Fails First Amendment Scrutiny
Because it Constitutes An Impermissible
Prior Restraint.
Ohio’s gatekeeper mechanism restricts speech based
on its subject matter and content. As such, it is a prior
restraint. A “‘prior restraint’ exists when the exercise
of a First Amendment right depends on the prior
approval of public officials.” Déjà vu of Nashville v.
Metropolitan Government of Nashville and Davidson
County, 274 F.3d 372, 400 (6th Cir. 2001). “Any system
of prior restraints comes to this Court bearing a heavy
presumption against its constitutional validity.” Id.
(quoting Freedman, 380 U.S. at 57) (emphasis added).
As explained in more detail below, see page 30, infra,
the Supreme Court has long warned of the dangers
presented by prior restraints. In order to guard against
these dangers, Freedman v. Maryland, 380 U.S. 51,
58 (1965), ruled that in those rare instances where
government may insert executive license between speech
and the public marketplace of ideas, government must
include and abide by “procedural safeguards.” This
Court in Déjà vu of Nashville, 274 F.3d at 400, explained:
First, the decision whether or not to grant a
license must be made within a specified, brief
period, and the status quo must be preserved
pending a final judicial determination on the

120a
merits. Second, the licensing scheme “must also
assure a prompt judicial decision, to minimize the
deterrent effect of an interim and possibly erroneous denial of a license.” Third, the licensing scheme
must place the burden of instituting judicial
proceedings and proving that expression is unprotected on the licensor rather than the exhibitor.
(Citations omitted).
These procedural safeguards were, according to the
Court in Freedman, 380 U.S. at 58, embedded in the
First Amendment by Procedural Due Process:
we hold that a noncriminal process which requires
the prior submission of a film to a censor avoids
constitutional infirmity only if it takes place under
procedural safeguards designed to obviate the
dangers of a censorship system. First, the burden
of proving that the film is unprotected expression
must rest on the censor. As we said in Speiser v.
Randall, 357 U.S. 513, 526, “Where the transcendent value of speech is involved, due process
certainly requires * * * that the State bear the
burden of persuasion . . . .
(Emphasis added).
The Court in Board of Regents v. Roth, 408 U.S. 564,
575 n.14 (1972), explained that this marriage of First
Amendment principles with Due Process procedures
is not uncommon, especially in the context of prior
restraints:
When a State would directly impinge upon interests in free speech or free press, this Court has on
occasion held that opportunity for a fair adversary
hearing must precede the action, whether or not
the speech or press interest is clearly protected

121a
under substantive First Amendment standards.
Thus, we have required fair notice and opportunity
for an adversary hearing before an injunction is
issued against the holding of rallies and public
meetings. Carroll v. President and Commissioners
of Princess Anne, 393 U.S. 175 (1969). Similarly,
we have indicated the necessity of procedural
safeguards before a State makes a large-scale
seizure of a person’s allegedly obscene books,
magazines, and so forth. A Quantity of Books v.
Kansas, 378 U.S. 205 (1964); Bantum Books v.
Sullivan, 372 U.S. 58 (1961). See Freedman v.
Maryland, 380 U.S. 51 (1965).
(Emphasis added). See also Federal Communications
Commission v. Fox Television Stations, 567 U.S.
239, 253 (2012) (“When speech is involved, rigorous
adherence to those [Due Process] requirements is necessary . . . .”).
Here, Ohio’s gatekeeper law violates these First
Amendment principles because it fails to incorporate
the required procedural safeguards. Schmitt does not
challenge Ohio’s authority to vertically separate powers
between local and State officials. He does not question
Ohio’s power to define what may be put to voters
through initiatives. Schmitt’s claim is that Ohio’s
gatekeeper law fails because it violates the procedural
protections required by the doctrine against prior
restraints. Specifically, Ohio’s gatekeeper approach to
initiatives impermissibly (1) vests discretion in executive agents to restrain speech, (2) fails to authorize
de novo review by Ohio’s courts, (3) fails to maintain
the status quo during the pendency of judicial review,
and (4) fails to place the burden of seeking “prompt”
judicial review on the gatekeeper.

122a
A. Ohio’s Gatekeeper Law Vests Discretion Over Subject Matter and Content
in Local Elections Officials.
Laws that grant discretion to executive agents without concrete guidance – like Ohio’s gatekeeper law
here – represent the quintessential examples of unconstitutional prior restraints. In Shuttlesworth v. City of
Birmingham, 394 U.S. 147 (1969), for instance, the
Supreme Court struck down a Birmingham demonstration permit requirement because it “conferred
upon the City Commission virtually unbridled and
absolute power to prohibit any ‘parade,’ ‘procession,’ or
‘demonstration’ on the city’s streets or public ways.”
Id. at 150 (footnote omitted). The Court stated:
This ordinance as it was written fell squarely
within the ambit of the many decisions of this
Court over the last 30 years, holding that a law
subjecting the exercise of First Amendment freedoms to the prior restraint of a license, without
narrow, objective, and definite standards to guide
the licensing authority, is unconstitutional.
Id. at 150-51 (footnote omitted) (emphasis added).
In Forsyth County v. Nationalist Movement, 505
U.S. 123, 131 (1990), the Court reiterated this principle: “A government regulation that allows arbitrary
application is ‘inherently inconsistent with a valid time,
place, and manner regulation because such discretion
has the potential for becoming a means of suppressing
a particular point of view.’” (Citations omitted). “To
curtail that risk, ‘a law subjecting the exercise of
First Amendment freedoms to the prior restraint of a
license’ must contain ‘narrow, objective, and definite
standards to guide the licensing authority.’” Id. (quoting Shuttlesworth). And in City of Lakewood v. Plain

123a
Dealer, 486 U.S. 750, 757 (1988), the Court invalidated
as an impermissible prior restraint a city’s permitting
scheme for news racks placed on public property: “in
the area of free expression a licensing statute placing
unbridled discretion in the hands of a government
official or agency constitutes a prior restraint and may
result in censorship.” (Citations omitted).
When a restraint on speech is based on subject
matter or content, of course, “the law must survive
strict scrutiny.” Déjà vu of Nashville, 274 F.3d at 391;
see also Reed v. Town of Gilbert, 135 S. Ct. 2218 (2015).
Additionally, “[s]ystems of prior restraint will be
upheld only if they provide for prompt judicial review
of all decisions denying the right to speak, while also
passing the appropriate level of scrutiny.” Déjà vu of
Nashville, 274 F.3d at 391 (emphasis added) (citing
Freedman v. Maryland, 380 U.S. at 58-59).
Where a licensing scheme is neutral and otherwise
follows objective criteria, it can pass First Amendment
scrutiny. The Sixth Circuit In Ohio Ballot Board, 885
F.3d at 448, which sustained Ohio’s limit on the number of subjects (one) placed in an initiative, explained:
Ohio’s single-subject rule does not prohibit certain
types of constitutional amendments based on the
topics or ideas contained in those amendments. . . .
[W]hether Plaintiffs violate Ohio’s single-subject
rule depends not on what they say, but simply on
where they say it—in one initiative petition or in
two.
Executive licensing that follows concrete, contentneutral requirements therefore does not run afoul of
the First Amendment. See Thomas v. Chicago Park
District, 534 U.S. 316, 322 (2002).

124a
Ohio’s delegation of authority under its statutory
gatekeeper mechanism, however, is not content-neutral.
Nor does it employ concrete criteria. It relies on
discretion. It relies on subject matter. It relies on
content. Worse yet, it relies on legal judgment. As the
Ohio Supreme Court explained, it requires that
executive officials render difficult legal conclusions
over “which actions are administrative and which are
legal.” Opinion and Order, R.22, at PAGEID # 162
(quoting State ex rel. Walker v. Husted, 144 Ohio St.3d
361, 43 N.E.3d 419, 423 (2015)).
Far from setting clear, concrete, explicit limits, Ohio
asks its elections officials to draw complicated legal
conclusions. Complex legal conclusions are the antitheses of clear, concrete and neutral guidelines. The
Supreme Court’s recent decision in Minnesota Voters
Alliance v. Mansky, 138 S. Ct. 1876 (2018), makes this
clear – even in the context of subsequent punishment
imposed on speech in a non-public forum.12 There,
Minnesota forbad any person from wearing a “political
badge, political button, or other political insignia . . .
at or about the polling place.” Id. at 1883. “Minnesota
election judges—temporary government employees working the polls on Election Day—have the authority,” the
Supreme Court explained, “to decide whether a particular item falls within the ban.” Id. While the
election judges could not restrain the offensive attire,
they were empowered to initiate punitive proceedings
after-the-fact.
12

Because prior restraints are particularly noxious, they are
invalid even when subsequent punishment is permitted. See
Kunz v. New York, 340 U.S. 290, 295 (1951). Consequently,
because subsequent punishment using the standard in Mansky
was impermissible, a prior restraint under this same kind of
standard would necessarily be unconstitutional.

125a
The Supreme Court ruled that because Minnesota
failed to “articulate some sensible basis for distinguishing what may come in from what must stay
out.” id. at 1888, its law facially violated the First
Amendment. The Court explained:
the unmoored use of the term “political” in the
Minnesota law, combined with haphazard interpretations the State has provided in official
guidance and representations to this Court, cause
Minnesota’s restriction to fail even this forgiving
test [applied to speech in non-public fora].
Id. Of particular note, the Supreme Court pointed to
the legal nature of the distinctions Minnesota asked
its election judges to draw; they “pose[d] riddles that
even the State’s top lawyers struggle to solve.” Id. at
1891. This kind of content-based power could not pass
even the reduced level of scrutiny applied to a nonpublic forum.
Ohio’s gatekeeper mechanism fails First Amendment
scrutiny for this same reason. What is administrative
and what is legal present questions that even Ohio’s
Supreme Court Justices find difficult to assess. Like
Minnesota election officials, Ohio’s elections officials
are required to answer legal “riddles that even the
State’s top lawyers struggle to solve.” Ohio’s distinction is even more objectionable than Minnesota’s
because Ohio’s distinction is administered through a
prior restraint (which was not the case in Minnesota).13
In either situation, whether by prior restraint (as
13

Even if Ohio’s initiative is analogized to a non-public forum,
like the polling place in Mansky, it is still subject to Freedman’s
requirement of procedural safeguards for prior restraints. See
Miller v. City of Cincinnati, 622 F.3d 524, 528 (6th Cir. 2010),
discussed infra.

126a
in Ohio) or through subsequent punishment (as in
Minnesota), resolving difficult legal riddles requires
inquiries into content. And in the absence of concrete,
content-neutral criteria, delegating this power to
executive officials violates the First Amendment.
This conclusion is reinforced by Reed v. Town of
Gilbert, 135 S. Ct. 2218, 2227 (2015), which invalidated a content-based sign ordinance under the First
Amendment. The Court there succinctly explained the
difference between content-based and content-neutral
restrictions on speech:
Government regulation of speech is content based
if a law applies to particular speech because of
the topic discussed or the idea or message
expressed . . . . . Some facial distinctions based on
a message are obvious, defining regulated speech
by particular subject matter, and others are more
subtle, defining regulated speech by its function
or purpose. Both are distinctions drawn based on
the message a speaker conveys, and, therefore,
are subject to strict scrutiny.
(Emphasis added).
Here, Ohio delegates discretion to local boards of
elections to decide what subject matter and content is
proper. An initiative serving “administrative” goals or
“exceeding the scope” of local governmental power,
as determined by the elections officials, is improper.
“Legislative” matters, in contrast, are allowed. What
is administrative, what is legislative, and what
exceeds constitutional power, unfortunately, present
“difficult” questions – even for Justices of the Ohio
Supreme Court. See, e.g., State ex rel. Flak v. Betras,
152 Ohio St.3d 244, 247, 95 N.E.3d 329, 332 (2016)
(stating that “it is sometimes difficult to distinguish”).

127a
Ohio’s approach, like that in Reed and Mansky, is
plainly content-based.
B. Ohio Courts Do Not Review Executive
Gatekeeping Decisions De Novo.
The Supreme Court has made clear that First
Amendment matters – including fact as well as law –
generally demand de novo review. See Bose v.
Consumers Union, Inc., 466 U.S. 485, 508 n.27 (1984)
(“The simple fact is that First Amendment questions
of ‘constitutional fact’ compel this Court’s de novo
review.”). This holds particularly true for prior restraints
and the procedures mandated by Freedman v. Maryland,
380 U.S. 51 (1965).14 Universal Film Exchange, Inc. v.
City of Chicago, 288 F. Supp. 286, 293 (N.D. Ill. 1968)
(“Since Freedman v. State of Maryland, it has been
clear that only a de novo judicial determination that a
motion picture is unprotected by the First Amendment
can justify a valid final restraint of a motion picture in
advance of exhibition.”).
Ohio’s Supreme Court has repeatedly stated that
local elections officials’ decisions to exclude initiatives
from ballots based on improper subject matter can
only be reviewed by writ of mandamus. This writ,
meanwhile, offers only limited relief. It can only be

14

Professor Monaghan, whose work played a profound part in
fashioning the Supreme Court’s views on this topic, so stated five
years after Freedman. See Henry P. Monaghan, First Amendment
“Due Process,” 83 HARV. L. REV. 518, 526 (1970) (“Freedman
requires only that the court make a separate, independent
judgment on the administrative record.”). See also Note, Allan
Tanambaum, “New and Improved”: Procedural Safeguards for
Distinguishing Commercial From Non-Commercial Speech, 88
COLUM. L. REV. 1821, 1825 n.3 (1988) (“Freedman seems to insist
on de novo judicial review.”).

128a
granted to correct clear error or an abuse of discretion.
Mandamus review is not de novo.
For example, in State ex rel. Sensible Norwood v.
Hamilton County Board of Elections, 148 Ohio St.3d
176, 69 N.E.3d 696 (2016), which involved an initiative
that sought to include a marijuana decriminalization
ordinance on a local ballot, the Court sustained the
local election board’s decision to remove the initiative
because the initiative’s sponsors could not, as required
for a writ of mandamus, prove that the board was
clearly wrong:
To be eligible for a writ of mandamus, relators
must “establish a clear legal right to the requested
relief, a clear legal duty on the part of the board
and its members to provide it, and the lack of an
adequate remedy in the ordinary course of the
law.” Relators have failed to establish a clear legal
right to their requested relief and a clear legal
duty on the part of the board to provide it. As we
have previously acknowledged, “[e]lection officials
serve as gatekeepers, to ensure that only those
measures that actually constitute initiatives or
referenda are placed on the ballot.
Id. at 180, 69 N.E.3d at 700-01.
This Court has previously concluded that review by
discretionary writ, such as mandamus, is insufficient
to satisfy First Amendment scrutiny under the doctrine against prior restraints. In Déjà vu of Nashville,
274 F.3d at 400-01, which addressed the validity of
licensing law for adult-businesses, the Court concluded that Tennessee’s common-law review process
did not satisfy Freedman’s requirements: “Whether
the common law writ of certiorari will issue is a matter

129a
of discretion. It is not issued as a matter of right.”
(Citation omitted).
Similarly, the Supreme Court in City of Lakewood v.
Plain Dealer, 486 U.S. at 771, ruled that Ohio’s
procedure authorizing writs of mandamus to review
executive licensing decisions was not sufficient to save
an ordinance challenged as an impermissible prior
restraint: “that review comes only after the mayor and
the City Council have denied the permit. . . . Even if
judicial review were relatively speedy, such review
cannot substitute for concrete standards to guide
the decision-maker’s discretion.” Ohio’s gatekeeper/
mandamus mechanism fails for this same reason.
Appellant belatedly claims that Ohio law “suggests”
sponsors of initiatives might be able to seek immediate
review through “injunctive-relief actions” in Ohio’s
Courts of Common Pleas. See Brief for Appellant, Doc.
25, at PAGEID # 13-14. This argument, which was
not presented to the District Court and is therefore
waived, see Scottsdale Ins. Co. v. Flowers, 514 F.3d
546, 552 (6th Cir. 2008), finds absolutely no support in
Ohio law. The two cases relied upon by Appellant,
Myers v. Schiering, 271 N.E.2d 864, 866 (Ohio 1971),
and City of Cincinnati v. Hillenbrand, 133 N.E. 556
(Ohio 1921), involved actions in Courts of Common
Pleas by those challenging a referendum and initiative,
respectively, and seeking to enjoin their placements on
election ballots. No case in Ohio suggests that the
sponsors of popular measures may seek judicial review
in Ohio’s Courts of Common Pleas in order to restore
their initiatives to local election ballots. No case in
Ohio suggests that sponsor of initiatives may appeal
as of right executive gatekeeper decisions under O.R.C.
§ 3501.11(K).

130a
Indeed, Appellant effectively admits that no such
action exists. “For centuries, litigants have invoked
the writ of mandamus to vindicate important interests.”
Brief for Appellant, Doc. 25, at PAGEID # 39. This
writ, Appellant states, is “the sole vehicle to challenge”
the “discretionary” decisions of executives that are “by
statute, not subject to direct appeal.” Id. (emphasis
added and citation omitted). As Appellant concedes,
Ohio law provides no statutory basis for appellate
review (in the Courts of Common Pleas or anywhere
else) of local elections officials decisions to remove
initiatives. Indeed, Appellant complains that the District
Court’s judgment is improper because it “demands
that Ohio courts accept such appeals even without
statutory authority to do so.” Id. at PAGEID # 22.
A federal court’s “task is to rule on what the law is,
not what it might eventually be.” Garcia v. Texas, 564
U.S. 940, 941 (2011). Ohio may eventually develop a
mechanism whereby executive censors of initiatives
are required to promptly seek de novo review. But that
is now only conjecture. If Appellant’s argument were
even plausible, one would think that Ohio’s Supreme
Court would have mentioned it in one of its many
mandamus opinions addressing just this kind of case.
The Ohio Supreme Court would be happy to relieve
itself of that burden. But it has never “suggested” that
its mandamus review, which assumes “the lack of an
adequate remedy in the ordinary course of the law,”
Sensible Norwood, 148 Ohio St.3d at 180, 69 N.E.3d
at 700-01, supplements an existing “injunction-relief
action” in the Courts of Common Pleas. If such an
action existed, after all, mandamus would not be
needed nor even proper. The reality is that no such
procedure exists under Ohio law. And even if it did, as

131a
hypothetically configured by Appellant, it still would
not satisfy Freedman.15
C. Ohio’s Gatekeeper Law Does Not
Maintain the Status Quo While Judicial
Review is Being Sought.
Even if Ohio law were to authorize an original action
in the Court of Common Pleas, it would still fail
Freedman’s requirements. Ohio law nowhere states
that the status quo will be maintained “pending a
final judicial determination on the merits.” Déjà vu of
Nashville, 274 F.3d at 400. Instead, Ohio’s framework
for mandamus review – and even that supporting a
hypothetical original action in the Court of Common
Pleas (assuming this were possible) – allows the
censor to change the status quo. This change to the
status quo is accepted unless the speaker can succeed
through judicial review. Here, for example, both of
Schmitt’s initiatives had already been certified for the
ballot. The status quo had the initiatives being
submitted to voters. Nothing in O.R.C. § 3501.11(K) or
Ohio law provides that certification remains in place
after an elections official decides to remove a previously certified initiative. Certification, which reflects
the status quo, is not maintained while judicial review
is being sought. This change in the status quo violates
Freedman.

15

As explained below, the procedural safeguards needed to
guard against unconstitutional prior restraints include not only
prompt de novo review, but also demand that the status quo be
preserved while the censor seeks immediate judicial review.
Appellant’s hypothetical action in Ohio’s Courts of Common Pleas
does not satisfy Freedman’s promptness requirement, its command
that the status quo be maintained, nor its requirement that the
burden of seeking review be borne by the censor.

132a
D. Ohio’s Gatekeeper Mechanism Does
Not Place the Burden on Local Elections Officials to Seek Judicial Review.
Even if Appellant’s hypothetical procedure provided
de novo review on an expedited basis and maintained
the status quo in the interim, it would still fail
Freedman. It does not, as Freedman requires, “place
the burden of instituting judicial proceedings and
proving that expression is unprotected on the licensor
rather than the exhibitor.” Déjà vu of Nashville, 274
F.3d at 400.
E. Content-Neutral Time, Place and
Manner Restrictions Can Also Constitute Improper Prior Restraints.
Many of the Supreme Court’s prior restraint cases
involve content-neutral time, place and manner
restrictions. In City of Lakewood v. Plain Dealer, 486
U.S. 750, 757 (1988), for example, where the city
restricted news racks on public property, there was no
claim that the city restricted them based on content.
Rather, the basic restriction was a content-neutral
time, place and manner restriction. Still, the Supreme
Court applied its prior restraint jurisprudence to invalidate how the city implemented this neutral restriction:
“even if the government may constitutionally impose
content-neutral prohibitions on a particular manner of
speech, it may not condition that speech on obtaining
a license or permit from a government official in that
official’s boundless discretion.” Id. at 764.16 See also
16

Lakewood refutes Appellant’s claim that because Schmitt
may still advocate for or against his ballot proposals there can be
no First Amendment violation. That newspapers remained free
to distribute their news in other fashions in that case not defeat
the fact that vesting discretion in an executive official over

133a
Ohio Citizen Action v. City of Englewood, 671 F.3d 564,
567 (6th Cir. 2012) (district court invalidated prohibition on door-to-door canvassing and solicitation after 6
PM that gave city manager authority to grant permit
for good cause; following city’s repeal of measure Sixth
Circuit dismissed as moot).
The Supreme Court reiterated this point in Thomas
v. Chicago Park District, 534 U.S. 316, 323 (2002),
where it ultimately sustained a content-neutral parade
permit ordinance that included definite, concrete and
objective standards:
Of course even content-neutral time, place, and
manner restrictions can be applied in such a
manner as to stifle free expression. Where the
licensing official enjoys unduly broad discretion in
determining whether to grant or deny a permit,
there is a risk that he will favor or disfavor speech
based on its content. We have thus required that
a time, place, and manner regulation contain
adequate standards to guide the official’s decision
and render it subject to effective judicial review.
(Citations omitted). See also Six Star Holdings v. City
of Milwaukee, 821 F.3d 795, 799 (7th Cir. 2016) (“Prior
restraints that are viewpoint- and content-neutral and
impose a limitation only on the time, place, and manner of speech are more likely to pass muster. They are
permissible if, and only if, there are procedural
safeguards that ensure that the decisionmaker approving the speech does not have ‘unfettered discretion’ to
grant or deny permission to speak.”) (emphasis added).

whether to allow news racks on public property was an impermissible prior restraint.

134a
F. Ohio’s Gatekeeper Law Is An Impermissible Prior Restraint Even if
Initiatives Are Treated as a Non-Public
Forum.
Restrictions in a non-public forum17 – whether
content-neutral or content-based – are subject to the
same procedural protections applied to prior restraints
in traditional public settings. For instance, in Miller v.
City of Cincinnati, 622 F.3d 524, 528 (6th Cir. 2010),
the Sixth Circuit invalidated under the First Amendment
a city’s rule that delegated discretion to “Department
Heads” to decide who should be allowed to solicit in
city buildings. Although the interior of a public
building – like city hall – was “at most, a limited public
forum,” id. at 535, the Sixth Circuit applied established prior restraint doctrine:
This distinction is irrelevant, however, because in
City of Lakewood the Court held that an arbitrary
prior restraint on protected speech provides
standing regardless of the forum. Hence, when a
plaintiffs protected-speech activities are subject to
restriction at the government’s unfettered discretion,
the plaintiff has suffered an injury in fact.
Id. at 528.18

17

Non-public and limited public fora are subject to the same
test: restrictions must be reasonable and viewpoint neutral.
See Miller, 622 F.3d 524at 535-36; New York Magazine v.
Metropolitan Transportation Authority, 136 F.3d 123, 128 & n.2
(2d Cir. 1998).
18

See also Barrett v. Walker County School District, 872 F.3d
1209, 1226 (11th Cir. 2017) (“the unbridled-discretion doctrine
can serve the same purpose in a limited public forum that it
serves in a nonpublic forum: combating the risk of unconstitutional viewpoint discrimination. Naturally, then, the unbridled-

135a
III. Ohio’s Gatekeeper Mechanism Cannot
Pass Strict First Amendment Scrutiny.
Because Ohio’s discretionary gatekeeper mechanism
restricts speech based on subject matter and content,
it is subject to strict scrutiny. This Court in Citizens
for Legislative Choice v. Miller, 144 F.3d 916, 921 (6th
Cir. 1998), observed that under the Anderson/Burdick
framework, “[t]he Supreme Court has identified two
factors in determining whether a regulation burdens
voting rights severely or only incidentally: contentneutrality and alternate means of access. First, and
most importantly, a law severely burdens voting rights
if it discriminates based on content instead of neutral
factors.” (Citation omitted). “[I]f a regulation burdens
voting rights severely, the regulation is reviewed
under the compelling interest standard. Under this
standard, a court will uphold the regulation only if it
is “narrowly drawn to advance a state interest of
compelling importance.” Id. (citation omitted).
No court has held that a content-based system like
Ohio’s satisfies this level of scrutiny under the First
Amendment. In Wyman v. Secretary of State, 625 A.2d
307, 309 (Me. 1993), for example, Maine did what Ohio
does now; it delegated to its secretary of state the
authority to decide whether the subject of an initiative
was proper before allowing it on the ballot. The
Supreme Judicial Court of Maine ruled this system
violated the First Amendment:
Because the petition process is protected by the
first amendment and the Secretary has advanced
no compelling interest in executive oversight of
the content of the petition prior to its circulation
discretion doctrine applies in a limited public forum.”); Amandola
v. Town of Babylon, 251 F.3d 339, 344 (2d Cir. 2001).

136a
for signature, his refusal to furnish the petition
form based on the content of the proposed
legislation impermissibly violated Wyman’s rights
protected by the first amendment.
Id. at 312.
To be sure, many (if not most) of the restrictions
placed on initiatives across the United States are constitutionally proper. As explained below, see page 48,
infra, signature requirements, single-subject rules, word
limitations/requirements, and other content-neutral
measures for initiatives have been sustained. But this
is because they are not content-based. When executives begin focusing on subject matter, topic and
content, the constitutional rules change. And as demonstrated by Wyman, passing these stricter constitutional
scrutiny is extremely difficult.
Far from offering a compelling justification for
Ohio’s law, Appellant complains only about inconvenience. Application of the First Amendment to Ohio’s
gatekeeper law, Appellant complains, “would obligate
the State to ‘initiate litigation every time it’ rejected a
proposed ballot-initiative.” Brief for Appellant, Doc.
25, at PAGEID # 55. Appellant adds to this a potential
parade of horribles; “every single State that permits
legislation by initiative is acting in violation of the
Constitution.” Id. at PAGEID # 55-56.
Neither of Appellant’s laments is true, let alone compelling. The fact is that Ohio’s gatekeeper approach –
vesting discretion in executive officials to pick and
choose between initiatives based on their subjects
before elections – is an outlier in the world of popular
democracy. In many States that permit popular
measures, initiatives are automatically included on
ballots once they are found to satisfy the objective

137a
procedural requirements, like supporting signatures,
single topic, required descriptions, etc. Challenges
proceed only after elections, if and when the initiatives
have passed. Ohio need only follow this path; it does
not have to litigate again and again before elections.
For example, Nevada, California, and Washington,
all prohibit elections officials from deciding whether
the content or subject matter of initiatives is proper.
See Las Vegas Taxpayer Accountability Committee v.
City Council of City of Las Vegas, 125 Nev. 165, 174 &
n.2, 208 P.3d 429, 435 & n.2 (2009) (holding that
Nevada election officials do not have this authority
and noting that neither do officials in California and
Washington) (citations omitted).
Other states, meanwhile, authorize executive officials
(like attorneys general) to render “non-binding advice
on the form or substance” of initiatives to their proponents. See Scott L. Kafker & David A. Rusccol, The
Eye of the Storm: Pre-election Review By The State
Judiciary of Initiative Amendments to State Constitutions, 2012 MICH. ST. L. REV. 1279, 1291 (footnotes
omitted). States also allow executive pre-election review
for “the form of the amendment,” but “defer[] questions
of substance” until after elections. Id. (footnote omitted).
“Most courts will not entertain a challenge to a
measure’s substantive validity before the election.”
James D. Gordon, III, et al., Pre-Election Judicial
Review of Initiatives and Referendums, 64 NOTRE
DAME L. REV. 298, 304 (1989). The end result is that
initiatives are routinely included on ballots and then
litigated (if need be) only after elections. Id.19

19

To be sure, some states “require a more searching review
to ensure that the amendment meets subject-matter and other
substantive and procedural requirements,” Kafker, supra, at

138a
To Schmitt’s knowledge, only three states, Maine,
New York and West Virginia, have delegated contentbased executive licensing power like that found in
Ohio to elections officials. And in each of these three
instances, the laws have been challenged (twice
successfully) under the First Amendment.
Maine’s law, as explained above, was invalidated in
Wyman, 625 A.2d at 309. West Virginia’s approach,
which is much like Ohio’s in that it relies on mandamus review to check elections officials’ discretion,20
was recently preliminarily enjoined by the federal
District Court for the Northern District of West Virginia
as constituting an impermissible prior restraint. See
Hyman v. City of Salem, No. 19-75 (N.D. W.Va., April
19, 2019) (written opinion forthcoming); Matt Harvey,
Fed. judge: Salem, WV, officials must put marijuana
measure on June 4 ballot, WVNEWS, April 19, 2019.21
Only New York’s law survived challenge, see Herrington
v. Cuevas, 1997 WL 703392 * 9 (S.D.N.Y. 1997)
(Sotomayor, J.), and that was because the matter was
dismissed as moot on March 6, 2002 after the election.

1291, but these states often (unlike Ohio) do this “before time,
energy, and money are spent on gathering signatures.”
20

Under West Virginia law, an aggrieved person’s only
recourse when local elections officials remove an otherwise
properly prepared and presented initiative from the ballot is (like
in Ohio) to seek mandamus. See State ex rel. Home v. Adams, 154
W.Va. 269, 175 S.E.2d 193 (1970). Courts in West Virginia are
authorized to issue mandamus only when a government official
fails to perform a legal duty and clearly violates state law. See
State ex rel. Ray v. Skaff, 190 W.Va. 504, 438 S.E.2d 847 (1993).
21

See https://www.wvnews.com/news/wvnews/fed-judge-salemwv-officials-must-put-marijuana-measure-on/article_68328a12-9b
4b-52b0-aed1-6406cbfc1b97.html (last visited May 16, 2019).

139a
Appellant has failed to cite a single case rejecting a
First Amendment challenge to a gatekeeper mechanism like the one found in Ohio. The cases Appellant
does cite, are inapposite for at least three reasons;
either because (1) they involved content-neutral laws
that restricted the number of subjects, initiatives or
voters required to place matters on ballots; (2) they
addressed whether governments may vertically apportion powers between superior and inferior governmental
bodies (they can) as opposed to focusing on executive
discretion, or (3) they involved procedures that are
significantly different from those found in Ohio.
Jones v. Markiewicz-Qualkinbush, 892 F.3d 935 (7th
Cir. 2018), falls squarely into the first category. Like
the Sixth Circuit’s holding in Ohio Ballot Board, 885
F. 3d 443, Jones sustained a concrete, content-neutral
restriction on the number (three) of initiatives that
may be certified to a ballot. Initiative & Referendum
Institute v. Walker, 450 F.3d 1082 (10th Cir. 2006),
which rejected a challenge to a content-neutral supermajority requirement for initiatives is of this same ilk.22
Marijuana Policy Project v. United States, 304 F.3d
82 (D.C. Cir. 2002), falls into the second category. It
holds that government may vertically apportion powers
within its branches. Far from deciding whether an
executive gatekeeper mechanism for initiatives constitutes an impermissible prior restraint,23 the court
22

Aye v. Mahoning County Board of Elections, 2008 WL 554700
(N.D. Ohio 2008), likewise involved concrete, content-neutral
requirements (e.g., education, experience, term limits) that are
placed on candidates: “[Ohio law] does not give discretionary
authority to the Sheriff . . . and clearly defines the threshold
requirements that any candidate for office must satisfy.”
23

The plaintiffs in Marijuana Policy Project did not challenge
any discretion vested in executive officers to pick and choose

140a
addressed only whether “the First Amendment restrict[s]
Congress’s ability [under the Barr Amendment] to withdraw the District [of Columbia’s] authority to reduce
marijuana penalties?” Id. at 85. The challengers
claimed that regardless of the procedures, Congress
was precluded by the First Amendment from restricting the District’s power to regulate marijuana.
The D.C. Circuit correctly disagreed: “The Barr
Amendment merely requires that, in order to have
legal effect, their [i.e., voters’] efforts must be directed
to Congress rather than to the D.C. legislative process.”
Id. It simply and unremarkably held that Congress,
like the States, may apportion powers vertically between
different branches of government. Schmitt does not
claim to the contrary. Ohio certainly may limit local
governmental power over marijuana. What it cannot
do is vest executive discretion in local election officials
to decide this matter before elections.
Port of Tacoma v. Save Tacoma Water, 422 P.3d 917
(Wash. App. 2018), falls into the third category.
Washington denies to executive officials the authority
to decide what is and what is not a proper subject
for initiatives. The question in Save Tacoma Water
was whether a court could, consistent with the
First Amendment, conclude before an election that
an initiative is improper. Id. at 920.24 There, a preelection judicial challenge to an initiative was bought
by groups who wanted to exclude an initiative from a
initiative topics; they instead argued that a well-defined subject
could not be reserved to the Congress. Because the prohibited
subject in Marijuana Policy Project was well-defined, it left no
discretion at all in ballot officials.
24

Schmitt does not deny that a court can, in an action
instituted by a censor, do exactly that (assuming the Freedman
safeguards are otherwise met).

141a
ballot. Id. This group was properly saddled with the
burden of going to court. More importantly, the court
there did not defer to a pre-election executive decision;
it acted de novo. Given this procedural posture, the
court in Save Tacoma Water was perfectly justified in
addressing whether the initiative at issue fell outside
the scope of the state’s initiative process.
Wirzburger v. Galvin, 412 F.3d 271 (1st Cir. 2005),
also falls into this third category. There, the First
Circuit sustained Massachusetts’ pre-election review
process for initiatives that vested initial review authority in the state attorney general. Massachusetts’ process
was different from Ohio’s in three important ways:
(1) the attorney general was not given unbridled
discretion; (2) the excluded subjects were specifically
identified in a finite list, “including, inter alia, appointment or compensation of judges; the powers, creation
or abolition of the courts; and specific appropriation
of state money,” id. at 275; and (3) the executive’s
decision was subject to immediate, de novo judicial
review before the election. See Mazzone v. Attorney
General, 432 Mass. 515, 520, 736 N.E.2d 358, 364
(2000) (“Our review of that certification is de novo.”).
After ruling that the law was subject to First
Amendment scrutiny, the First Circuit concluded it
survived as a content-neutral measure. Id. at 276.
Regardless of whether this particular aspect of the
First Circuit’s reasoning remains correct,25 because
immediate de novo review was available under
Massachusetts law, Freedman (which apparently was
25

The First Circuit’s finding that the law was content-neutral
likely does not survive the Supreme Court’s more recent rulings
in Reed v. Town of Gilbert, 135 S. Ct. 2218, 2227 (2015), and
Minnesota Voters Alliance v. Mansky, 138 S. Ct. 1876 (2018).

142a
not argued) and the First Amendment would not
necessarily have been violated.
IV. Invalidation of Ohio’s Gatekeeper Law Is
Not Confusing.
Appellant professes confusion over the District
Court’s decision. “[I]t is not entirely clear what the
District Court’s injunction does.” Brief for Appellant,
Doc. 25, at Page 22. “Ohio’s county election boards,”
moreover, “[are] in the dark as to what they are
supposed to be doing.” Id.
The only thing confusing about the District Court’s
judgment is Appellant’s confusion. Ohio’s Supreme
Court understands the judgment, see State ex rel.
Maxcy v. Saferin, as do Ohio’s legal encyclopedias. See
56 OHIO JUR.3d, Initiative and Referendum § 12 (2019)
(Schmitt holds that “availability of mandamus relief
was no substitute for de novo review of denial of a First
Amendment right”). The District Court made clear
that Appellant and Ohio’s local officials26 cannot
enforce Ohio’s gatekeeper mechanism, the very kind of
relief federal courts routinely order.
This particular injunction does not require that
Ohio pass legislation creating a new process for
judicial review – though it could choose to do so – nor
does it demand that Ohio’s courts accept “appeals even
without the statutory authority to do so.” Brief for
Appellant, Doc. 25, at PAGEID # 22. It simply means
that Ohio must join the mainstream and not allow
local elections officials to exercise discretion under
O.R.C. § 3501.11(K). The subjects of initiatives cannot,
26

Because the Portage County Board of Elections, which
apparently does not share Appellant’s confusion, did not appeal,
it has apparently decided to remain bound by the District Court’s
judgment regardless of the outcome of this Appeal.

143a
before elections, unilaterally be deemed unlawful by
executive agents. Elections officials cannot, prior to
elections, be allowed discretion to render determinative legal opinions on “riddles that even the State’s top
lawyers struggle to solve.” Mansky, 138 S. Ct. at 1891.
Instead, as is true in most states, initiatives that
have met the procedural requirements spelled out by
law will are to be placed on ballots. If elections officials
(or anyone else) have substantive challenges, they can
be made in appropriate courts after elections in due
course.
V. Section 1983 Plaintiffs Can Not Be
Compelled to Use the Procedures They
Challenge Under the First Amendment.
Appellant argues that because Schmitt did not avail
himself of Ohio’s mandamus mechanism to challenge
the Portage County Board of Elections’ decision, he is
somehow precluded from seeking relief under the First
and Fourteenth Amendments. Brief for Appellant,
Doc. 25, at PAGEID # 40. Appellant is wrong. Claims
brought under 42 U.S.C. § 1983 for First and Fourteenth
Amendment violations need not be exhausted. See
Patsy v. Board of Regents, 457 U.S. 496 (1982).
A plaintiff who challenges a prior restraint, in
particular, need not first resort to the very process that
she challenges. The Supreme Court in Shuttlesworth,
394 U.S. at 151, made this clear: “a person faced with
such an unconstitutional licensing law may ignore it
and engage with impunity in the exercise of the right
of free expression for which the law purports to require
a license.”

144a
CONCLUSION
The District Court’s judgment should be AFFIRMED.
Respectfully submitted,
s/ Mark R. Brown
Mark R. Brown
303 East Broad Street
Columbus, OH 43215
(614) 236-6590
(614) 236-6956 (fax)
mbrown@law.capital.edu
Mark G. Kafantaris
625 City Park Street
Columbus, OH 43206
(614) 223-1444
(614) 300-5123
mark@kafantaris.com
Attorneys for Appellees
CERTIFICATE OF WORD-COUNT AND
TYPE-SIZE
Appellees certify that they have prepared this
document in 14-point Times New Roman font and that
excluding the Cover, Corporate Disclosure Statement,
Tables, Statement in Support of Oral Argument,
Signature Block, Certificates and Addendum, the
document contains 12,996 words.
s/ Mark R. Brown
Mark R. Brown
CERTIFICATE OF SERVICE
I certify that this Brief was filed on May 22, 2019
using the Court’s electronic filing system and will
thereby be served on all parties to this proceeding.
s/ Mark R. Brown
Mark R. Brown

145a
ADDENDUM
DESIGNATION OF RELEVANT
DISTRICT COURT DOCUMENTS
Verified Complaint, R.1, PAGEID # 1, 6-8, 16
Verified Complaint, Exhibit 1, R.1-1
Verified Complaint, Exhibit 2, R.1-2
Verified Complaint, Exhibit 3, R.1-3
Verified Complaint, Exhibit 4, R.1-4
Verified Complaint, Exhibit 5, R.1-5
Verified Complaint, Exhibit 6, R.1-6
Verified Complaint, Exhibit 7, R.1-7
Opinion and Order, R. 22, PAGEID # 164, 168, 169
Opinion and Order, R. 37, PAGEID # 292-93
Defendants’ Motion for Reconsideration, R. 39,
Notice of Appeal, R. 41
Defendants’ Motion for Stay, R. 42
Order, R. 46, PAGEID # 358-59
Order, R. 50, PAGEID # 369, 371

146a
APPENDIX G
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
[Filed: 10/22/19]
————
Case No. 2:18-cv-966
————
SCHMITT, et al.,
v.

Plaintiffs,

LAROSE, et al.,
Defendants.
————
Judge Edmund Sargus, Jr.
Magistrate Judge Elizabeth Deavers
————
PLAINTIFFS’ RENEWED MOTION FOR
ATTORNEYS’ FEES AND COSTS
UNDER 42 U.S.C. § 1988(b)
AGAINST DEFENDANT-LAROSE
Pursuant to Federal Rule of Civil Procedure 54 and
Local Rule 54.2, Plaintiffs file this renewed Motion for
costs and attorney’s fees under 42 U.S.C. § 1988(b)
against Defendant-LaRose based on Plaintiffs’ success
in winning preliminary relief restoring their initiatives to the Windham and Garrettsville ballots and
having those initiatives voted on at that November
2018 general election. See Order (September 19, 2018),
Doc. No. 22; Order (October 3, 2018), Doc. No. 26;
Order (October 4, 2018), Doc. No. 28. This Motion

147a
replaces Plaintiffs’ March 15, 2019 Motion for Fees
from Defendant-LaRose, see Doc. No. 45,1 and otherwise renews Plaintiffs’ Motion for attorney’s fees against
Defendant-LaRose is only for the time and expense
invested in successfully winning preliminary relief
against Defendant-LaRose and (except for the time
devoted to preparing this Motion, described below)
does not include their time and effort invested after
November 2, 2018, when the time for appealing this
Court’s preliminary injunction expired and their efforts
shifted to winning permanent relief.
Plaintiffs’ costs are for the filing fee of $400.00, paid
on August 28, 2018. See Doc. Entry No. 1 (receipt #
0648-6577999). Their attorney’s fees for their two
lawyers, Mark Brown and Mark Kafantaris, who
expended 47.3 hours and 10.2 hours, respectively, on
Plaintiffs’ successful claims to temporary and preliminary permanent relief between August 21, 2018 and
November 2, 2018. See Declaration of Mark Brown,
Doc. No. 45-1; Declaration of Mark Kafantaris, Doc.
No. 45-2. Multiplied by Brown’s reasonable hourly rate
($400), and Kafantaris’s reasonable hourly rate ($350),
Brown’s and Kafantaris’s fees come to $18,920.00 and
1

Plaintiffs also sought fees and costs from Defendant-Portage
County Board of Elections on March 15, 2019. See Doc. No. 45.
Rather than re-brief the issue, Defendant-Portage County Board
of Elections responded to Plaintiffs’ motion for attorney’s fees on
September 30, 2019. See Doc. No. 66. Plaintiffs replied on October
3, 2019. See Doc. No. 67. Briefing on that aspect of Plaintiff’s
motion for attorney’s fees is therefore complete, and Plaintiffs’
respectfully incorporate by reference those documents into this
Motion. Defendant-LaRose, meanwhile, has requested that Plaintiffs re-brief their Motion for fees from him. Plaintiffs accordingly
with this Motion replace their prior March 15, 2019 Motion for
attorney’s fees, Doc. No. 45, with this renewed Motion for attorney’s fees based on their success relative to Defendant-LaRose.

148a
$3570.00, respectively. Brown also expended 8.8 hours
researching and preparing this renewed Motion for
Attorney’s Fees. See Declaration of Mark Brown, Exhibit
1 (attached). Multiplied by his reasonable hourly rate
($400.00), this comes to $3520.00.
Plaintiffs’ total costs, including attorney’s fees, due
from Defendant-LaRose for Plaintiffs’ preliminary success is intended to replace the sum previously sought
by Plaintiffs on March 15, 2019, see Doc. No. 45, and
now totals as follows:
Costs (filing fee):

$400.00.

Attorney’s fees (Brown) for
preliminary relief:

$18,920.00.

Attorney’s fees (Kafantaris)
for preliminary relief:

$3570.00.

Attorney’s fees (Brown) for
preparing Motion:

$3520.00

TOTAL:

$26,410.00

Plaintiffs reserve the right to amend this Motion to
include any reasonable additional time incurred in
this matter in this Court, in the United States Court
of Appeals for the Sixth Circuit, and in the Supreme
Court of the United States. 2 In support of this Motion,
Plaintiffs incorporate by reference the Declarations
previously filed with this Court on March 15, 2019, see
2

Review in the Supreme Court is being sought by Plaintiffs.
Northwestern University’s Supreme Court Litigation Practicum,
with the assistance of Sidley & Austin, has taken the case and
will timely petition the Supreme Court for review on Plaintiffs’
behalf. To the extent this petition proves successful, Plaintiffs
reserve the right to amend their Motion to include time and effort
devoted to that success in both the Court of Appeals and Supreme
Court as well as this Court.

149a
Docs. No. 45-1 and 45-2, their previously filed Motion
for attorney’s fees against Defendant-Portage County
Board of Elections, see Doc. No. 45, their previously
filed Reply, Doc. No. 67, to Defendant-Portage County
Board of Elections’ Response, Doc. No. 66, to that
Motion for Attorney’s Fees, the attached Declaration
of Mark Brown, and the following Memorandum of
Law.
CONCLUSION
For the foregoing reasons, Plaintiffs’ Motion should
be GRANTED.
Respectfully submitted,
s/ Mark R. Brown
Mark R. Brown, Trial Counsel
303 East Broad Street
Columbus, OH 43215
(614) 236-6590
(614) 236-6956 (fax)
mbrown@law.capital.edu
Mark G. Kafantaris
625 City Park Avenue
Columbus, Ohio 43206
(614) 223-1444
(614) 300-5123(fax)
mark@kafantaris.com

150a
MEMORANDUM OF LAW
IN SUPPORT OF MOTION FOR
COSTS AND ATTORNEY’S FEES
INTRODUCTION
Plaintiffs filed their initial Motion for costs and
attorney’s fees under 42 U.S.C. § 1988(b) against both
Defendants on March 15, 2019. See Doc. No. 45. In
that Motion, Plaintiffs sought fees not only for their
preliminary successes, but also their permanent
success in having Ohio’s gatekeeper mechanism permanently enjoined under the First and Fourteenth
Amendments to the United States Constitution. Final
judgment had been entered in Plaintiffs’ favor, see
Opinion and Order, Doc. No. 37; Entry of Judgment,
Doc. No. 38, making Plaintiffs prevailing parties on all
their claims, both preliminary and permanent.
Neither Defendant appealed the Court’s award of
preliminary relief to Plaintiffs. Following final judgment, Defendant-LaRose alone appealed this Court’s
permanent injunction prohibiting enforcement of
Ohio’s gatekeeper law to the Court of Appeals.
Because of the pending appeal, this Court on April
1, 2019 delayed briefing on Plaintiffs’ Motion for
Attorney Fees following. See Order, Doc. No. 49. The
Court directed Plaintiffs to renew their Motion for
attorney’s fees within 45 days following the issuance
of mandate from the United States Court of Appeals
on Defendant-LaRose’s appeal. See Order, Doc. No. 49.
The Sixth Circuit on August 7, 2019 reversed and
vacated this Court’s permanent injunction. Schmitt v.
LaRose, 933 F.3d 628 (6th Cir. 2019). Importantly, the
only issue in that appeal was the propriety of Plaintiffs’ facial challenge to Ohio’s gatekeeper law and the
permanent injunction it had won. The validity of this

151a
Court’s preliminary orders restoring Plaintiffs’ initiatives as-applied to the Villages of Windham and
Garrettsville ballots was not at issue on appeal. The
Sixth Circuit explained:
We note that Plaintiffs’ as-applied challenge is
moot. Under Article III, we “may adjudicate only
actual, ongoing cases or controversies.” The district court enjoined the Secretary of State to place
the Plaintiffs’ initiatives on the Portage County
ballots, and the election was conducted in
November 2018. The State made clear at oral
argument that it does not seek to relitigate the
district court’s decision on the as-applied challenge. Accordingly, we will not consider it here, . . . .
Id. at 636 n.2 (emphasis added and citation omitted).
Not only did Defendant-LaRose admit to the Sixth
Circuit that it was not challenging the validity of this
Court’s preliminary order restoring Plaintiffs’ initiatives to the ballot, it also conceded to the Sixth Circuit
that this Court’s order restoring Plaintiffs’ two initiatives to the ballot was correct. During Appellant’s oral
argument, the Court inquired whether “it matter[s]
that you have the exact same petitions submitted to
different municipalities and they decide it in different
ways?” United States Court of Appeals for the Sixth
Circuit: Audio Files of Completed Arguments, Schmitt
v. LaRose, No. 19-3196, June 26, 2019, at 12:59.3 General Flowers, counsel for Defendant-LaRose, responded:
“It doesn’t . . . we have mandamus to correct boards of
3

http://www.opn.ca6.uscourts.gov/internet/court_audio/aud2.
php?link=audio/06-26-2019%20-%20Wednesday/19-3196%20Wil
liam%20Schmitt%20v%20Frank%20LaRose%20et%20al.mp3&n
ame=19-3196%20William%20Schmitt%20v%20Frank%20LaRos
e%20et%20al (last visited September 30, 2019).

152a
elections that err. And frankly, if they had sought a
writ of mandamus, they would have got it. This was a
legislative ballot initiative, in all likelihood, it should
have been placed on the ballot.” Id. at 13:10 (emphasis
added).
Further, during rebuttal at oral argument, the Sixth
Circuit asked whether Defendant-LaRose challenged
this Court’s order directing that the initiatives be
placed on the ballot: “But the one that passed,4 doesn’t
our decision affect what happens to it?” Id. at 37:24.
General Flowers responded, “No.” The Court inquired
farther: “The question then is whether its validly on
the ballot, and . . . if we vacate the injunction what
happens to the initiative that passed?” Id. at 37:43.
General Flowers answered: “Someone could challenge
it and say it was not properly on the ballot, but that
would fail because it was a legislative action. I don’t
see any basis for ruling it wasn’t.” Id. (emphasis added).
Defendant-LaRose thus made clear that the two initiatives this Court restored to the ballot were improperly
removed from the ballot by Defendant-Portage County
Board of Elections. The two initiatives were properly
legislative matters as opposed to improper administrative matters. This Court’s preliminary orders restoring them to the ballot were both correct and left unchallenged on appeal.
On September 13, 2019, the Sixth Circuit released
its mandate. See Schmitt v. LaRose, No. 19-3196, (6th
Cir., Sept. 13, 2019), Doc. No. 43. Operating under the
Court’s April 1, 2019 Order, Plaintiffs now renew their

4

Windham’s initiative, one of the two that had been restored
by this Court’s order to the ballot, had passed by a vote of 237 to
206 and became law.

153a
Motion for attorney’s fees in this Court.5 As explained
below, notwithstanding Defendant-LaRose’s successful
appeal of the facial challenge and permanent relief,
Plaintiffs remain entitled to costs and attorneys’ fees
for their preliminary success on their as-applied challenge, which was not appealed.
ARGUMENT
I. Plaintiffs Are Prevailing Parties.
Plaintiffs are and remain prevailing parties in the
above-styled action and therefore remain entitled to
attorney’s fees under 42 U.S.C. § 1988(b) based on
their having won preliminary relief in this Court. That
preliminary relief directed that Plaintiffs’ two initiatives be restored to the ballot. Defendant-LaRose complied with that order, did not appeal, and the initiatives were voted on at the November 2018 general
election. Windham’s initiative passed and is now the
law in that Village.
In Lefimine v. Wideman, 568 U.S. 1, 4 (2012), the
Supreme Court stated:
A plaintiff “prevails,” we have held, “when actual
relief on the merits of his claim materially alters
the legal relationship between the parties by modifying the defendant’s behavior in a way that
5

Plaintiffs also sought attorney’s fees from Defendant-Portage
County Board of Elections in their Motion filed on March 15,
2019. See Doc. No. 45. Defendant-Portage County Board of Elections chose to respond to Plaintiffs’ March 15, 2019 Motion for
attorney’s fees on September 30, 2019, see Doc. No. 66, rather
than fully re-brief the matter. Plaintiffs replied on October 3,
2019. See Doc. No. 67. Briefing on that aspect of Plaintiff’s motion
for attorney’s fees is therefore complete, and Plaintiffs’ respectfully incorporate by reference those documents into this Motion
for attorney’s fees against Defendant-LaRose.

154a
directly benefits the plaintiff.” And we have repeatedly held that an injunction or declaratory judgment, like a damages award, will usually satisfy
that test.
(Citation omitted). In Lefimine, 568 U.S. 1, police were
enjoined from unlawfully interfering with the plaintiff’s peaceful protests. The injunction, the Supreme
Court held, made the plaintiff a prevailing party
entitled to attorney’s fee: “that ruling worked the requisite material alteration in the parties’ relationship.
Before the ruling, the police intended to stop Lefemine
from protesting with his signs; after the ruling, the
police could not prevent him from demonstrating in
that manner.” Id. at 5. See also Buckhannon Board &
Care Home, Inc. v. West Virginia Department of Health
and Human Services, 532 U.S. 598 (2001).
In the present case, the preliminary injunction forcing Defendants to restore Plaintiffs’ initiatives to the
ballot, like the injunction in Lefimine, “worked the requisite material alternation in the parties’ relationship”
to render Plaintiffs prevailing parties. “Before the ruling,” Defendants intended to preclude the initiatives
from the ballot. “[A]fter the ruling,” they could not do
so. The initiatives were placed on the ballot, voted on,
one passed, and it is now the law. This “material
alteration” makes Plaintiffs prevailing parties.
Defendant-LaRose’s successful appeal from Plaintiffs’ facial challenge and the resulting permanent
injunction entered against Ohio’s gatekeeper law does
not change this fact. Instead, it only means that Plaintiffs’ fee request must be limited to the time and effort
Plaintiffs expended in winning preliminary relief
based on their as-applied challenge, as opposed to any
time devoted to winning permanent relief on their
facial challenge. It is for this reason that Plaintiffs

155a
have modified their fee request to seek only compensation from Defendant-LaRose for the time Plaintiffs
devoted to winning preliminary relief under their asapplied challenge.6
Like the Sixth Circuit before it, this Court made
clear in Libertarian Party of Ohio v. Husted, 2013 WL
4833033 (S.D. Ohio 2013), that preliminary success
may support an award of attorney’s fees notwithstanding ultimate reversal by the Sixth Circuit. There, the
Libertarian Party won preliminary relief in this Court
directing the Secretary of State to restore its candidates to Ohio’s 2012 election ballots. The Secretary
complied with the Court’s order and the Libertarian
Party fully participated in the 2012 election. Ohio,
meanwhile, had appealed the District Court’s order.
Because the election had passed and Ohio had then
repealed the law being challenged, however, the Court
of Appeals vacated the District Court’s order and
directed it to dismiss the case. See Libertarian Party
of Ohio v. Husted, 497 Fed. Appx. 581, 583 (6th Cir.
2012).
In doing so, the Sixth Circuit noted the plaintiffs’
continuing right to attorney’s fees; it accordingly
stated: “We express no opinion regarding any entitle6

As explained above, Plaintiffs also seek fees from DefendantPortage County Board of Elections based on their successful asapplied challenge as well as their successful facial challenge.
Plaintiffs, however, do not seek a double recovery from DefendantPortage County Board of Elections and Defendant-LaRose on
either basis. Rather, Defendant-LaRose should be held jointly
and severally responsible along with Defendant-Portage County
Board of Elections for the fees incurred by Plaintiffs for successfully winning preliminary relief under their as-applied challenge.
Defendant-Portage County Board of Elections, meanwhile, is
singularly responsible for Plaintiffs’ fees based on the award of
permanent relief.

156a
ment the LPO may have to attorney’s fees under 42
U.S.C. § 1988(b). That case-specific inquiry is best left
in the first instance to the district court. McQueary v.
Conway, 614 F.3d 591, 601 (6th Cir.2010).” Libertarian
Party, 497 Fed. Appx. at 583.
Notwithstanding that this Court’s preliminary relief
was vacated and the case dismissed at the direction of
the Sixth Circuit, this Court, following the Sixth Circuit’s note on attorney’s fees, concluded that the plaintiffs were still entitled to costs and attorneys’ fees
based on their successful claim for preliminary relief.
Relying on the Sixth Circuit’s holding in McQueary v.
Conway, 614 F.3d 591, 601 (6th Cir. 2010), the Court
stated that “to determine whether a ‘preliminaryinjunction winner’ is a prevailing party, courts conduct
a ‘contextual and case-specific inquiry.’” 2013 WL
4833033 at *2. “The Sixth Circuit has gone on to clarify
that to receive attorney’s fees, a plaintiff who wins a
preliminary injunction must obtain a ‘material change
in the legal relationship’ that directly benefits the
plaintiff by modifying the defendant’s behavior
towards her.” Id. (quoting McQueary, 614 F.3d at 597–
98).
“When ‘the claimant receives everything it asked for
in the lawsuit, and all that moots the case is courtordered success and the passage of time,’ the plaintiff
is a prevailing party and may be entitled to attorney’s
fees.” 2013 WL 4833033 at *2 (quoting McQueary, 614
F.3d at 599). “Plaintiffs received temporary relief that
compelled Defendant to act and had permanent effect
because it effectively granted Plaintiffs all the relief
they sought. Plaintiffs sought a preliminary injunction
to restore their 2011 and 2012 ballot access.” 2013 WL
4833033 at *2. “Although Plaintiffs also requested
additional relief in the form of declaring certain

157a
amendments to voting regulations unconstitutional
and enjoining their enforcement, a plaintiff becomes
a ‘prevailing party’ by succeeding on a single claim,
‘even if he loses on several others and even if that
limited success does not grant him the ‘primary relief’
he sought.’” Id. at *3 (quoting McQueary, 614 F.3d at
603) (emphasis added).
Because the plaintiffs in Libertarian Party, 2013
WL 4833033 at *2, “sought relief in relation to a specific event and received ostensibly temporary relief
that had permanent effect once the 2012 election
passed,” the Court properly deemed them to be prevailing parties for that preliminary relief and awarded
them costs and fees. “‘The significance of the relief
obtained goes only to the amount of fees’ a prevailing
party may recover, not to whether the party is
prevailing.” Id. at *3.
Numerous Courts, including this Court, the Sixth
Circuit and the Supreme Court, have recognized that
when a plaintiff wins a significant part of what it
seeks, through a preliminary injunction or otherwise,
it is entitled to attorneys’ fees for the effort devoted to
winning that relief. See, e.g., Tex. State Teacher’s Ass’n
v. Garland Indep. Sch. Dist., 489 U.S. 782, 791–92
(1989) (“If the plaintiff has succeeded on any significant issue in litigation which achieved some of the benefit the parties sought in bringing suit, the plaintiff
has crossed the threshold to a fee award of some kind.”)
(quotation marks and alteration omitted); Diffenderfer
v. Gomez–Colon, 587 F.3d 445, 450 (1st Cir. 2009)
(awarding attorney’s fees after vacating an injunction
as moot); Grano v. Barry, 783 F.2d 1104, 1110 (D.C.
Cir.1986) (awarding attorney’s fees after successfully
holding off a demolition until after an election); see
also Young v. City of Chicago, 202 F.3d 1000 (7th Cir.

158a
2000) (awarding fees to protestors who obtained a
preliminary injunction to protest at a convention);
Watson v. County of Riverside, 300 F.3d 1092, 1096
(9th Cir. 2002) (awarding fees to a government employee
who sought to exclude a report from an administrative
hearing and received an injunction allowing him to do
so). See also Miller v Davis, 267 F. Supp.3d 961 (E.D.
Ky. 2017) (awarding attorney’s fees based on preliminary injunction notwithstanding its subsequent vacatur); Michigan State A. Phillip Randolph Institute v.
Johnson, 2019 WL 2314861 (E.D. Mich. 2019) (awarding attorney’s fees based on preliminary injunction
even though permanent injunction was vacated on
appeal and could not support attorney’s fees); Messmer
v. Harrison, 2016 WL 316811 (E.D.N.C. 2016) (awarding attorney’s fees based on preliminary injunction
even though case was rendered moot by subsequent
intervening events).
The present situation is controlled by the Supreme
Court’s, the Sixth Circuit’s and this Court’s precedents. Here, Plaintiffs won ballot access through their
as-applied challenge. Their initiatives were restored to
the ballot. They were voted on. One passed and is now
the law in Windham Village. No appeal was taken
from this preliminary relief.
Following the election, this Court’s award of preliminary relief, just like the award of preliminary relief in
Libertarian Party, became moot. The Sixth Circuit in
the present case recognized this fact:
We note that Plaintiffs’ as-applied challenge is
moot. Under Article III, we “may adjudicate only
actual, ongoing cases or controversies.” The district court enjoined the Secretary of State to place
the Plaintiffs’ initiatives on the Portage County
ballots, and the election was conducted in

159a
November 2018. The State made clear at oral
argument that it does not seek to relitigate the district court’s decision on the as-applied challenge.
Accordingly, we will not consider it here, . . . .
Schmitt, 933 F.3d a 636 n.2 (emphasis added and
citation omitted).
Not only did Defendant-LaRose admit to the Sixth
Circuit that it was not challenging the propriety of this
Court’s preliminary relief, it also conceded to the Sixth
Circuit that this Court’s preliminary orders restoring
Plaintiffs’ two initiatives to the ballot were correct.
During Appellant’s oral argument, the Court inquired
whether “it matter[s] that you have the exact same petitions submitted to different municipalities and they
decide it in different ways?” United States Court of
Appeals for the Sixth Circuit: Audio Files of Completed Arguments, Schmitt v. LaRose, No. 19-3196,
June 26, 2019, at 12:59.7 General Flowers, counsel for
Defendant-LaRose responded: “It doesn’t . . . we have
mandamus to correct boards of elections that err. And
frankly, if they had sought a writ of mandamus, they
would have got it. This was a legislative ballot
initiative, in all likelihood, it should have been placed
on the ballot.” Id. at 13:10 (emphasis added).
During Rebuttal, the Sixth Circuit inquired whether
Defendant-LaRose challenged this Court’s order directing that the initiatives be placed on the ballot: “But the
one that passed, doesn’t our decision affect what happens to it?” Id. at 37:24. General Flowers responded,
7

http://www.opn.ca6.uscourts.gov/internet/court_audio/aud2.
php?link=audio/06-26-2019%20-%20Wednesday/19-3196%20 Wil
liam%20Schmitt%20v%20Frank%20LaRose%20et%20al.mp3&n
ame=19-3196%20William%20Schmitt%20v%20Frank%20LaRos
e %20et%20al (last visited September 30, 2019).

160a
“No.” Id. The Court pressed farther: “The question
then is whether its validly on the ballot, and . . . if we
vacate the injunction what happens to the initiative
that passed?” Id. at 37:43. General Flowers answered:
“Someone could challenge it and say it was not properly on the ballot, but that would fail because it was a
legislative action. I don’t see any basis for ruling it
wasn’t.” Id. (emphasis added). Defendant-LaRose thus
made plain to the Sixth Circuit that the two initiatives
this Court restored to the ballot were improperly
removed from the ballot in the first place. This Court’s
preliminary orders restoring them to the ballot were
plainly correct. They were not challenged on appeal.
Plaintiffs here “sought relief in relation to a specific
event and received ostensibly temporary relief that
had permanent effect once the [2018] election passed,”
just like the plaintiffs in Libertarian Party, 2013 WL
4833033 at *2. As in Libertarian Party, Plaintiffs’ success was thereafter mooted by Defendants’ compliance
with the Court’s preliminary order and the conduct of
the election. Id. That Plaintiffs ultimately failed to win
permanent relief does not change this result, as was
made clear in Libertarian Party, 2013 WL 4833033 at
*3 (“Although Plaintiffs also requested additional
relief in the form of declaring certain amendments to
voting regulations unconstitutional and enjoining
their enforcement, a plaintiff becomes a ‘prevailing
party’ by succeeding on a single claim, ‘even if he loses
on several others and even if that limited success does
not grant him the ‘primary relief’ he sought.’”) (citation
omitted).
Plaintiffs in this case, just like the plaintiffs in
Libertarian Party, 2013 WL 4833033, are prevailing
parties on their specific as-applied claim to ballot
access. Plaintiffs are therefore entitled to costs and

161a
fees incurred in order to restore their initiatives to the
ballot and to insure that they were voted on. The
Court’s preliminary orders to that effect were never
appealed and were not challenged in DefendantLaRose’s appeal from the permanent injunction.
II. Determining the Lodestar.
Courts in the Sixth Circuit generally look to the
twelve factors found in Johnson v Georgia Highway
Express, Inc., 488 F.2d 714 (5th Cir. 1974), to assess
the reasonableness of an award of attorney’s fees. See,
e.g, Perry v. Autozone Stores, Inc., 624 Fed. Appx. 370,
372 (6th Cir. 2015) (“Among the factors the district
court may consider are the twelve described in Johnson
v. Georgia Highway Express”); Jordan v. City of
Cleveland, 464 F.3d 584 (6th Cir. 2006); see also
Jiminez v. Wood County, 621 F.3d 372 (5th Cir. 2010).
These 12 factors, which need not all prove relevant,
include: (1) the time and labor required, (2) the novelty
and difficulty of the questions involved, (3) the skill
requisite to perform the legal service properly, (4) the
preclusion of other employment by the attorney due to
acceptance of the case, (5) the customary fee, (6) whether
the fee is fixed or contingent, (7) time limitations
imposed by the client or the circumstances, (8) the
amount involved and the results obtained, (9) the experience, reputation, and ability of the attorneys, (10) the
‘undesirability’ of the case, (11) the nature and length
of the professional relationship with the client, and
(12) awards in similar cases. Johnson, 488 F.2d at 717719.
A review of these 12 factors indicates that Plaintiffs’
attorneys are entitled to be compensated for the reasonable number of hours they have submitted to the
Court and for the reasonable hourly rates they claim.

162a
A. Time and Labor Expended.
The “hours claimed or spent on a case . . . are a necessary ingredient to be considered,” Johnson v Georgia
Highway Express, Inc., 488 F.2d 714, 717 (5th Cir.
1974); indeed, they are viewed as “the most useful starting point for determining the amount of a reasonable
fee.” Hensley v. Eckerhardt, 461 U.S. 424 (1983). In
seeking an award of fees, attorneys have an obligation
to exercise “billing judgment.” Id. at 434. That is,
attorneys should exclude time devoted to unsuccessful
claims, should apportion time shared by more than
one client and/or case, and should generally avoid
billing time that is not fairly attributable to success in
the case at hand.
Here, Plaintiffs’ lawyers have kept and submitted
for the Court’s review contemporaneous time-records
in six-minute (one-tenth of an hour) increments. They
have exercised billing judgment by billing only for
those hours that supported Plaintiffs’ successful temporary, preliminary and permanent injunctions. Plaintiffs’ counsel have further exercised billing judgment
by not billing for many communications with their
clients, between themselves and with Defense counsel
that were shorter than six minutes.
Time constitutes “the starting point” for determining the amount of Plaintiffs’ reasonable fee. Hensley v
Eckerhardt, 461 U.S. at 434. It is not uncommon, of
course, for lawyers in complex cases to dedicate hundreds and even thousands of hours to success. See, e.g.,
Lightfoot v. Walker, 826 F.2d 516, 522 (7th Cir. 1987)
(finding that more than 6,000 hours claimed by the
plaintiffs’ attorneys in litigating a lengthy and complex prison conditions suit were reasonable when the
district court “carefully reviewed the attorneys’ time
sheets and considered their testimony regarding the

163a
division of tasks.”). Ultimately the question is whether
those hours are reasonable. Here, Plaintiffs’ lawyers
have been careful to insure that the limited number of
hours invested in the case were tailored and necessary
to the successful outcome. Their time is reasonable.
They should be compensated for all of the time they
invested in their clients’ success.
B. Difficulty of Questions Presented.
This case involved difficult constitutional questions
under the First and Fourteenth Amendments to the
United States Constitution. The preliminary question
was whether Ohio’s gatekeeper mechanism was properly used to remove Plaintiffs’ initiatives from the ballot.
This turned on difficult questions under the First and
Fourteenth Amendments. The Court correctly concluded that the initiatives should be returned to the
ballot, a determination that Defendant-LaRose on
appeal conceded was correct.
C. Skill Requisite to Perform the Legal
Service Properly.
This criterion is addressed to the Court’s assessment of the attorneys based upon its observation of
“the attorney’s work product, . . . his preparation, and
general ability before the court.” Johnson, 488 F.2d at
718. The judge is to apply his or her expertise gained
from his or her own career, both as a lawyer and as a
judge. Id.
This criterion asks, initially, whether a plaintiff’s
lawyer was competent and experienced to do the job
assigned and, thereby, whether the prevailing plaintiff
is deserving of the reasonable hourly rates for lawyers
engaged in this type of litigation. The fact that the
Plaintiffs here won temporary, preliminary and permanent relief in less than six months is testament to

164a
their skill and services. Plaintiffs’ lead counsel, Brown,
has won ballot access for minor parties and candidates
before in Ohio and has been previously awarded fees
under § 1988(b) by this Court. See, e.g., Moore v.
Brunner, 2010 WL 317017 (S.D. Ohio 2010) (successful
ballot access case against the Ohio Secretary of State
for Socialist Party candidate); Libertarian Party of
Ohio v. Husted, 2013 WL 4833033 (S.D. Ohio 2013)
(successful ballot access case for Libertarian Party of
Ohio). Kafantaris has also been successful in past civil
rights cases involving ballot access in this District.
See, e.g., Libertarian Party of Ohio v. Husted, 2014 WL
11515569 (S.D. Ohio 2014) (striking down Ohio law
that removed Libertarians from ballot). Both lawyers
possess the requisite skills needed to efficiently prosecute ballot access litigation.
D. The Preclusion of Employment by
Attorneys Due to Acceptance of the Case.
Plaintiffs’ lawyers do not claim that they were precluded from taking other employment because of this
case.
E. The Customary Fee.
This Court in Hines v. DeWitt, 2016 WL 2342014 at
* 3 (S.D. Ohio 2016), took “judicial notice of the most
recent Ohio State Bar Association Report as evidence
of prevailing local market rates; see Ohio State Bar
Ass’n, The Economics of Law Practice in Ohio in 2013.”
Using this Report, the Court observed that “$350 per
hour is the median rate for civil-rights attorneys in
Ohio, and the Court is confident that the median attorney in that survey would be competent to undertake
this litigation.” Id. at *4 (emphasis added).
Plaintiffs’ two lawyers’ compensation should be compensated at or above this median rate. Brown should

165a
be awarded the rate of $400/hour based on his thirtyplus years of practice and skill in the specialty of ballot
access. Kafantaris should be awarded the median of
$350.00/hour based on his thirteen years of practice
and skill in the specialty of ballot access. Brown has
been licensed for over 30 years, teaches Constitutional
Law and Constitutional Litigation at Capital University Law School, and has practiced civil rights and
ballot access litigation for many of the years he has
been licensed. Kafantaris has been licensed for thirteen years and has practiced civil rights and ballot
access litigation throughout that time. They both are
at or above the median rate.
F. Awards in Similar Cases.
The hourly rates paid to lawyers in civil rights cases
in the Southern District support this median rate. In
McConaha v. City of Reynoldsburg, 2008WL2697310
(S.D. Ohio 2008), for example, this Court sustained an
attorney fee award in a § 1983 case based on a rate of
$400.00 per hour. In Landsberg v. Acton Enterprises,
Inc., 2008WL2468868 (S.D. Ohio 2008), the Court
awarded $350.00 per hour in a civil rights case. In
Kauffman v. Sedalia Medical Center, 2007 WL 490896
(S.D. Ohio 2007), the Court awarded $325.00 per hour
in another civil rights case. Six years ago – before the
Ohio State Bar Association Report relied on by this
Court was released – Brown was awarded fees based
on a $300.00 hourly rate in a ballot access case.
Libertarian Party of Ohio v. Husted, 2013 WL 4833033
(S.D. Ohio 2013). As made clear by the more recent
Ohio State Bar Association study and similar cases,
the median rate has increased to $ 350 since that time,
which should now serve as the benchmark for judging
Brown’s and Kafantaris’s reasonable rates.

166a
G. Experience, Reputation and Ability of
the Attorneys.
Attorneys Brown and Kafantaris are accomplished
constitutional litigators who have been involved in a
significant amount of constitutional litigation over the
course of several years. Brown’s civil rights experience
traces back over 25 years. See, e.g., Beattie v. City of
St. Petersburg Beach, 733 F. Supp. 1455 (M.D. Fla.
1990). Kafantaris has succeeded in enjoining an Ohio
law banning non-residents from circulating candidates’
part-petitions, see Libertarian Party of Ohio v. Husted,
2013 WL 11310689 (S.D. Ohio 2013), as well as Ohio’s
law removing Libertarian candidates from ballots. See
Libertarian Party of Ohio v. Husted, 2014 WL
11515569 (S.D. Ohio 20140. Their experience and
expertise allows them to pursue complex cases with
fewer hours than might ordinarily be required. Their
expertise, which translates into less time, justifies a
premium rate.
H. Whether the
Contingent.

Fee

Is

Fixed

or

The fee here was contingent. The clients themselves
paid nothing. Plaintiffs’ lawyers expected payment
only based on their success. Consideration of contingency as a factor in determining the reasonableness of
the hourly rate is appropriate, and counsel’s rates are
well within the range of hourly rates charged even for
non-contingency work. See Samuel R. Berger, Court
Awarded Attorneys’ Fees: What is “Reasonable?,” 126
U. PA. L. REV. 281, 324-25 (1977) (“The experience of
the marketplace indicates that lawyers generally will
not provide legal representation on a contingent basis
unless they receive a premium for taking that risk”).
Given the contingent nature of the fee recovery in this
case, premium rates are appropriate.

167a
I. Time Limitations Imposed by the Client
or the Circumstances.
Because of the late date at which Plaintiffs’
initiatives were removed from the Portage County
ballots and the closely approaching 2018 election, time
was a constant concern for Plaintiffs. Plaintiffs’ lawyers were required to act quickly in order to win both
temporary and preliminary relief. The demand for
quick and efficient action by Plaintiffs’ lawyers justifies a premium rate and corroborates Plaintiffs’ reasonable hours.
J. The Results Obtained.
As explained above, Plaintiffs achieved excellent
preliminary results and significant success. Plaintiffs
initiatives were restored to Ohio’s ballot, were voted
on, and one passed. The Windham initiative is now the
law in that Village. This success justifies premium
rates and corroborates Plaintiffs’ reasonable hours.
K. Undesirability of the Case.
Plaintiffs do not claim their case was undesirable.

168a
CONCLUSION
Plaintiffs respectfully request that their Motion for
the following amounts to be paid by Defendant-LaRose
be GRANTED:
Costs (filing fee):

$400.00.

Attorney’s fees (Brown)
for preliminary relief:

$18,920.00.

Attorney’s fees (Kafantaris)
for preliminary relief:

$3570.00.

Attorney’s fees (Brown) for
preparing Motion:

$3520.00

TOTAL:

$26,410.00
Respectfully submitted,
s/ Mark R. Brown
Mark R. Brown, Trial Counsel
303 East Broad Street
Columbus, OH 43215
(614) 236-6590
(614) 236-6956 (fax)
mbrown@law.capital.edu
Mark G. Kafantaris
625 City Park Avenue
Columbus, Ohio 43206
(614) 223-1444
(614) 300-5123(fax)
mark@kafantaris.com

169a
APPENDIX H
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
[Filed: 08/28/18]
————
Case No. 2:cv-18-966
————
WILLIAM SCHMITT, JR., CHAD THOMPSON,
and DEBBIE BLEWITT,
Plaintiffs,
v.
JON HUSTED, in his Official Capacity
as Ohio Secretary of State, and
CRAIG M. STEPHENS, PATRICIA NELSON,
DORIA DANIELS, and ELAYNE J. CROSS,
in their official capacities as members of
the Portage County Board of Elections,
Defendants.
————
PRELIMINARY INJUNCTION
and TRO REQUESTED
————
VERIFIED COMPLAINT
Introduction
1. Plaintiffs in this facial and as-applied Ex parte
Young, 209 U.S. 123 (1908), action brought under the
First Amendment to the United States Constitution
seek to restrain Defendants from enforcing or
applying provisions in O.R.C. § 3501.11(K), O.R.C.

170a
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A) that separately and collectively authorize local elections boards
to scrutinize the subject matter and content of ballot
initiatives.
2. The aforementioned laws, O.R.C. § 3501.11(K),
O.R.C. § 3501.38(M)(1)(a), and O.R.C. § 3501.39(A),
separately and/or collectively, have been authoritatively construed by the Ohio Supreme Court to vest in
local elections boards the responsibility to act as
“gatekeepers” to Ohio’s popular initiative ballots. See
State ex rel. Walker v. Husted, 144 Ohio St.3d 361, 43
N.E.3d 419, 423 (2015) (holding that elections officials
“serve as gatekeepers, to ensure that only those
measures that actually constitute initiatives or
referenda are placed on the ballot.”).
3. Exercising this authority, local elections boards
study the subject matter and content of otherwise
properly submitted and certified initiatives to determine whether those initiatives fall “within the initiative power” and may be placed on Ohio’s ballots. See
O.R.C. § 3501.11(K)(2).
4. The aforementioned laws, O.R.C. § 3501.11(K),
O.R.C. § 3501.38(M)(1)(a), and O.R.C. § 3501.39(A),
separately and/or collectively, have been authoritatively construed by the Ohio Supreme Court to vest
discretion in local elections boards to decide which initiatives may and which may not be placed on Ohio’s
ballots. See, e.g., State ex rel. Walker v. Husted, 144
Ohio St.3d 361, 43 N.E.3d 419, 423 (2015) (“As is wellestablished, abuse of discretion means more than an
error of law or of judgment. In close cases, therefore,
we might very well be compelled to find that the secretary reasonably disqualified a ballot measure, in the
exercise of his discretion, even if we, in the exercise of

171a
our constitutional duties, would deem the measure
unconstitutional.”).
5. The “gatekeeper” mechanism created by the
aforementioned laws, O.R.C. § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, requires that local boards exercise their discretion to make content-based decisions.
See, e.g., State ex rel. Sensible Norwood v. Hamilton
County Board of Elections, 148 Ohio St.3d 176, 69
N.E.3d 696 (2016).
6. The “gatekeeper” mechanism created by the
aforementioned laws, O.R.C. § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, fails to include objective, contentneutral standards to limit local elections boards’ discretion to select some initiatives but not others for
inclusion on ballots.
7. The “gatekeeper” mechanism created by the
aforementioned laws, O.R.C. § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, fails to require that otherwise
properly submitted and certified initiatives that are
denied ballot access by local elections boards based on
their content shall remain on ballots “pending a final
judicial determination on the merits.” See Déjà vu of
Nashville v. Metropolitan Government of Nashville
and Davidson County, 274 F.3d 372, 400 (6th Cir.
2001).
8. The “gatekeeper” mechanism created by the
aforementioned laws, O.R.C. § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately

172a
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, fails to require “a prompt
judicial decision, to minimize the deterrent effect of an
interim and possibly erroneous denial of a license.” See
Déjà vu of Nashville v. Metropolitan Government of
Nashville and Davidson County, 274 F.3d 372, 400
(6th Cir. 2001).
9. The “gatekeeper” mechanism created by the
aforementioned laws, O.R.C. § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, fails to “place the burden of
instituting judicial proceedings and proving that
expression is unprotected on the licensor [here, the
boards of elections] rather than the exhibitor [here,
the supporters of the initiatives].” See Déjà vu of
Nashville v. Metropolitan Government of Nashville
and Davidson County, 274 F.3d 372, 400 (6th Cir.
2001).
10. Because Ohio’s “gatekeeper” mechanism created
by the aforementioned laws, O.R.C. § 3501.11(K),
O.R.C. § 3501.38(M)(1)(a), and O.R.C. § 3501.39(A),
separately and/or collectively, as authoritatively construed by the Ohio Supreme Court, authorizes local
elections boards to make content-based decisions, it is
subject to strict scrutiny under the First Amendment
to the United States Constitution. See Reed v. Town of
Gilbert, 135 S. Ct. 2218, 2227 (2015).
11. Ohio cannot pass strict scrutiny by demonstrating that its “gatekeeper” mechanism is absolutely
required to achieve a compelling state interest.
12. Because Ohio’s “gatekeeper” mechanism created
by the aforementioned laws, O.R.C. § 3501.11(K),
O.R.C. § 3501.38(M)(1)(a), and O.R.C. § 3501.39(A),

173a
separately and/or collectively, as authoritatively construed by the Ohio Supreme Court, vests discretion in
local elections boards to select which initiatives to
include on ballots, the “gatekeeper” mechanism is an
impermissible prior restraint under the First Amendment to the United States Constitution. See, e.g.,
Shuttlesworth v. City of Birmingham, 394 U.S. 147,
150-51 (1969) (“This ordinance as it was written fell
squarely within the ambit of the many decisions of this
Court over the last 30 years, holding that a law
subjecting the exercise of First Amendment freedoms
to the prior restraint of a license, without narrow,
objective, and definite standards to guide the licensing
authority, is unconstitutional.”).
13. Because Ohio’s “gatekeeper” mechanism created
by the aforementioned laws, O.R.C. § 3501.11(K),
O.R.C. § 3501.38(M)(1)(a), and O.R.C. § 3501.39(A),
separately and/or collectively, as authoritatively
construed by the Ohio Supreme Court, fails to include
content-neutral, objective standards limiting the discretion vested in local elections boards, the “gatekeeper” mechanism is an impermissible prior restraint
under the First Amendment to the United States Constitution. See, e.g., Forsyth County v. Nationalist
Movement, 505 U.S. 123, 131 (1990) (“To curtail that
risk, ‘a law subjecting the exercise of First Amendment
freedoms to the prior restraint of a license’ must
contain ‘narrow, objective, and definite standards to
guide the licensing authority.’” Id. (citations omitted).
14. Because Ohio’s “gatekeeper” mechanism created
by the aforementioned laws, O.R.C. § 3501.11(K),
O.R.C. § 3501.38(M)(1)(a), and O.R.C. § 3501.39(A),
separately and/or collectively, as authoritatively construed by the Ohio Supreme Court, fails to require
that otherwise properly submitted and certified initia-

174a
tives that are denied ballot access by local elections
boards based on their content shall remain on ballots
“pending a final judicial determination on the merits,”
the “gatekeeper” mechanism is an impermissible prior
restraint under the First Amendment to the United
States Constitution. See Déjà vu of Nashville v.
Metropolitan Government of Nashville and Davidson
County, 274 F.3d 372, 400 (6th Cir. 2001).
15. Because Ohio’s “gatekeeper” mechanism created
by the aforementioned laws, O.R.C. § 3501.11(K),
O.R.C. § 3501.38(M)(1)(a), and O.R.C. § 3501.39(A),
separately and/or collectively, as authoritatively construed by the Ohio Supreme Court, fails to require “a
prompt judicial decision, to minimize the deterrent
effect of an interim and possibly erroneous denial of a
license, ” the “gatekeeper” mechanism is an impermissible prior restraint under the First Amendment to the
United States Constitution. See Déjà vu of Nashville v.
Metropolitan Government of Nashville and Davidson
County, 274 F.3d 372, 400 (6th Cir. 2001).
16. Because Ohio’s “gatekeeper” mechanism created
by the aforementioned laws, O.R.C. § 3501.11(K),
O.R.C. § 3501.38(M)(1)(a), and O.R.C. § 3501.39(A),
separately and/or collectively, as authoritatively construed by the Ohio Supreme Court, fails to “place the
burden of instituting judicial proceedings and proving
that expression is unprotected on the licensor [here,
the boards of elections] rather than the exhibitor
[here, the supporters of the initiatives],” the “gatekeeper” mechanism is an impermissible prior restraint
under the First Amendment to the United States
Constitution. See Déjà vu of Nashville v. Metropolitan
Government of Nashville and Davidson County, 274
F.3d 372, 400 (6th Cir. 2001).

175a
Facts
17. Plaintiffs William Schmitt and Chad Thompson
are drafters and circulators of initiatives calling for
reductions of penalties in local ordinances in Ohio for
those charged with possessing marijuana.
18. Plaintiffs William Schmitt and Chad Thompson
in 2018 circulated an initiative calling for reductions
of penalties for the charged with possessing marijuana
in the Village of Garrettsville, Ohio with the intent of
having the initiative placed on the Village’s November
2018 election ballot. See Exhibit 1 (Initiative).
19. Plaintiffs William Schmitt and Chad Thompson
in 2018 circulated an identical initiative calling for
reductions of penalties for the charged with possessing
marijuana in the Village of Windham, Ohio with the
intent of having the initiative placed on the Village’s
November 2018 election ballot. See Exhibit 2 (Initiative).
20. Both initiatives circulated for inclusion on
Windham’s and Garrettsville’s respective election ballots complied with Ohio law and were supported by the
required numbers of voters’ signatures. See Exhibit 3
(Board Minutes) (stating that both initiatives contained the required numbers of signatures).
21. Notwithstanding that both identical initiatives
were supported by the required numbers of signatures, were timely, and otherwise complied with Ohio
law, the Portage County Board of Elections on August
20, 2018 refused to certify either one. See Exhibit 3
(Board Minutes).
22. The Portage County Board of Elections on
August 20, 2018 rejected both initiatives, see Exhibits
1 and 2, because it concluded their content was not

176a
proper for inclusion on Ohio’s ballots; the Board’s
minutes state that both identical initiatives were
rejected “because the initiatives are administrative in
nature, rather than legislative. Administrative actions
are not appropriate for initiative petitions.” Exhibit 3.
23. Because of the Portage County Board of Elections action on August 20, 2018, neither initiative will
appear on Ohio’s November 2018 election ballot.
24. Plaintiffs William Schmitt and Chad Thompson
were notified by e-mail that their initiatives had been
rejected by the Portage County Board of Elections on
August 20, 2018. See Exhibit 4.
25. The August 20, 2018 notification, however, did
not explain the reason for the Board’s action; it merely
stated: “This email will serve as notice that the
Portage County Board of Elections did not certify the
initiative petitions regarding marijuana penalties filed
for Garrettsville Village and Windham Village to the
November 6, 2018 General Election ballot.” Exhibit 4
at page 2.
26. After Plaintiff Chad Thompson inquired why
the Portage Board of Elections had rejected the initiatives, he was informed by the Portage County Board of
Elections on August 21, 2018 that:
In State ex rel. Sensible Norwood v. Hamilton
County Board of Elections, 2016-Ohio-5919, the
Oho [sic] Supreme Court said administrative
actions are not subject to initiative. Reviewing the
language in the proposals presented by the Village
of Garrettsville and the Village of Windham, the
$0 fine and no license consequences are administrative in nature. The $0 court costs is administrative in nature and is an impingement on the
judicial function by a legislature. Accordingly,

177a
as the Garrettsville Village and Windham Village
petitions deal with subject matter that is not subject to the initiative process, the Board of Elections, in its discretion, has chosen not to certify
these issues to the ballot.
Exhibit 4 at page 1 (emphasis added).
27. Plaintiff Debbie Blewitt is a registered Ohio
voter who lives in Windham, Ohio.
28. Plaintiff Debbie Blewitt signed Plaintiffs William
Schmitt’s and Chad Thompson’s initiative that was
circulated for inclusion on the Windham ballot. See
Exhibit 2.
29. But for the Portage County Board of Elections
action on August 20, 2018, Plaintiffs’ Garrettsville and
Windham initiatives would have been included on
those two Villages November 6, 2018 ballots.
30. Plaintiffs William Schmitt and Chad Thompson
circulated initiatives proposing ordinances that are
identical to those proposed for Garrettsville and
Windham in Norwood, Ohio, Fremont, Ohio and
Oregon Ohio. See Exhibits 5 (Norwood), 6 (Fremont)
and 7 (Oregon).
31. Plaintiffs initiatives circulated in Norwood, Ohio,
Fremont, Ohio and Oregon Ohio all were certified for
the respective localities’ November 6, 2018 election
ballots.
32. None of the initiatives circulated in Norwood,
Ohio, Fremont, Ohio and Oregon Ohio were deemed by
the relevant local elections boards as falling outside
the initiative power.
33. None of the initiatives circulated in Norwood,
Ohio, Fremont, Ohio and Oregon Ohio were rejected

178a
by the relevant local elections boards as presenting
improper administrative matters.
Parties
34. Plaintiff Chad Thompson is a resident of Toledo,
Ohio and is qualified under Ohio law to circulate
petitions supporting initiatives.
35. Plaintiff William Schmitt is a resident of Bellaire,
Ohio and is qualified under Ohio law to circulate
petitions supporting initiatives.
36. Defendant Jon Husted is the Ohio Secretary of
State and, pursuant to Ohio Rev. Code § 3501.04, is the
chief elections officer in Ohio responsible for enforcing
and defending Ohio’s election laws, including O.R.C.
§ 3501.11(K), O.R.C. § 3501.38(M)(1)(a), and O.R.C.
§ 3501.39(A); he is sued in only his official capacity.
37. Defendant, Jon Husted, as the Ohio Secretary of
State and chief elections officer in Ohio is vested with
the authority to compel local elections boards to comply
with Ohio’s election laws, including O.R.C. § 3501.11(K),
O.R.C. § 3501.38(M)(1)(a), and O.R.C. § 3501.39(A).
See O.R.C. § 3501(M) (stating that Secretary of State
has power to “[c]ompel the observance by election officers in the several counties of the requirements of the
election laws”); Rosen v. Brown, 970 F.2d 169, 171 (6th
Cir. 1992) (observing that Secretary of State “compel[s]
compliance with election law requirements by election
officials”).
38. Defendants Craig M. Stephens, Patricia Nelson,
Doria Daniels, and Elayne J. Cross are the four members of the Portage County Board of Elections responsible for removing Plaintiffs’ initiatives from the
Garrettsville and Windham ballots.

179a
39. Defendants Craig M. Stephens, Patricia Nelson,
Doria Daniels, and Elayne J. Cross are residents of
Ohio and are sued in their official capacities only.
40. Because Defendants Craig M. Stephens, Patricia
Nelson, Doria Daniels, and Elayne J. Cross are sued
in their official capacities, Plaintiffs’ action is effectively
against the Portage County Board of Elections.
41. The Portage County Board of Elections is a local
elections board vested with discretion by O.R.C.
§ 3501.11(K), O.R.C. § 3501.38(M)(1)(a), and O.R.C.
§ 3501.39(A) to remove initiatives based on subject
matter and content.
42. Defendants Craig M. Stephens, Patricia Nelson,
Doria Daniels, and Elayne J. Cross, the Portage
County Board of Elections and Defendant-Secretary of
State were at all relevant and material times acting
under color of Ohio law within the meaning of 42
U.S.C. § 1983 and engaged in state action within the
meaning of the First and Fourteenth Amendments to
the United States Constitution.
Jurisdiction and Venue
43. Federal jurisdiction is claimed under the First
and Fourteenth Amendments to the United States
Constitution, 28 U.S.C. §§ 1331 and 1343, and 42
U.S.C. § 1983.
44. Venue lies in this district under 28 U.S.C.
§ 1391(b) because Defendant-Secretary of State resides in this district and all the Defendants reside in
Ohio, or alternatively because a substantial part of the
events giving rise to Plaintiffs’ claim occurred in the
district.

180a
Claim One (Facial First Amendment
Challenge against Defendant-Secretary and
the Portage County Board of Elections for
Enforcing Content-Based Restriction)
45. Plaintiffs herein incorporate the allegations
made in paragraphs 1 through 44.
46. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, facially violate the First Amendment to the United States Constitution, as incorporated
and applied to Ohio by the Fourteenth Amendment to
the United States Constitution.
47. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, is content-based and cannot
survive strict scrutiny.
48. Defendants Craig M. Stephens, Patricia Nelson,
Doria Daniels, and Elayne J. Cross’s enforcement of
O.R.C. § 3501.11(K), O.R.C. § 3501.38(M)(1)(a), and
O.R.C. § 3501.39(A), separately and/or collectively, as
authoritatively construed by the Ohio Supreme Court,
facially violates the First Amendment.
49. Defendant Secretary of State’s enforcement of
O.R.C. § 3501.11(K), O.R.C. § 3501.38(M)(1)(a), and
O.R.C. § 3501.39(A), separately and/or collectively, as
authoritatively construed by the Ohio Supreme Court,
facially violates the First Amendment.

181a
Claim Two (Facial First Amendment Challenge
against Defendant-Secretary and the Portage
County Board of Elections for Enforcing Prior
Restraint)
50. Plaintiffs herein incorporate the allegations made
in paragraphs 1 through 49.
51. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, facially violate the First Amendment to the United States Constitution, as incorporated and applied to Ohio by the Fourteenth Amendment to the United States Constitution.
52. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, operate as a content-based prior
restraint.
53. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, impermissibly vest discretion in
local elections boards in violation of the First Amendment.
54. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, impermissibly fail to limit local
boards of elections’ discretion with content-neutral,
objective standards in violation of the First Amendment.
55. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the

182a
Ohio Supreme Court, impermissibly fail to require
that otherwise properly submitted and certified initiatives that are denied ballot access by local elections
boards based on their content shall remain on ballots
“pending a final judicial determination on the merits,”
in violation of the First Amendment.
56. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, impermissibly fail to require “a
prompt judicial decision, to minimize the deterrent
effect of an interim and possibly erroneous denial,” in
violation of the First Amendment.
57. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, impermissibly fails to “place the
burden of instituting judicial proceedings and proving
that expression is unprotected on the licensor [here,
the boards of elections] rather than the exhibitor
[here, the supporters of the initiatives],” in violation of
the First Amendment.
58. Defendants Craig M. Stephens, Patricia Nelson,
Doria Daniels, and Elayne J. Cross’s enforcement of
O.R.C. § 3501.11(K), O.R.C. § 3501.38(M)(1)(a), and
O.R.C. § 3501.39(A), separately and/or collectively, as
authoritatively construed by the Ohio Supreme Court,
facially violates the First Amendment.
59. Defendant Secretary of State’s enforcement of
O.R.C. § 3501.11(K), O.R.C. § 3501.38(M)(1)(a), and
O.R.C. § 3501.39(A), separately and/or collectively, as
authoritatively construed by the Ohio Supreme Court,
facially violates the First Amendment.

183a
Claim Three (As-Applied First Amendment
Challenge against Defendant-Secretary and
the Portage County Board of Elections for
Enforcing Content-Based Restriction)
60. Plaintiffs herein incorporate the allegations
made in paragraphs 1 through 59.
61. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by
the Ohio Supreme Court, facially violate the First
Amendment to the United States Constitution, as
incorporated and applied to Ohio by the Fourteenth
Amendment to the United States Constitution.
62. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, is content-based and cannot
survive strict scrutiny.
63. Defendants Craig M. Stephens, Patricia Nelson,
Doria Daniels, and Elayne J. Cross’s enforcement of
O.R.C. § 3501.11(K), O.R.C. § 3501.38(M)(1)(a), and
O.R.C. § 3501.39(A), separately and/or collectively, as
authoritatively construed by the Ohio Supreme Court,
violates the First Amendment as-applied.
64. Defendant Secretary of State’s enforcement of
O.R.C. § 3501.11(K), O.R.C. § 3501.38(M)(1)(a), and
O.R.C. § 3501.39(A), separately and/or collectively, as
authoritatively construed by the Ohio Supreme Court,
violates the First Amendment as-applied.

184a
Claim Four (As-Applied First Amendment
Challenge against Defendant-Secretary and
the Portage County Board of Elections for
Enforcing Prior Restraint)
65. Plaintiffs herein incorporate the allegations
made in paragraphs 1 through 64.
66. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, facially violate the First
Amendment to the United States Constitution, as
incorporated and applied to Ohio by the Fourteenth
Amendment to the United States Constitution.
67. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, operate as a content-based prior
restraint.
68. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, impermissibly vest discretion in
local elections boards in violation of the First
Amendment.
69. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, impermissibly fail to limit local
boards of elections’ discretion with content-neutral,
objective standards in violation of the First Amendment.
70. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately

185a
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, impermissibly fail to require
that otherwise properly submitted and certified initiatives that are denied ballot access by local elections
boards based on their content shall remain on ballots
“pending a final judicial determination on the merits,”
in violation of the First Amendment.
71. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, impermissibly fail to require “a
prompt judicial decision, to minimize the deterrent
effect of an interim and possibly erroneous denial,” in
violation of the First Amendment.
72. Ohio Revised Code § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A), separately
and/or collectively, as authoritatively construed by the
Ohio Supreme Court, impermissibly fails to “place the
burden of instituting judicial proceedings and proving
that expression is unprotected on the licensor [here,
the boards of elections] rather than the exhibitor
[here, the supporters of the initiatives],” in violation of
the First Amendment.
73. Defendants Craig M. Stephens, Patricia Nelson,
Doria Daniels, and Elayne J. Cross’s enforcement of
O.R.C. § 3501.11(K), O.R.C. § 3501.38(M)(1)(a), and
O.R.C. § 3501.39(A), separately and/or collectively, as
authoritatively construed by the Ohio Supreme Court,
violates the First Amendment as-applied.
74. Defendant Secretary of State’s enforcement of
O.R.C. § 3501.11(K), O.R.C. § 3501.38(M)(1)(a), and
O.R.C. § 3501.39(A), separately and/or collectively, as
authoritatively construed by the Ohio Supreme Court,
violates the First Amendment as-applied.

186a
RELIEF REQUESTED
WHEREFORE, Plaintiffs request the following
relief pursuant to 28 U.S.C. § 2201, 42 U.S.C. § 1983
and 42 U.S.C. § 1988(b):
A. a declaration under 28 U.S.C. § 2201 that
O.R.C. § 3501.11(K), O.R.C. § 3501.38(M)(1)(a),
and O.R.C. § 3501.39(A), separately and/or collectively, as authoritatively construed by the Ohio
Supreme Court to authorize local elections boards
to act as “gatekeepers” of initiatives are facially
unconstitutional under the First Amendment;
B. a declaration under 28 U.S.C. § 2201 that
O.R.C. § 3501.11(K), O.R.C. § 3501.38(M)(1)(a),
and O.R.C. § 3501.39(A), separately and/or
collectively, as authoritatively construed by the
Ohio Supreme Court to authorize local elections
boards to act as “gatekeepers” of initiatives are
unconstitutional as-applied under the First
Amendment;
C. a temporary restraining order and/or preliminary injunction under 42 U.S.C. § 1983
prohibiting Defendants from enforcing or
acting under O.R.C. § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A),
separately and/or collectively, as authoritatively
construed by the Ohio Supreme Court to
authorize local elections boards to act as “gatekeepers” of initiatives;
D. a permanent injunction under 42 U.S.C. §
1983 prohibiting Defendants from enforcing
or acting under O.R.C. § 3501.11(K), O.R.C.
§ 3501.38(M)(1)(a), and O.R.C. § 3501.39(A),
separately and/or collectively, as authoritatively
construed by the Ohio Supreme Court to

187a
authorize local elections boards to act as
“gatekeepers” of initiatives;
E. a temporary restraining order and/or preliminary injunction under 42 U.S.C. § 1983 directing Defendants to restore Plaintiffs’ Garrettsville
and Windham initiatives to the ballots of those
Villages;
F. a reasonable attorney’s fee and costs pursuant to 42 U.S.C. § 1988(b);
G. such other and further relief as may be just
and proper.
Dated: August 28, 2018
Respectfully submitted,
s/ Mark R. Brown ___________
Mark R. Brown, Trial Counsel
Ohio Registration No. 81941
303 East Broad Street
Columbus, OH 43215
(614) 236-6590
(614) 236-6956 (fax)
mbrown@law.capital.edu
Mark Kafantaris
Ohio Registration No. 80392
625 City Park Avenue
Columbus, Ohio 43206
(614) 223-1444
(614) 221-3713 (fax)
mark@kafantaris.com
Attorneys for Plaintiffs

188a
VERIFICATION of WILLIAM SCHMITT, JR.
(Pursuant to 28 U.S.C. § 1746(2))
I, William Schmitt, Jr., verify under penalty of
perjury that the foregoing is true and correct.
Executed on 8-28-2018
/s/ William T. Schmitt, Jr.
William Schmitt, Jr.
VERIFICATION of CHAD THOMPSON
(Pursuant to 28 U.S.C. § 1746(2))
I, Chad Thompson, verify under penalty of perjury
that the foregoing is true and correct.
Executed on 8/28/2018
/s/ Chad Thompson
Chad Thompson
VERIFICATION of Debbie Blewitt
(Pursuant to 28 U.S.C. § 1746(2))
I, Debbie Blewitt, verify under penalty of perjury
that the foregoing is true and correct.
Executed on 8-28-18
/s/ Debbie Blewitt
Debbie Blewitt

